<html>
<title> - ENERGY AND WATER, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2007</title>
<body><pre>[Senate Hearing 109-]
[From the U.S. Government Printing Office]



 
 ENERGY AND WATER, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 
                                  2007

                              ----------                              


                        THURSDAY, MARCH 30, 2006

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:13 a.m., in room SD-138, Dirksen 
Senate Office Building, Hon. Pete V. Domenici (chairman) 
presiding.
    Present: Senators Domenici, Bond, Allard, Reid, and Murray.

                          DEPARTMENT OF ENERGY

STATEMENT OF DAVID K. GARMAN, UNDER SECRETARY OF ENERGY 
            FOR ENERGY, SCIENCE AND ENVIRONMENT
ACCOMPANIED BY:
        JAMES RISPOLI, ASSISTANT SECRETARY OF ENERGY FOR ENVIRONMENTAL 
            MANAGEMENT
        JEFFREY JARRETT, ASSISTANT SECRETARY FOR FOSSIL ENERGY

             OPENING STATEMENT OF SENATOR PETE V. DOMENICI

    Senator Domenici. The hearing will please come to order. 
Now, this is a very lengthy hearing. We are going to try to do 
it all. I do not know if we can finish it in the time allotted. 
If we do not, we will hold it over to this afternoon and try to 
finish it for whomever can come. The witnesses that are not 
finished this morning, please understand, get on your 
telephones and advise people you might have to be here this 
afternoon.
    I have a very lengthy statement. There is no other way for 
me to do it. But I am going to yield to the distinguished 
ranking minority leader for his opening remarks. Then I will 
have mine and then if either Senator would like. I would like 
them to keep them brief and to the point.
    Senator Reid, thank you for coming.

                    STATEMENT OF SENATOR HARRY REID

    Senator Reid. Mr. Chairman, thank you very much. I 
appreciate your courtesy. I know everyone is busy and I feel 
that I should not step out of line, but I appreciate your 
allowing me to do so.
    Secretary Garman, Dr. Orbach, I am delighted to see the 
proposed increases for the Office of Science Research Programs. 
As a supporter of balanced energy policy, I believe that your 
office has an absolutely critical role to play in delivering 
discoveries and scientific tools that transform our 
understanding of energy and matter in areas as diverse and 
fundamental as biological and environmental research to nuclear 
power and even fusion.
    I am also pleased to see the proposed increases for energy 
sciences, computing, nuclear physics, fusion energy, including 
the $41 million increase for the International Thermonuclear 
Experimental Reactor project, known as ITER.
    Dr. Garman, I am similarly pleased to see the increases for 
the proposed Advanced Energy Initiative. I laud the value of 
research and development to promote American energy security 
and a corresponding decrease in our dependence on foreign 
resources. I also believe that the proposed initiatives in 
biofuels, hydrogen, and solar research can all play a 
significant role in our future energy security.
    I am, though, disappointed by your decision to zero out the 
geothermal energy program. I am really somewhat mystified. I 
see nothing in the budget request to defend this action of 
yours, so I assume you are hard-pressed to come up with an 
answer. Geothermal is really something that needs to be used. 
It is there, it is at our fingertips, and some have referred to 
Nevada as the Saudi Arabia of geothermal energy.
    I have a series of questions and a separate statement for 
the record on this issue and I ask consent that I can submit 
these to you.
    Senator Domenici. Without objection.
    Senator Reid. Though you should be assured I will continue 
to press for geothermal energy in next year's budget, this 
year's budget, fiscal year 2007.
    I hope you will also take some time to discuss why you did 
not avail yourself of the fiscal flexibility offered in last 
year's conference report concerning Congressionally directed 
activities. I am very eager to understand what led you to the 
conclusion that laying off National Renewable Energy Lab 
employees, if only for a week, made sense, given the broad 
authority you had to avoid such an outcome. It embarrassed the 
President and it embarrassed all of us.
    This subcommittee needs to be in a position to support the 
President's competitiveness and energy initiatives. However, 
unless this committee receives a higher budget allocation some 
very difficult choices will have to be made between proposed 
increases in nuclear and renewable energy programs, while 
programs such as fossil energy are severely shortchanged. For 
every huge plus-up of new ideas by the President, you have cut 
huge congressional priorities. Congress is going to have to 
restore your indefensible, I believe indefensible, cuts to the 
weatherization program, clean coal power initiative, and 
geothermal energy programs, just to name a couple.
    The most likely sources of these funds in a flat budget 
environment are big initiatives that are seeing huge funding 
pushes and it is hard for us to comprehend that. For example, 
Yucca Mountain. The Department has requested $544 million. This 
represents an increase over the $495 million of last year of 
$50 million. I am convinced that the proposed Yucca Mountain 
nuclear waste dump will never be built. We know it is mired in 
scientific, safety, and technical problems. When this bill was 
passed 20 years ago, there was reason for doing it. It has not 
worked well.
    In 1987 Congress, as we know, took additional action. It 
was based on political expediency and it has not worked well. 
DOE has been studying this site for 20 years. The studies are 
incomplete and do not provide a basis for evaluating whether 
Yucca Mountain is a safe site for storing nuclear waste or that 
we can transport it across America's highways and railways to 
our communities, past our schools and hospitals and through 
major metropolitan areas. Transportation of nuclear wastes 
around the country and to Yucca poses hazards to public health, 
economic and national security, and environmental safety from 
accidents and terrorist acts, issues that did not exist in 
1982, issues though which, with the changing environment, DOE 
has refused to address.
    Moving about 80,000 tons of waste to Yucca would involve at 
least 55,000 truckloads, maybe as many as 10,000 rail 
shipments, through counties which include 250 million people--
Sacramento, Buffalo, Denver, Chicago, the District of Columbia.
    Before his election, President Bush wrote, I quote: ``I 
believe sound science and politics must prevail in the 
designation of any high-level nuclear waste repository. As 
President, I would not sign legislation that would send nuclear 
waste to any proposed site unless it has been deemed 
scientifically safe.'' Again, President Bush let politics and 
unsound science prevail.
    A few of the scientific problems that we have seen even in 
the last year-and-a-half include: a court decision throwing out 
EPA's radiation protection standards as they were not strong 
enough to protect the public from radiation exposure and failed 
to follow the recommendations of the National Academy of 
Sciences. Next, EPA published in 2005 its revised standards for 
the proposed site, which most scientists believe are 
inadequate, do not meet the law's requirements, and do not 
protect public health and safety. In fact, EPA is proposing the 
least protective health radiation standard in the whole world.
    Numerous scientific and quality assurance problems with 
transportation have also been brought to our attention, 
problems dealing with transportation, corrosion of casks, 
effectiveness of materials, causing DOE to suspend work on the 
surface facilities and to issue a stop-work order on the 
containers.
    Also, DOE revealed that documents and models about water 
infiltration at Yucca Mountain had been falsified. People lied 
about it. They whitewashed the problem, but they cannot 
whitewash the DOE Inspector General's report that DOE continues 
to ignore falsification of technical and scientific data on the 
project. This is not the governor of Nevada or some State 
legislature, but it is the Inspector General of the Department 
of Energy that says this, that the DOE continues to ignore 
falsification of technical and scientific data.
    In numerous media reports, the administration has confirmed 
that it is preparing a legislative package that will remove 
health, safety and legal requirements, a clear admission, I 
suggest, that the project is a public health and safety and 
scientific failure.
    It should be clear to anyone that the proposed Yucca 
Mountain project is not going to move. It will never open. Yet 
we must safely store spent nuclear fuel. It is time to look at 
other alternatives. Fortunately, the technology to realize a 
viable, safe, and secure alternative is readily available and 
can be fully implemented within a decade. That technology is 
on-site dry cask storage. As we speak, dry casks are being 
safely used at 34 sites throughout our country. Even NEI 
projects 83 of the 100 active reactors will have dry cask 
storage by 2050.
    Senator Ensign and I have a bill that would safely store 
nuclear waste while we look for a scientifically based 
solution, the Spent Fuel On-Site Storage and Security Act. Our 
bill requires commercial nuclear utilities to secure waste in 
licensed on-site dry cask storage facilities. There is no 
justification for endangering the public--I pushed it down with 
my card. Thanks, Mr. Chairman.
    There is no justification for endangering the public by 
rushing headlong toward a repository that is fraught with 
scientific, technical, and geological problems when it can be 
stored safely and securely in dry casks. The bill guarantees 
all Americans that our Nation's nuclear waste will be stored in 
the safest way possible. So it is time we proceed to address 
the problem, the safe storage of spent nuclear fuel, and stop 
pouring hundreds of millions of dollars every year down the 
drain.

               PREPARED STATEMENTS OF SENATOR HARRY REID

    Since the Yucca project I believe is a failure, I will 
continue to oppose it. I want to, Mr. Chairman, spread on the 
record how, even though we have butted heads on this issue for 
many, many years, it has all been in the sense of policy 
differences. You have been a gentleman to work with and I 
appreciate that, extending today to allowing me to go first, 
and I apologize to my colleagues for taking as long as I have 
with the statement.
    [The statements follow:]

                Prepared Statement of Senator Harry Reid

    Mr. Chairman, I appreciate you holding this combined hearing today 
to discuss the fiscal year 2007 budget request for a large number of 
Department of Energy programs, including the Office of Science, the 
Energy Efficiency and Renewable Energy programs, the Office of 
Electricity, the Fossil Energy program, the nuclear energy program, the 
Office of Legacy Management, the Office of Environment, Safety and 
Health, the Environmental Management program and, of course, the Yucca 
Mountain program.
    I am pleased to welcome Mr. Dave Garman, the Under Secretary for 
Energy, Science, and the Environment, and Dr. Raymond Orbach, the 
Director of the Office of Science.
    I am going to submit several longer statements for the record 
regarding the Energy Supply Program and Office of Science generally, 
and the geothermal energy program specifically.
    However, while I am here today, I would like to offer several brief 
observations about the overall budget request for these programs and 
then a much longer discussion about the on-going government failure and 
embarrassment that is the Yucca Mountain Program.
    Mr. Chairman, I will try to be brief.
    Dr. Orbach, I am delighted to see the proposed increases for the 
Office of Science research programs. As a supporter of a balanced 
energy policy, I believe that your office has an absolutely critical 
role to play in delivering discoveries and scientific tools that 
transform our understanding of energy and matter in areas as diverse 
and fundamental as biological and environmental research to nuclear 
power and fusion.
    I am pleased to see the proposed increases for basic energy 
sciences, computing, nuclear physics, and fusion energy including the 
$41 million increase for the International Thermonuclear Experimental 
Reactor project (ITER).
    I was prepared to ask you some very specific questions about job 
impacts based on enactment of this budget request to make sure we avoid 
any problems similar to what we faced this year, but given the massive 
increases I think I can forgo that line of questioning.
    Mr. Garman, I am similarly pleased to see the increases for the 
proposed Advanced Energy Initiative. As you are aware, I laud the value 
of research and development to promote American energy security and a 
corresponding decrease in our dependence on foreign resources. Further 
I believe that the proposed initiatives in Biofuels, Hydrogen, and 
Solar research can all play a significant role in our future energy 
security.
    I am, however, mystified by your decision to zero our the 
geothermal energy program. I see little effort in the budget request to 
even bother to try to defend this action, so I assume you were hard-
pressed to dream one up. I have a very long series of questions and a 
separate statement for the record on this issue. However, it is safe to 
say that there will be a geothermal energy program in fiscal year 2007.
    I hope you will also take some time to discuss why you did not 
avail yourself of the fiscal flexibility offered you in the fiscal year 
2006 Conference Report concerning Congressionally-directed activities. 
I am very eager to understand what led you to the conclusion that 
laying off National Renewable Energy Lab employees, if only for a week, 
made sense given the broad authority you had to avoid such an outcome.
    Finally, this subcommittee wants to be in a position to support the 
President's Competitiveness and Energy Initiatives. However unless this 
committee receives a higher budget allocation, some very difficult 
choices will have to be made between proposed increases in Nuclear and 
Renewable Energy programs while program such as Fossil Energy are 
severely shortchanged.
    For every huge plus-up of shiny new ideas by the President, you 
have cut huge Congressional priorities. Congress is going to have to 
restore your indefensible cuts to the Weatherization Program, the Clean 
Coal Power Initiative, and the geothermal energy program, just to name 
a few. The most likely sources of these funds, in a flat budget 
environment, are big initiatives that are seeing huge funding pushes.
    As for Yucca Mountain . . . . 
    The Department has requested $544 million for fiscal year 2007 for 
the nuclear waste repository program. This represents an increase over 
the current year appropriated amount of $495 million by approximately 
$50 million.
    I am convinced that the proposed Yucca Mountain nuclear waste dump 
will never be built because the project is mired in scientific, safety 
and technical problems.
    In 1982, Congress passed the Nuclear Waste Policy Act, which called 
for disposal of nuclear waste in a deep geological repository that 
would remain stable for thousands of years and directed DOE to pick the 
most suitable site based on the natural, geologic features of the site.
    In 1987, Congress took action based on political expediency and 
limited DOE's studies to Yucca Mountain, despite the fact that the 
criteria in the Act would disqualify the Yucca Mountain site.
    DOE has been studying the site for 20 years. The studies are 
incomplete and do not provide a basis for evaluating whether Yucca 
Mountain is a safe site for storing nuclear waste or that it can be 
transported safely across America's highways and railways and through 
our communities, past our schools and hospitals and through major 
metropolitan areas.
    Transportation of nuclear waste around the country and to Yucca 
poses hazards to public health, economic and national security and 
environmental safety from accidents and terrorist attacks, issues which 
DOE has not addressed.
    Moving 77,000 tons of waste to Yucca would involve about 53,000 
truck shipments or 10,000 rail shipments over 24 years, through 
counties in which nearly 250 million people live, including Sacramento, 
Buffalo, Denver, Chicago, Washington DC, and Las Vegas.
    Before his election, President Bush wrote, ``I believe sound 
science, not politics, must prevail in the designation of any high-
level nuclear waste repository. As President, I would not sign 
legislation what would send nuclear waste to any proposed site unless 
it's been deemed scientifically safe.''
    Now President Bush is letting politics and unsound science prevail 
at Yucca Mountain.
    A few of the scientific problems that we have seen the last year 
and a half include:
  --In 2004, the Court threw out EPA's first radiation protection 
        standards for Yucca because they were not strong enough to 
        protect the public from radiation exposure and failed to follow 
        the recommendations of the National Academy of Sciences.
  --In 2005, EPA published its revised standards for the proposed Yucca 
        Mountain high-level waste dump, which are wholly inadequate, do 
        not meet the law's requirements and do not protect public 
        health and safety. In fact, EPA is proposing the least 
        protective public health radiation standard in the world.
  --Numerous scientific and quality assurance problems with 
        transportation plans, corrosion of casks, the effectiveness of 
        materials, etc., causing DOE suspend work on the surface 
        facilities and NRC to issue a stop work order on the 
        containers.
  --In addition, DOE revealed that documents and models about water 
        infiltration at Yucca Mountain had been falsified. They 
        whitewashed this problem, but cannot whitewash the DOE 
        Inspector General's report that DOE continues to ignore 
        falsification of technical and scientific data on the project.
    In numerous media reports, the administration has confirmed that it 
is preparing a legislative package that will remove health, safety and 
legal requirements, a clear admission that the project is a public 
health, safety and scientific failure.
    It should be clear to anyone that the proposed Yucca Mountain 
project is not going anywhere. Yucca Mountain will never open.
    Yet, we must safely store spent nuclear fuel.
    It is time to look at other nuclear waste alternatives. 
Fortunately, the technology to realize a viable, safe and secure 
alternative is readily available and can be fully implemented within a 
decade if we act now. That technology is on-site dry cask storage.
    Dry casks are being safely used at 34 sites throughout the country. 
NEI projects 83 of the 103 active reactors will have dry storage by 
2050.
    Senator Ensign and I have a bill that would safely store nuclear 
waste while we look for a scientifically-based, safe solution--The 
Spent Fuel On-Site Storage and Security Act of 2006, S. 2099. Our bill 
requires commercial nuclear utilities to secure waste in licensed, on-
site dry cask storage facilities.
    There is absolutely no justification for endangering the public by 
rushing headlong towards a repository that is fraught with scientific, 
technical and geological problems when it can be stored safely and 
securely in dry casks. Our bill guarantees all Americans that our 
Nation's nuclear waste will be stored in the safest way possible.
    It is time we addressed to problem at hand--the safe storage of 
spent nuclear fuel--and stopped pouring taxpayers' money down the drain 
on a project that could endanger all of our citizens.
    The Yucca Mountain project is a failure. I vow to continue to fight 
this project.
    Thank you, Mr. Chairman. As always, I look forward to working on 
these issues with you and your staff.

                                 ______
                                 
              Supplemental Statement of Senator Harry Reid

       REGARDING THE TERMINATION OF THE GEOTHERMAL ENERGY PROGRAM

    We need to put America on the path to energy independence with 
policies that promote advanced energy technologies. Energy is 
critically important to America's future and our national security. 
That's why I joined as a leader in the Democrats' plan to make America 
energy independent by 2020.
    Our plan builds on a fundamental commitment to support expanded 
renewable energy development. The development of renewable energy will 
bolster our national security, protect our environment, and create jobs 
in Nevada, while also providing a steady, reliable supply of energy for 
consumers.
    Nevada has many features that make it an ideal location to develop 
renewable energy sources. In fact, our State has been a leader in this 
area for many years. Nevada is particularly rich in geothermal energy, 
which could meet one-third of our State's energy needs. I worked with 
then-Energy Secretary Bill Richardson to launch the Geopowering the 
West initiative in 2000 to help develop Nevada's tremendous geothermal 
potential. This project funds public/private partnerships to develop 
geothermal power in Nevada, California, New Mexico, and Utah, with the 
ultimate goal of providing 10 percent of the electricity needs of the 
Western States from geothermal sources by the year 2020.
    One of the great advantages of renewable energy is that these 
technologies work in harmony with the environment and do not leave a 
legacy of dangerous waste products that future generations will have to 
figure out how to deal with. One of the best legacies we can leave to 
our children is a clean environment and a history of preservation of 
our natural beauty and wilderness. We always will need clean water to 
drink and safe air to breathe. While we have made much progress over 
the last 30 years, it is critical that we maintain our strong 
commitment to safeguarding our Nation's natural heritage and protecting 
our environment.
    Our Nation's leadership must put us on a path that protects the 
environment and builds a new, sustainable economy. Both the environment 
and the economy are crucial to our Nation. Without a strong economy, it 
is impossible to protect our environment adequately. Without a healthy 
environment, our economy cannot thrive. The best technologies to 
address both our energy and economic needs are energy efficiency and 
renewable energy, and I believe that most of my colleagues in the 
Senate would agree with that assertion.
    For a moment, I thought I might hear the administration agreeing 
with us. The proposed fiscal year 2007 Budget of the Department of 
Energy began with fanfare that gave that impression. In its press 
release on February 6, DOE said: `` . . . the Department of Energy 
(DOE) requests $23.6 billion, a $124 million increase over the fiscal 
year 2006 request. The fiscal year 2007 budget request makes bold 
investments to improve America's energy security while protecting our 
environment, puts policies in place that foster continued economic 
growth, spurs scientific innovation and discovery, and addresses the 
threat of nuclear proliferation.''
    But getting past the fanfare, the reality of the proposed fiscal 
year 2007 budget is far different. The administration's budget goes in 
the opposite direction, cutting efforts to develop clean, renewable 
energy and promoting technological choices that will make our nuclear 
proliferation a greater threat and expanding our nuclear waste legacy 
to future generations.

                PROVIDING RELIABLE, CLEAN ELECTRIC POWER

    One of the challenges we face is meeting the growing demand for 
electric power, particularly in the West. The Western Governors 
Association has estimated that over 50,000 MW of new electric power 
generation will be needed to meet growing demand in the next decade. 
How we meet these needs will have profound consequences for Nevada, the 
West and the Nation.
    DOE's proposed budget seems to make some clear and rather abrupt 
choices regarding future power production options. The DOE Budget 
documents asserts: ``Few technologies provide clean, reliable, baseload 
electricity--only nuclear power'' (DOE fiscal year 2007 Budget 
presentation Power Point, page 6).
    It is true that few technologies can provide electricity that is 
clean, reliable, and baseload--many technologies suffer from problems 
with intermittent generation and offer only peaking support. But, the 
Department's budget inexplicably increases funding for these 
intermittent technologies while completely gutting the most promising 
renewable technology that can provide reliable baseload power--
geothermal energy.
    The Department's own Geothermal Program Strategic Plan stresses 
these values of geothermal energy. It states:

    ``The Earth houses a vast energy supply in the form of geothermal 
resources. These resources are equivalent to 30,000 years of energy for 
the United States at current rates of consumption. However, only about 
2,600 MWe of geothermal power is installed today. Geothermal has not 
reached its full potential as a clean, secure energy alternative 
because of concerns or issues with resources, technology, commitment by 
industry, and public policies. These concerns affect the economic 
competitiveness of geothermal energy.
    ``The U.S. Department of Energy's Geothermal Technologies Program 
seeks to make geothermal energy the Nation's environmentally preferred 
baseload energy alternative. The Program's mission is to work in 
partnership with U.S. industry to establish geothermal energy as an 
economically competitive contributor to the Nation's energy supply.''

    But, the geothermal strategic plan indicated that the program could 
not reach its goals until at least 2040 because of its limited funding. 
It went on to say that ``Doubling the Program's budget'' would 
accelerate achieving the program goals and they could ``be attained by 
2020, resulting in an overall budget savings of $100 million.''
    Sounds like doubling the geothermal research program would be a 
good investment!
    If the Department's researchers felt they could bring tens of 
thousands of megawatts of reliable, baseload geothermal power on-line 
by 2020 with a doubling of the budget, you would think that 
recommendation would receive top priority. But it obviously didn't. 
Instead, the Department of Energy budget has proposed to zero-out the 
geothermal program. It has chosen to undermine progress in a technology 
that can effectively compete with nuclear power or fossil fuels to 
provide reliable electric power.
    Why? What rationale could possible support such a decision? Well, 
Secretary Bodman explained to the Senate Energy Committee: ``While the 
budget proposes increases for Biomass, Solar and Hydrogen research, the 
Geothermal Program will be closed out in fiscal year 2007 using prior 
year funds. The 2005 Energy Policy Act amended the Geothermal Steam Act 
of 1970 in ways that should spur development of geothermal resources 
without the need for subsidized Federal research to further reduce 
costs.''
    So is DOE blaming Congress! We simply went too far in the Energy 
Policy Act supporting geothermal energy, and now it doesn't need DOE 
support?
    But, let's compare these choices for a moment. DOE proposes $0 for 
geothermal energy, but it has asked for $632.7 million for nuclear 
energy activities. I guess EPAct didn't take care of nuclear power as 
well. But, that doesn't seem to be the case. Here for the record is how 
the Senate Energy Committee views the highlights of EPAct's provisions 
supporting nuclear energy and geothermal energy:

``Highlights of the Energy Bill--Senate Energy Committee
            ``Nuclear Power
    ``Nuclear energy is the world's largest source of emission-free 
energy. Nuclear powerplants produce no controlled air pollutants, such 
as sulfur and particulates, or greenhouse gases. The use of nuclear 
energy in place of other energy sources helps to keep the air clean, 
preserve the Earth's climate, avoid ground-level ozone formation and 
prevent acid rain.
    ``The bill has several provisions to ensure that nuclear energy 
remains a major component of the Nation's energy supply. Nuclear power 
currently provides 20 percent of America's electricity. It is our 
cheapest form of electricity, second only to hydropower. It one of our 
safest, most reliable and cleanest energies.
    ``The energy bill offers a 1.8 cent per kilowatt hour production 
tax credit for electricity produced by new nuclear power. This applies 
only to the first half dozen advanced nuclear powerplants.
    ``It offers federal loan guarantees for innovative technologies--
including new advanced nuclear reactors--that will diversify and 
increase energy supply while protecting the environment. These 
guarantees are available only for new technologies that provide clean 
energy and protect the environment. Those seeking guarantees pay into 
the U.S. Treasury a sum equal to the financial risk assessed by the 
CBO, thus not costing taxpayers a dime.
    ``Establishes standby support framework through the DOE for new 
nuclear plant construction against regulatory or judicial delays for 
six reactors. This standby support would cover the delay before plant 
is put into operation.
    ``Extends Price Anderson liability protection is extended through 
2025 for both NRC licensees and DOE contractors.
    ``Creates a stand-by support program to ensure that consumers do 
not have to pay higher electricity bills because of unforeseen delays 
in the construction of new nuclear powerplants due to bureaucratic red 
tape or litigation. The program insures the utilities for the cost of 
these delays.
    ``Provides for the export of high enriched uranium to Canada, 
Belgium, France, Germany or the Netherlands for the sole purpose of 
producing diagnostic and life saving medical isotopes until a low 
enriched uranium alternative is commercially viable and available.
    ``Requires the DOE to propose a permanent disposal facility to 
Congress for Greater Than Class C waste within one-year of enactment.
    ``Strengthens security of nuclear facilities, including improved 
federal oversight of plant security and the expansion of federal 
statutes for sabotage of nuclear facilities.''
            ``Geothermal
    ``Geothermal energy is an abundant energy in various parts of the 
country that is under-utilized. Geothermal energy is clean, renewable 
and, in countries like Iceland, is a primary source of energy.
    ``The energy bill creates a competitive geothermal leasing program 
that allows the private sector--not just government geologists--to 
identify geothermal areas for leasing. The program is intended to bring 
geothermal energy to the market sooner.
    ``The bill also includes incentives to counties to encourage 
geothermal development by allowing them to keep a percentage of the 
royalties from that development.''

    Well, at least according to the Senate Energy Committee EPAct seems 
to have done a lot more for nuclear power than geothermal energy. Given 
the Secretary's statement justifying terminating the geothermal 
research program, perhaps he should take another look at whether the 
Department needs to continue its nuclear power programs. Or, for that 
matter, perhaps other programs as well.
    Questions: Department officials have also claimed that the fiscal 
year 2007 budget does not reflect the directions it was given in EPAct 
because their budget was formulated before the new law was passed. Yet, 
apparently the Department can move fast enough to terminate the 
geothermal research program based on EPAct. Can the Department explain 
how EPAct figured into its fiscal year 2007 budget deliberations and 
provide any studies or other documents that assesses in a comparative 
fashion the provisions of EPAct and the Department's research programs? 
When does the Department intend to implement the new initiatives in 
EPAct--including new initiatives that direct increased funding for 
renewable energy research, including geothermal energy?

            CONTRADICTIONS TO OTHER STUDIES AND ASSESSMENTS

    The decision to close out the geothermal research program also 
appears to contradict the recommendations of the last external review 
of the Department of Energy's renewable programs, the 2000 report of 
the National Research Council entitled Renewable Power Pathways. That 
National Research Council's examination of the geothermal program 
states in clear terms the importance of the program, and the 
recommendation that it continue to be funded: ``In light of the 
significant advantages of geothermal energy as a resource for power 
generation, it may be undervalued in DOE's renewable energy 
portfolio.''
    But, the Department of Energy seems not to agree with this 
assessment. In other budget documents the Department presents another 
rationale for closing out this program. Basically, it sees geothermal 
energy as a ``regional resource'' with limited applicability. (see 
``http://www1.eere.energy.gov/ba/pdfs/fiscal year 
2007_budget_brief.pdf.)
    Somehow this represents a change in views at the Department of 
Energy. The Department's 2003 Strategic plan included geothermal energy 
research as part of its efforts to ``Improve energy security by 
developing technologies that foster a diverse supply of reliable, 
affordable, and environmentally sound energy . . .''. Geothermal power 
was part of DOE's ``long-term vision of a zero-emission future in which 
the nation does not rely on imported energy.''
    Obviously, something has changed. Somehow, the geothermal resource 
has shrunk in the past 3 years! Quite an amazing phenomenon, which 
probably deserves some explanation. Today, geothermal resources are 
used in 25 States for power and direct use purposes (not including heat 
pumps) and advanced technology has the potential to bring geothermal 
power in use across the country.
    The Department used to consider the future potential of geothermal 
energy to be quite significant. Today, we produce about 2,800 Megawatts 
of power from geothermal resources, and the power potential alone was 
estimated to be many times that amount. The DOE Geothermal Strategic 
Plan used to say:

    ``The U.S. Geological Survey estimated that already-identified 
hydrothermal reservoirs hotter than 150 C have a potential generating 
capacity of about 22,000 MWe and could produce electricity for 30 
years.\1\ Additional undiscovered hydrothermal systems were estimated 
to have a capacity of 72,000-127,000 MWe. At depths accessible with 
current drilling technology virtually the entire country possesses 
usable geothermal resources (Figure 1). The best areas are in the 
western United States where bodies of magma rise closest to the 
surface.''

    The Department's strategic plan included a very interesting map 
that showed the potential of heat in the earth to contribute to our 
energy needs. As the map shows, DOE used to view the technical 
potential of geothermal energy to span the entire country from Maine to 
California.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Questions: Does the Department agree with the National Research 
Council that the US geothermal resource base holds significant 
potential to contribute to national energy needs? What actions did the 
Department take to implement the recommendations made by the National 
Research Council in 2000? Has the Department had further communications 
with the NRC about its assessment and any follow-up by the Department? 
Please provide any documents supporting these actions and 
communications?
  --How does DOE view the potential of geothermal resources? What has 
        happened in the past three years to apparently change the 
        Department's views of the geothermal resource base and its 
        potential?
  --What resources does the Department now consider economic: 
        hydrothermal, hot dry rock, geopressured, magmatic, others?
  --The Department had indicated that there were many technological 
        challenges to achieving production from the vast geothermal 
        resource base. Does the Department now consider these 
        challenges are solved or does the Department have new 
        information that indicates its prior assessments of geothermal 
        resources are incorrect?

                             OMB RATIONALE

    The Office of Management and Budget, with whom I presume the 
Department coordinates its budget, seems to offer some additional 
rationales for terminating the geothermal research program. They are 
just about as interesting as those presented by the Department itself. 
There appear to be three main assertions by OMB:
  --(1) geothermal technology is ``mature'' and doesn't really need 
        more R&D,
  --(2) the change in leasing royalty structure from 50/50 to 50/25/25 
        will make a substantial difference, so research isn't needed,
  --(3) the forthcoming resource assessment by USGS will solve the 
        industry's exploration problems.
  --(4) with new tax incentives, geothermal power does not need 
        research support.
    With only a very small fraction of the ``hydrothermal'' resource 
base not in use, it seems self-evident to me that most of the vast 
geothermal resource base is not economically useable with today's 
technology.
    Questions: How did the Department determine that geothermal 
technology was mature and did they apply this same test to all other 
technologies in the Department's portfolio?
  --Would the Department provide to the Committee any studies it has 
        done of technological maturity and a chart showing the 
        comparable maturity of all of the technologies it proposes to 
        fund and not to fund?
  --How did the Department decide that nuclear energy, which provides 
        20 percent of the electricity in the United States, was somehow 
        not mature while at the same time deciding that geothermal 
        energy, which provides 0.5 percent of the electricity in the 
        United States, was mature?

                            ROYALTY CHANGES

    Regarding the changes in EPAct to Federal royalties, let me say 
that I support those changes since they will provide needed support for 
counties in the West to provide the infrastructure needed for energy 
development that benefits the entire Nation, and these funds will help 
mitigate for the socioeconomic impacts of new development on the local 
community.
    But, it is far from obvious to me how splitting the Federal share 
of the royalties with the local government is going to make a lot of 
difference to the climate for geothermal development. It is even less 
clear how doing so is going to help us with our needs for new 
exploration/characterization/resource-management technology. This is 
really an ``apples and oranges'' argument. If I have a broken furnace, 
it's nice if you buy me a new sofa--but it won't keep my house warm.
    Also, the budget also proposes to repeal this provision of EPAct 
anyway! Perhaps the Department could clarify this situation. I'm almost 
afraid to ask.

                        USGS RESOURCE ASSESSMENT

    The next rationale--that the USGS national resource assessment will 
solve the industry's exploration needs--seems to beg questions about 
what it is that the USGS really plans to do and how much funding they 
will have to do anything. Does the Department of Energy presume that 
the USGS national resource assessment will discover new resources or 
develop new exploration technology?
    It's been my understanding that USGS will not engage in any 
significant new exploration activity. What they will do is 
``assessment'' by examining existing field data (much of which was 
available clear back in the 1970's when Circular 790 was written) and 
re-interpret it in light of more modern concepts about how geothermal 
systems are likely to behave, and in light of field data that has been 
acquired by industry since that time. The purpose is to come up with a 
more realistic appraisal of how much identified geothermal potential 
there really is, and where it is located.
    However, I understand that this will be a study involving little or 
no new field work, no exploration drilling, and no exploration 
technology development or verification. The essential fact is that the 
USGS assessment, while important and potentially useful for planning 
purposes (i.e., the WGA study and policy pronouncements by 
organizations like EIA), is not likely to discover any genuinely NEW 
resources.
    Questions: Does the Department of Energy presume that the USGS 
national resource assessment will discover new resources or develop new 
exploration technology?
  --Please explain and detail any new exploration or technology 
        development anticipated to be undertaken by the USGS in the 
        conduct of its new national resource assessment? Please discuss 
        the support, to date, from DOE for these efforts and the plans, 
        if any, for continued support by DOE for this effort?
  --My understanding from the industry is that a critical need is 
        better exploration technology, and that this is an area where 
        technological breakthroughs could be made. What information 
        does the Department have to support its assertion that private 
        industry will develop this technology in the next few years 
        without government research support?

                             TAX INCENTIVES

    Another interesting conclusion that OMB has come to is that with 
the new tax incentive offered geothermal power, there is no need for 
more research funding. The new tax incentive is the addition of 
geothermal technology to the list of those eligible for the Production 
Tax Credit. Notably, wind and biomass have been eligible for the 
production tax credit since 1992, but neither of those programs is 
proposed for termination. Also, the current production tax provision 
expires in 2 years.
    I have several questions about this rationale.
    Questions: Does the Administration now support having new 
geothermal facilities eligible for the full production tax credit? When 
did the Administration make this policy change, and where was it 
communicated?
  --Does the Administration now support making the production tax 
        credit permanent? Why wasn't this reflected in the 
        Administration's fiscal year 2007 budget?
  --What information, analysis, or other information does the 
        Department have that supports its assertion that this tax 
        credit substitutes for the need for federal research support? 
        How has the Department applied this measure across the 
        technologies within its research portfolio, and would the 
        Department provide a chart comparing the tax treatment provided 
        by law for the technologies in its research portfolio?

                     INTERNATIONAL COMPETITIVENESS

    Finally, I would ask about the impact of the proposed research cuts 
on the international competitiveness of the geothermal industry. It's 
my impression that the U.S. industry has been a world leader in 
geothermal technology, helping develop billions of dollars of projects 
around the world.
    In fact, in addition to calling for an expanded geothermal research 
program, the National Research Council's Renewable Power Pathways 
report stresses how the United States is the world leader in geothermal 
technology and that the direction DOE takes with its research program 
has real consequences for this situation. Their NRC report states: 
``the United States has taken the lead in successful commercial 
demonstrations of geothermal energy for generating electricity and heat 
at several sites and is the current technology leader in the world 
among very active competitors in Europe and Japan.'' They go on to warn 
``U.S. leadership may be short-lived because the U.S. R&D program is 
now much smaller than those of overseas competitors.''
    Questions: Is it a fair assumption that with total elimination of 
the DOE research program, U.S. leadership in geothermal technology will 
be lost in a fairly short period of time?
  --Isn't this contradictory to the emphasis that the Administration is 
        placing upon science and technology as underpinnings for our 
        economy and our future?

                               CONCLUSION

    Geothermal energy is an important resource for the Nation. We have 
only begun to tap this vast resource. We should not be cutting back on 
geothermal or other renewable resources efforts. We instead should be 
expanding our effort to use this resource in all of its forms more 
effectively. That means making the Federal production tax credit 
permanent for geothermal and other renewable technologies, expanding 
our resource assessment efforts by USGS and supporting State agencies 
and university research centers, and increasing funding for geothermal 
research and outreach by the Federal Government.

    Senator Domenici. Thank you very much, Senator.
    We will proceed now. Let me ask, does any other Senator 
want to make a brief statement before I make mine on your side? 
A brief one or a long one?
    Senator Murray. A brief one.
    Senator Bond. I have a long one.
    Senator Domenici. You will wait for your turn?
    Senator Bond. I will wait for my turn.
    Senator Domenici. Okay. I do not even remember what your 
issue is here today. You have got a couple of them.
    Senator Bond. Coal.
    Senator Domenici. Coal.
    Senator Bond. Coal.
    Senator Domenici. The lack of funding for coal in the 
budget, is that it?
    Senator Bond. You guessed it. Boy, you just blew my whole 
story.

                 STATEMENT OF SENATOR PETE V. DOMENICI

    Senator Domenici. All right. Let me start once again and 
back up for a minute, thanking the Senator for his comments. It 
is true we do try to work together on this issue. I do not 
purport here today for the press--I am not going to answer the 
points that have been raised by the distinguished Senator. 
Obviously we have some very serious disagreements. We have some 
ideas that seem to be merging in terms of where things are 
going.
    Having said that, I want to thank Dr. Ray Orbach and 
Secretary Garman for being here today. Dr. Orbach is the 
current Director of the Office of Science and the President's 
nominee for the newly created position of Under Secretary of 
Science. Dr. Orbach, it is just a matter of things clearing 
here and then you will receive your new title. So I hope you 
are acting like you are an Under Secretary.
    Dr. Orbach. No.
    Senator Domenici. You are not? Well, we will let the world 
know that as far as this committee is concerned you are, and 
the Senate is going to do that pretty soon.
    Secretary Garman, we are delighted that you have had time 
now to really get your feet wet in this office. It is a tough 
one. You have got a big, big agenda, everything from energy 
efficiency, renewables, the Office of Nuclear Energy, Office of 
Electricity Delivery and Reliability, Office of Fossil and R&D 
and Environment Management Activities.
    It is nice to see you again, and we welcome you to the 
committee. We hope you are enjoying the work, but we hope you 
understand that you have a terribly difficult job put on your 
shoulders, and you are going to have to tell us today that you 
are pushing hard for some of the very tough things that have to 
be done.
    In the State of the Union the President announced an 
American Competitive Initiative and Advanced Energy Initiative. 
These initiatives recognized that the Department's long-term 
investment in physical sciences and energy R&D were of utmost 
importance. I am also pleased to see an increasing level of 
cooperation between the Office of Science and Energy Research 
and Development in their efforts to solve our energy needs. I 
believe the bioenergy and hydroenergy initiatives are a good 
example of this cooperative investment. I hope it continues. I 
think its synergism will yield big results.
    The American Competitive Initiative commits $5.9 billion in 
2007 and more than $137 billion over 10 years to programs that 
help America retain its leading edge in science, math, and 
technology. The ACI, as it is called by the President, will 
increase investments in research and development, education, 
tax incentives to encourage innovation within this Department 
of Energy that you now try to manage under the able direction 
of the Secretary.
    This translates to $505 million increase from 2006 levels 
to a $4.1 billion 2007 level for the Office of Science. I 
assume, Dr. Orbach, that you relish and look forward to such an 
increase. Is that correct?
    Dr. Orbach. Yes, sir.
    Senator Domenici. I saw you smile, so I thought you might 
just as well talk.
    The President also announced an Advanced Energy Initiative, 
which aims to reduce America's dependence on imported energy 
sources and commits $2.1 billion to meet the goal, an increase 
of $381 million.
    The President recognizes that research and innovation are 
America's best answer to the voracious global appetite of 
carbon fuels, which my friend Senator Bond is here to talk 
about, obviously. Thanks to the work of the Department, our 
Nation will be able to produce more energy from nuclear power, 
wind, sun, and our own field crops in the coming years. These 
are not little actions, but rather, combined, could be gigantic 
steps toward America's minimizing its dependence upon foreign 
carbons, foreign sources of crude oil, to run our machine, our 
transportation and economic machine.
    I commend the President for his efforts to make tough 
choices with the funds available. However, I am concerned about 
several programs and they are big; they are important and they 
are vital to our energy independence and they did not receive 
sufficient funding. Specifically, I am concerned about the 
shortfall in funding for the nuclear R&D funding, the clean 
coal power initiative, and the several provisions within the 
EPAct that will support development of new alternative energy 
technology demonstrations. Clearly, we put them in in the 
Energy Act. The President has not funded them to the extent 
that many of us thought he should.
    The Office of Nuclear Energy--there are shortfalls in the 
Nuclear Power 2010, Next Generation nuclear programs, that will 
inhibit our ability to fully realize a revival in this nuclear 
power agenda. NP 2010 program is critical to demonstrating its 
first of a kind combined construction-operating license process 
with the Nuclear Regulatory Commission. This cost is shared, is 
a shared activity, which the Department is not living up to, 
will not be able to, as to its share of the deal. The nuclear 
powerplant Next Generation received $23 million, down $16 
million. That is a rather sharp cut.
    This budget process proposes to cut clean coal power 
initiative from $49.5 million this year to $5 million for 2007, 
almost you could say doing away with it. Ninety-five percent 
equals 100 percent, I imagine, in a program like this.
    The United States has a 250-year supply of coal. Protecting 
the technology to burn coal at a minimal impact is critical to 
the economic and global competitiveness of this great Nation. I 
question the wisdom of this and hope you can explain it. There 
may be a short-term explanation or there may be a catch-up 
explanation. We need that.
    Another area of concern under the Energy Policy Act is that 
this legislation provides incentives. I direct this at you 
again, Mr. Under Secretary. These incentives are in the form of 
loan guarantees. You are aware of that. You helped us write it. 
You know how important we thought they were going to be in all 
of the clean energy technologies, including clean coal, 
biomass, and new nuclear powerplants.
    America's business stands ready, as we understand it, to 
develop new and innovative sources of energy under this 
program. But progress is either stalled or not moving rapidly 
enough to provide the guidelines or the process for 
applications for loans. It does no good for someone to have a 
new project, and we developed a no-cost-to-Government loan 
program, and not have them available. We need to know today 
when they are going to be available.
    So, Secretary Garman, this is one you are going to have to 
work with us today and you are going to have to continue until 
it is done. If you need some help from us, we are here. We will 
also speak of weatherization. You know there is a problem 
there. That is out in the open. I do not need to raise it here 
myself.
    I am deeply concerned about the $762 million cut to the 
environmental management program. That brings the distinguished 
Senator from the State of Washington here today. It also has 
one that hits at my heart too this time, so we may be on the 
same path. We may be trying to succeed together. I do not know. 
But $762 million cut in that program? I recognize that we have 
completed Rocky Flats, right, a very good sign. You can hold up 
a flag and say for the first time, I think partly because 
Colorado was a great host State and worked collaboratively, we 
have a very big solution.
    But that does not mean that a $762 million reduction in the 
remaining programs can be sustained. I am concerned about the 
current status of the waste treatment facility in Washington. I 
do not have the answers, but clearly we have to stay on this 
until it becomes a success like Rocky Flats maybe. Most of us 
will be gone by then, but let us say that we ought to at least 
wish for that day.
    I am aware the cost estimates exceed $11 billion and I hope 
you can explain the Department's strategy for addressing this 
skyrocketing cost. I also must tell you that I am vitally 
interested to know how the Department intends to fulfill its 
commitment--and you must listen carefully to this--under a 
consent agreement with the State of New Mexico for cleanup at 
Los Alamos. Funding for this project has been cut by $50 
million. Now, I do not know how we do that. I mean, we have 
done it in the past. We just ignore a court decree. But it 
happens to be in the chairman's State. That does not look too 
good, does it, I do not think. But anyway, we are going to work 
on it, right?
    Let me say in closing about Yucca Mountain, I am concerned 
about the slow progress for the completion of the facility. I 
understand that the license application will not be ready until 
2008. That is just getting the application ready. That does not 
mean anything has happened. I am aware that the administration 
is working on new legislation which authorizes a different 
approach to the repository. I have told them repeatedly that I 
will introduce it in their behalf so as to push it with some 
degree of vigor. That does not mean I will support it 
wholeheartedly. But we must see what it is.
    Dr. Orbach, Secretary Garman, you have an important job in 
front of you, delivering on the President's promise of an 
American Competitive Initiative. You are aware that you are not 
the whole initiative. You are team players. I know you both 
have statements on all of this. You can expect questions on 
many of it, so do not try to cover them all. I would like you 
to try to summarize in 10 minutes if you can do that, and then 
right now I will include your full statement in the record.
    We will start with you, Mr. Secretary. No, we will not. We 
will start with Senators. Okay, we are going to go with you, 
Senator.

                   STATEMENT OF SENATOR PATTY MURRAY

    Senator Murray. Thank you, Mr. Chairman, and good morning 
to both Under Secretary Garman and Dr. Orbach. I know we have a 
lot of ground to cover, so I will keep my statement brief.
    I just wanted to say that I am a long-time advocate of 
increased funding for the Office of Science and I am pleased to 
see the administration has requested $4.1 billion, a 14 percent 
increase over fiscal year 2006. That is good news. For the 
United States to continue to be a leader in the sciences, we 
have to make the decision to invest in our own future.
    I was also relieved to see a request of $690 million for 
the waste treatment plant. This construction project is the 
cornerstone to cleaning up Hanford and we have to get it back 
on track. However, this budget has some gaps, including the $52 
million reduction of funds for the tank farm activities. 
Secretary Bodman described the radioactive wastes on that site 
as among the most dangerous chemicals known to man. That was 
waste that was created during World War II and the cold war and 
Washington State has fulfilled its national duty during those 
times, and now the Federal Government has a responsibility to 
fulfill its national duty to clean up that site. It is about 
protecting the health and the welfare of the region and the 
people who live there.
    Under Secretary Garman, I read your written testimony last 
night and I just wanted you to know I take issue with your 
statement where you say, ``It surprises many to learn that we 
spend more each year to clean up Hanford, roughly $1.8 billion, 
than we do annually on our entire portfolio of applied energy 
research and development, which is approximately $1.5 billion. 
To put it bluntly, this is a budget that begins to put the 
energy back in the Department of Energy.''
    Well, Mr. Garman, it sounds to me like you are suggesting 
that our efforts to clean up the polluted sites in the Nation 
are coming at the cost of Federal energy R&D, and it is sort of 
a slap in the face to the people of Washington State to imply 
that their need for clean air and clean water and cleanup of 
this critical site and their contribution to winning a war is 
detracting from the investments in the Federal R&D portfolio.
    I want to remind you this Nation has a moral and a legal 
obligation to clean up Hanford site, and if there is a belief 
that the Federal investment in applied energy R&D has been 
lacking in recent years it is because the administration has 
made that choice every year with its budget proposals. We have 
to fulfill our obligations to clean up and we need to invest in 
R&D. One does not preclude the other.
    So I just wanted to make that clear and I do have a number 
of questions I will be asking when we get to that round.
    Senator Bond [presiding]. Senator Allard.

                   STATEMENT OF SENATOR WAYNE ALLARD

    Senator Allard. Thank you, Mr. Chairman, for holding this 
hearing today. As you know, I am co-chairman of the Senate 
Renewable Energy and Energy Efficiency Caucus and represent the 
State which the National Renewable Energy Laboratory calls 
home. As a scientist myself, I have always been a strong 
supporter of research funding in all areas.
    For these reasons I have a special interest in today's 
hearing. Today more attention is being focused on clean energy 
and energy efficiency technologies. This is a time when the 
development of alternative energy sources is becoming more 
important than ever. We must continue to provide incentives for 
the implementation of renewable technologies and for the 
infrastructure necessary to support these renewable sources.
    These technologies are a necessary step in balancing our 
domestic energy portfolio, increasing our Nation's energy 
security, and advancing our country's technological excellence. 
Renewable energy is a very important way that we can begin to 
reduce the demand for oil and thereby help to make our country 
more secure. There are great opportunities for solar, wind, 
geothermal, biomass, fuel cells, and hydro to make significant 
contributions. Research and the input of both Government and 
industry entities is very important to allowing these 
opportunities to live up to their potential.
    The National Renewable Energy Laboratory in Colorado can 
and does make an incredible contribution to the development of 
these resources. Technologies being developed at NREL, whether 
providing alternative fuels and power or making our homes and 
vehicles more energy efficiency, are vital to our Nation's 
energy progress.
    But what is really unique about NREL is that their focus is 
for moving research and scientific discovery to the market. 
That means that the money that we spend on science is being 
designed in a practical way to help Americans and American 
consumers. I think that is very unique about the National 
Renewable Energy Laboratory that we have in Colorado.
    Recently, due to an abundance of earmarks, NREL was faced 
with dramatic funding cutbacks that resulted in lost jobs. The 
Department did everything it could to mitigate the job losses, 
but we still lost 32 positions. Thankfully, DOE was able to 
find an additional $5 million and these jobs were restored. I 
would like to thank you, Mr. Garman, who is here today, 
Secretary Bodman and everyone at DOE and NREL for working to 
make that situation right. I hope to work with DOE and my 
colleagues on this subcommittee to see that a situation like 
this does not happen again.
    I was also very disappointed to learn that much of the 
money being saved by the accelerated cleanup of Rocky Flats has 
not been given to other DOE cleanup sites for accelerated 
cleanup. As I understand the DOE's fiscal budget 2007 request, 
the environmental management account has been reduced by over 
$740 million from the amount appropriated in fiscal year 2006. 
It has always been my understanding that the money saved by 
accelerating Rocky Flats would be used for the cleanup of other 
sites. We were spending over $500 million at Rocky Flats alone. 
This was one of the reasons Senator Domenici and others were 
willing to support accelerated cleanup of Rocky Flats.

               PREPARED STATEMENT OF SENATOR WAYNE ALLARD

    I look forward to working with the committee to ensure that 
R&D in all fields of energy technology are funded in a manner 
that is responsible, but sufficient to ensure that the 
development and implementation of new technologies continues.
    Thank you, Mr. Chairman.
    [The statement follows:]

               Prepared Statement of Senator Wayne Allard

    Mr. Chairman, thank you for holding this hearing today. As you 
know, I am co-chairman of the Senate Renewable Energy & Energy 
Efficiency Caucus and represent the State which the National Renewable 
Energy Laboratory calls home. And, as a scientist myself, I have always 
been a strong supporter of research funding in all areas. For these 
reasons, I have a special interest in today's hearing.
    Today more attention is being focused on clean energy and energy 
efficient technologies. This is a time when the development of 
alternative energy sources is becoming more important than ever. We 
must continue to provide incentives for the implementation of renewable 
technologies, and for the infrastructure necessary to support these 
renewable sources. These technologies are a necessary step in balancing 
our domestic energy portfolio, increasing our Nation's energy security 
and advancing our country's technological excellence.
    Renewable energy is a very important way that we can begin to 
reduce the demand for oil and, thereby, help to make our country more 
secure. There are great opportunities for solar, wind, geothermal, 
biomass, fuel cells and hydro to make significant contributions. 
Research and the input of both government and industry entities is very 
important to allowing these opportunities to live up to their 
potential.
    The National Renewable Energy Laboratory in Colorado can, and does, 
make an incredible contribution to the development of these resources. 
Technologies being developed at NREL--whether providing alternative 
fuels and power, or making our homes and vehicles more energy 
efficient--are vital to our Nation's energy progress.
    Recently, due to an abundance of earmarks, NREL was faced with 
dramatic funding cutbacks that resulted in lost jobs. The Department 
did everything it could to mitigate the job losses, but we still lost 
32 positions. Thankfully DOE was able to find an additional $5 million 
and these jobs were restored. I'd like to thank Mr. Garman, who is here 
today, Secretary Bodman, and everyone at DOE and NREL for working to 
make that situation right. I hope to work with DOE and my colleagues on 
this subcommittee to see that a situation like this does not happen 
again.
    I was very disappointed learn that much of the money being saved by 
the accelerated clean-up of Rocky Flats has not been given to other DOE 
clean-up sites for accelerated clean-up. As I understand the DOE's 
fiscal year 2007 budget request, the Environmental Management account 
has been reduced by over $740 million from the amount appropriated for 
fiscal year 2006. It has always been my understanding that the money 
saved by accelerating Rocky Flats would be used for the clean-up of 
other sites. We were spending over $500 million at Rocky Flats alone. 
This was one of the reasons Senator Domenici and others were willing to 
support accelerated clean-up at Rocky Flats.
    I look forward to working with the committee to ensure that R&D in 
all fields of energy technology are funded in a manner that is 
responsible, but sufficient to ensure that the development and 
implementation of new technologies continues.

    Senator Domenici [presiding]. Thank you very much, Senator, 
and you are to be commended on the work you did with reference 
to Rocky Flats, truly an example of great cooperation.
    Senator Allard. Well, Mr. Chairman, as you know, this would 
not have happened without your cooperation and the other sites 
around the country. It was because of everybody working 
together. The idea was that when we got this cleaned up that 
money was going to be available for other sites to accelerate 
their cleanup, to do things that are actually going to lead to 
cleanup like we experienced at Rocky Flats. So thank you.
    Senator Domenici. Now, Senator Bond.

                STATEMENT OF SENATOR CHRISTOPHER S. BOND

    Senator Bond. Thank you very much, Mr. Chairman. I 
appreciate the opportunity to comment. As you have already so 
well stated, Mr. Chairman, our Nation's energy problems are as 
serious as ever. Over the past year we have experienced record 
prices for crude oil, natural gas, gasoline, and diesel fuel, 
at least in part due to the devastation of Hurricane Katrina. 
But it has pointed out how fragile our energy supply is.
    Again, as the chairman has noted, the simple fact of the 
matter is that our Nation's energy supplies are not keeping up 
with demand. We are importing more oil and natural gas than 
ever and we are doing very little to develop our own domestic 
sources of energy. There are solutions to the problems. In 
addition to strong conservation measures, we need to increase 
our domestic supplies of energy in oil, in gas, and nuclear 
power, and we must also develop alternative and renewable 
sources of energy.
    But I am particularly focused on the use of coal and the 
development of new and cleaner coal-based technologies to 
provide us with the alternative resource to meet our Nation's 
growing energy needs. Coal already provides more than half our 
Nation's electricity and it is the largest single source of 
overall domestic energy production at more than 31 percent of 
the total.
    Coal, as we all know, can be converted through proven, 
existing, modern technology into clean zero-sulfur synthetic 
oil and oil products at roughly $35 a barrel, compared to the 
current $65-or-so price per barrel of oil. Coal liquefaction or 
coal-to-liquid refineries can be located anywhere that coal is 
produced. This proven technology can produce clean 
transportation fuels using domestic coal, thereby expanding our 
supply of transportation fuels while decreasing our dependence 
on foreign sources of energy. This includes gasoline, diesel, 
and other liquid fuels.
    We are looking forward to the report from the Coal Council 
that I believe will put us on the path to independence from 
overseas import of oil and gas by 2025.
    Now, the great thing about coal-refined diesel fuel is it 
will be low in sulfur. It will come out cleaner, enable 
refiners to meet the clean air requirements, and help the 
public lead healthier lives.
    Now, a lot of us were really encouraged to hear the 
President highlight the importance of increasing this 
investment in clean coal technologies and zero emission coal-
fired plants in his State of the Union Address in January. High 
hopes. The President's Clean Coal Power Initiative represents 
an important first step in the development of clean coal 
technologies. Nevertheless, that euphoria was met with the 
stunning news when we saw that the 2007 budget request for coal 
research initiatives and the Clean Coal Power Initiative. As 
you know, title IV of the Energy Policy Act of 2005 authorizes 
$200 million for the Clean Coal Power Initiative in 2007, but 
the President's budget request comes out at only $5 million for 
this important program, over a $44 million cut.
    I hope that someone here can tell OMB about the President's 
Clean Coal Power Initiative. It would be very helpful if the 
right hand knew what the left hand was doing. The CCPI is a 
cooperative, cost-shared program between the Government and 
industry to demonstrate emergency technologies in coal-based 
power generation, to accelerate commercialization. Technologies 
are selected with the goal of accelerating development and 
deployment of coal technologies that will meet environmental 
standards in a cost effective manner.
    The prior years' appropriations have enabled the Department 
of Energy to conduct two clean coal demonstration programs 
during the past 6 fiscal years, but the $5 million proposed by 
OMB for this program will not even allow the DOE and industry 
to conduct a demonstration project every other year. Our 
researchers may develop clean coal technologies in the lab, but 
unless they can demonstrate these technologies we will not see 
the progress.
    I believe the Clean Coal Power Initiative should be funded 
at at least $150 million to conduct another clean coal 
demonstration project in the near future. With over 250 years 
worth of recoverable coal reserves in the United States, coal 
is without question our Nation's most abundant resource. It is 
estimated that these coal reserves are equivalent to roughly 
800 billion barrels of oil, making the United States the Saudi 
Arabia of coal. Those of us in the heartland who take pride now 
that through ethanol and soy diesel we are beginning to make a 
contribution to our energy needs, see the potential that the 
coal that we have throughout the Nation, not only the Midwest, 
but in Alaska and all over, can be realized, making us energy 
producers rather than just energy consumers.
    In light of the growing global demand for oil and gas, our 
Nation's increased dependence on foreign sources of energy, and 
our abundant supply of domestic coal, I think it is imperative 
we promote and adequately fund clean coal technologies to meet 
the Nation's urgent needs for reliable and affordable sources 
of energy.
    The coal research initiative and the clean coal power 
initiative administered by DOE are vital to the future use of 
our Nation's most abundant fossil fuel resources and they must 
be adequately funded. The budget that we were presented just 
does not do that.
    I will leave a question for the record that will come as no 
surprise, I am sure. Mr. Garman, you may want to address it in 
your remarks, but my question would be: In light of the small 
amount of the funding for the program, is the administration 
truly serious about promoting clean coal technologies in its 
effort to reduce dependence on foreign oil and promoting energy 
independence?
    Thank you, Mr. Chairman, my colleagues, and I thank you, 
gentlemen.

               PREPARED STATEMENT OF SENATOR THAD COCHRAN

    Senator Domenici. Thank you, Senator. Senator Cochran has 
also submitted a statement which will be included for the 
record.
    [The statement follows:]

               Prepared Statement of Senator Thad Cochran

    Mr. Chairman, I appreciate your holding this hearing to review 
budgets of the Department of Energy's Office of Science, Office of 
Nuclear Energy, Office of Fossil Energy, Office of Environmental 
Management as well as many other important accounts with the Department 
of Energy. I want to join you in thanking the witnesses for being here 
to provide testimony and answer questions.
    I am pleased that the Department is continuing to look for 
alternate and renewable sources of energy to correct the trend toward 
unnecessary reliance on foreign sources of oil and gas. My State 
continues to conduct research to develop cleaner and more efficient 
sources of energy. After Hurricane Katrina, fuel costs rose as much as 
$3 per gallon and finding diesel to transport necessities or to run the 
electrical generators used to cool poultry production facilities became 
a challenge. Our biodiesel suppliers provided this needed fuel which 
proved not only to be a cleaner fuel, but a fuel that is a substitute 
for foreign oil.
    Mr. Chairman, I look forward to working with you this year on these 
important accounts as well as the new American Competitiveness 
Initiative and the Advanced Energy Initiative.

                      STATEMENT OF DAVID K. GARMAN

    Senator Domenici. Now we will proceed. Under Secretary 
Garman, please let us hear from you at this point.
    Mr. Garman. Well, it is clear from the opening statements 
from the Senators that I am going to be on a bit of the hot 
seat this morning and it does not pay me to belabor that any 
with a long statement. So I will be extremely brief. I would 
just like to take 4 minutes to stress just a few key points.
    If you ask me to distill this entire DOE budget, with all 
its puts and takes, into a single theme or concept, it would be 
that we are emphasizing science, research and development in 
pursuit of transformational energy technologies. This budget 
significantly increases our investments in clean energy 
research and the fundamental science to support that research. 
We have proposed some significant increases in areas such as: 
applied solar energy research, up 78 percent; applied biomass 
research, up 65 percent; applied hydrogen research, up 42 
percent; and applied nuclear energy research, up 56 percent.
    We have also proposed, as you have noted, a significant 
increase in basic energy sciences under the Direction of Dr. 
Orbach, recognizing that we must strengthen the connections 
between our basic and applied energy work. We are determined to 
make the activities in basic sciences more relevant and more 
strongly linked to the applied energy programs working to 
advance practical energy technologies, such as solar, nuclear, 
hydrogen, and biomass.
    Because these increases have been sought within an overall 
departmental budget that is level funded, we have had to 
propose some reductions in some otherwise worthy programs--low 
income weatherization comes to mind--because we felt it was 
important to articulate priorities and make those tough calls 
mindful of the practical limitations on discretionary spending 
that you as appropriators face.
    As you all know, the Department of Energy could more 
accurately be referred to as the Department of Nuclear Weapons, 
Radioactive Cleanup, Science, and Energy, in that order, if the 
Department's name were to more accurately capture its 
activities and the priority placed on them as reflected by our 
levels of spending on those activities.
    I do not mean, Senator Murray, and I hope you do not take 
my statement as you did--we did not intend or I do not intend 
to say that we are going to somehow shirk our environmental 
obligations. We take on those obligations. We know those 
obligations are ours. In saying that we spend less on applied 
energy research at the Department than we do on things such as 
the cleanup of Hanford, I am not suggesting that we should 
spend less on the cleanup at Hanford. I am suggesting rather we 
should be spending more on applied energy research, and that 
was the point of the statement and I hope you do not 
misconstrue. I did want to make that clear.
    This is a budget that does begin to put energy back in the 
Department of Energy, not just in the applied energy programs 
but in the science programs managed by Dr. Orbach that can 
contribute totally new thinking and new approaches in meeting 
our energy challenges. And at a time when this Nation is as 
concerned as it is about energy security and clamoring for new 
energy solutions, we should strive to do nothing short of that.

                           PREPARED STATEMENT

    With that, Mr. Chairman, I can either go into some of the 
things that were raised or just prepare to take the questions 
and interact. I am aware of the time constraints of the 
committee and I want to be respectful of that time.
    [The statement follows:]

                 Prepared Statement of David K. Garman

    Mr. Chairman and members of the committee, thank you for this 
opportunity to appear to discuss the President's fiscal year 2007 
budget request for the Department of Energy (DOE). This testimony will 
focus on the budget requests for the Office of Energy Efficiency and 
Renewable Energy, the Office of Electricity, the Office of Nuclear 
Energy, the Office of Fossil Energy, the Office of Environmental 
Management, and the Office of Civilian Radioactive Waste Management. 
But let me first provide some context.
    This budget recognizes that science-driven technology is at the 
heart of the Department of Energy's missions, and that our national 
laboratories and facilities, together with universities and research 
activities in the private sector, must be better leveraged to enhance 
America's national security, economic security, and energy security.
    Therefore, we have proposed to significantly increase our 
investment in science, in keeping with the American Competitiveness 
Initiative.
    We have also proposed to significantly increase investments in 
clean energy research in areas such as solar, biomass, hydrogen, wind, 
and nuclear, in keeping with the Advanced Energy Initiative.
    Notably, we have proposed these increases within a flat 
Departmental budget. Since any realistic pursuit of new or enhanced 
initiatives must be mindful of practical limitations on discretionary 
spending, we have prioritized our mission activities, which resulted in 
proposed reductions in areas such as low-income weatherization--not 
because we regard these as unworthy activities--but because we know 
that you are as mindful of the constraints on discretionary spending as 
we are.
    As Secretary Bodman has observed, the Department of Energy could 
more accurately be referred to as the Department of Nuclear Weapons, 
Radioactive Cleanup, Science and Energy--in that order--if the 
Department's name were to more accurately capture its activities and 
the priority placed on them as reflected by our investments. It 
surprises many to learn that we spend more each year to cleanup 
Hanford, roughly $1.8 billion dollars, than we do annually on our 
entire portfolio of applied energy Research and Development (R&D), 
which is approximately $1.5 billion dollars. To put it bluntly, this is 
a budget that begins to put the ``energy'' back in the Department of 
Energy. Not just in the applied energy programs, but in the science 
programs that can contribute new thinking and new approaches in meeting 
our energy challenges. We are determined to make the activities in 
basic sciences more relevant and more strongly linked to the applied 
energy programs working to advance practical energy technologies in 
areas such as solar, nuclear, hydrogen and biomass. At a time when this 
Nation is concerned about energy security and clamoring for new clean 
energy solutions, we should strive to do nothing short of that.
    With respect to the applied energy technologies, the President's 
Advanced Energy Initiative provides a 22 percent increase for research 
that can help reduce America's dependence on foreign oil and advance 
clean energy technologies. The fiscal year 2007 budget proposes $149.7 
million for Biomass and Biorefinery Systems Research and Development 
(R&D) program to support the new Biofuels Initiative to develop cost 
competitive ethanol from cellulosic materials (agricultural wastes, 
forest residues, and bioenergy crops) by 2012. In addition, the budget 
request continues to pursue the vision of reducing America's dependence 
on foreign oil, reducing air pollution, and reducing greenhouse gas 
emissions through the development of new technologies, including 
hydrogen. The fiscal year 2007 budget requests a total of $289.5 
million (including $1.4 million requested by the Department of 
Transportation) to support implementation of the President's Hydrogen 
Fuel Initiative. The fiscal year 2007 budget also provides a 27 percent 
increase for advanced battery technologies that can improve the 
efficiency of conventional hybrid electric vehicles (HEV) and help make 
``plug-in'' HEVs commercially viable.
    To help develop clean, affordable electricity, the fiscal year 2007 
budget includes $148.4 million for a new Solar America Initiative to 
develop cost competitive solar photovoltaic technology by 2015. The 
fiscal year 2007 also advances the administration's commitment to the 
FutureGen project, which will establish the capability and feasibility 
of co-producing electricity and hydrogen from coal with near-zero 
atmospheric emissions of pollutants and greenhouse gasses.
    Any serious effort to stabilize greenhouse gasses in the atmosphere 
while providing the increasing amounts of energy for economic 
development and growth requires the expanded use of nuclear energy. 
This will inevitably require us to address the spent fuel and 
proliferation challenges that confront the expanded, global use of 
nuclear energy. Therefore, the Department's fiscal year 2007 budget 
features $250 million to begin investments in the Global Nuclear Energy 
Partnership (GNEP), a comprehensive approach to enable an expansion of 
nuclear power in the United States and around the world, to promote 
non-proliferation goals; and to help resolve nuclear waste disposal 
issues. GNEP is a complex, challenging undertaking that will take many 
years to realize, which is why the Department proposes to begin 
research now.
    As a complement to the GNEP strategy, the Department will continue 
to pursue a permanent geologic storage site for nuclear waste at Yucca 
Mountain, and the fiscal year 2007 budget includes $544.5 million to 
support this goal. Based on technological advancements that would be 
made through GNEP, the volume and radiotoxicity of waste requiring 
permanent disposal at Yucca Mountain will be greatly reduced, delaying 
the need for an additional repository indefinitely.
    GNEP builds upon the successes of programs initiated under 
President Bush's leadership to encourage the construction of new 
nuclear powerplants here in the United States. The fiscal year 2007 
budget includes $632.7 million for nuclear energy programs, a $97.0 
million increase above the fiscal year 2006 appropriation. In addition 
to the $250 million for GNEP within the Advanced Fuel Cycle Initiative, 
Generation IV (Gen IV) research and development ($31.4 million) will 
improve the efficiency, sustainability, and proliferation resistance of 
advanced nuclear systems, and Nuclear Power 2010 ($54.0 million) will 
lead the way, in a cost-sharing manner, for industry to order new, 
advanced light-water reactors by the end of this decade. In addition, 
ongoing implementation of the Energy Policy Act of 2005 (EPACT) will 
establish Federal insurance to protect sponsors of the first new 
nuclear powerplants against the financial impact of certain delays 
during construction or in gaining approval for operation that are 
beyond the sponsors' control.
    The Department of Energy's budget request remains mindful of our 
legacy obligations. To meet our environmental cleanup commitments 
arising from nuclear activities during the Manhattan Project and the 
Cold War, the budget submission requests $5.8 billion to clean up 
legacy nuclear waste sites. DOE has accelerated cleanup at the legacy 
nuclear waste sites and recently announced completion of cleanup at 
Rocky Flats, a former nuclear weapons plant located outside of Denver, 
Colorado. In 2006, DOE will also complete environmental cleanup of the 
Fernald and Columbus sites in Ohio, and several other sites as well.
    To provide better context for programmatic decisions, the 
Department expanded the development of 5-year budget plans. We still 
have work ahead of us to make this planning more rigorous and 
meaningful, but we have made the start.
    And at the behest of Secretary Bodman, we are working to institute 
straight-forward operating principles which set the tone for further 
improving the management of the Department. These principles are:
  --Accept no compromises in safety and security;
  --Act with a sense of purposeful urgency;
  --Work together, treating people with dignity and respect;
  --Make the tough choices;
  --Keep our commitments;
  --Manage risk through informed decisions.

            ADVANCING AMERICA'S ECONOMIC AND ENERGY SECURITY

    Turning now to some of the specific proposals in the fiscal year 
2007 budget, the request of $1.2 billion for energy efficiency and 
renewable energy activities reallocates resources to emphasize 
technologies with the potential for reducing our growing reliance on 
oil imports and for producing clean electricity with reduced emissions. 
It includes two new Presidential initiatives; Biofuels and Solar 
America. The fiscal year 2007 budget proposes $149.7 million for the 
Biofuels Initiative to develop by 2012 affordable, domestically 
produced bio-based transportation fuels, such as ethanol, from 
cellulosic feedstocks (such as agricultural wastes, forest residues, 
and bioenergy crops), and encourage the development of biorefineries. 
Biomass has the promise to deliver a plentiful domestic energy resource 
with economic benefits to the agricultural sector, and to directly 
displace oil use. The Solar America Initiative accelerates the 
development of solar photovoltaics, a technology that converts energy 
from the sun into electricity. Further development can help this 
emissions-free technology achieve efficiencies to make it cost-
competitive with other electricity generation sources by 2015. The 
fiscal year 2007 budget provides $148.4 million for the Solar Energy 
Program that comprises the initiative.
    In addition to funding increases for biomass and solar energy, the 
Energy Efficiency and Renewable Energy budget request includes $195.8 
million to support continued research and development in hydrogen and 
fuel cell technology which holds the promise of an ultra-clean and 
secure energy option for America's energy future. The increase of $40.2 
million above the fiscal year 2006 appropriation accelerates activities 
geared to further improve the development of hydrogen production and 
storage technologies, and evaluate the use of hydrogen as an emissions-
free transportation fuel source. The President's Hydrogen Fuel 
Initiative is funded at $289.5 million and includes $195.8 million for 
DOE's Energy Efficiency and Renewable Energy program, $23.6 million for 
DOE's Fossil Energy program, $18.7 million for DOE's Nuclear Energy 
program, $50.0 million for DOE's Science program, and $1.4 million for 
the Department of Transportation.
    While the budget proposes increases for Biomass, Solar and Hydrogen 
research, the Geothermal Program will be closed out in fiscal year 2007 
using prior year funds. The 2005 Energy Policy Act amended the 
Geothermal Steam Act of 1970 in ways that should spur development of 
geothermal resources without the need for subsidized Federal research 
to further reduce costs.
    Nuclear power, which generates 20 percent of the electricity in the 
United States, contributes to a cleaner, more diverse energy portfolio. 
In fiscal year 2007 a total of $632.7 million is requested for nuclear 
energy activities. Within the total, $250 million will support the 
Global Nuclear Energy Partnership (GNEP). GNEP is a comprehensive 
strategy to enable an expansion of nuclear power in the United States 
and around the world, to promote nuclear nonproliferation goals; and to 
help resolve nuclear waste disposal issues.
    GNEP will build upon the administration's commitment to develop 
nuclear energy technology and systems, and enhance the work of the 
United States and our international partners to strengthen 
nonproliferation efforts. GNEP will accelerate efforts to:
  --Enable the expansion of emissions-free nuclear power domestically 
        and abroad;
  --Reduce the risk of proliferation; and
  --Utilize new technologies to recover more energy from nuclear fuel 
        and dramatically reduce the volume of nuclear waste.
    Through GNEP, the United States will work with key international 
partners to develop new recycling technologies that do not result in 
separated plutonium, a traditional proliferation risk. Recycled fuel 
would then be processed through advanced burner reactors to extract 
more energy, reduce waste and actually consume plutonium, dramatically 
reducing proliferation risks. As part of GNEP, the United States and 
other nations with advanced nuclear technologies would ensure 
developing nations a reliable supply of nuclear fuel in exchange for 
their commitment to forgo enrichment and reprocessing facilities of 
their own, also alleviating a traditional proliferation concern.
    GNEP will also help resolve America's nuclear waste disposal 
challenges. By recycling spent nuclear fuel, the heat load and volume 
of waste requiring permanent geologic disposal would be significantly 
reduced, delaying the need for an additional repository indefinitely.
    The administration continues its commitment to open and license 
Yucca Mountain as the Nation's permanent geologic repository for spent 
nuclear fuel, a key complement to the GNEP strategy. Managing and 
disposing of commercial spent nuclear fuel in a safe and 
environmentally sound manner is the mission of DOE's Office of Civilian 
Radioactive Waste Management (RW).
    To support the near-term domestic expansion of nuclear energy, the 
fiscal year 2007 budget seeks $54.0 million for the Nuclear Power 2010 
program to support continued industry cost-shared efforts to reduce the 
barriers to the deployment of new nuclear powerplants. The technology 
focus of the Nuclear Power 2010 program is on Generation III+ advanced 
light water reactor designs, which offer advancements in safety and 
economics over the Generation III designs. If successful, this 7-year, 
$1.1 billion project (50 percent to be cost-shared by industry) could 
result in a new nuclear powerplant order by 2009 and a new nuclear 
powerplant constructed by the private sector and in operation by 2014.
    Funding of $1.8 million is provided in fiscal year 2007 to 
implement a new program authorized in the recently enacted Energy 
Policy Act of 2005. The program will allow DOE to offer risk insurance 
to protect sponsors of the first new nuclear powerplants against the 
financial impact of certain delays during construction or in gaining 
approval for operation that are beyond the sponsors' control. This 
program would cover 100 percent of the covered cost of delay, up to 
$500 million for the first two new reactors and 50 percent of the 
covered cost of delay, up to $250 million each, for up to four 
additional reactors. This risk insurance offers project sponsors 
additional certainty and incentive to provide for the construction of a 
new nuclear powerplant by 2014.
    The fiscal year 2007 budget request includes $31.4 million to 
continue to develop Next-generation nuclear energy systems known as 
Generation IV (GenIV). These technologies will offer the promise of a 
safe, economical, and proliferation resistant source of clean, 
reliable, sustainable nuclear power with the potential to generate 
hydrogen for use as a fuel. Resources in fiscal year 2007 for GenIV 
will be primarily focused on long-term research and development of the 
Very-High Temperature Reactor.
    The University Reactor Infrastructure and Educational Assistance 
program was designed to address declining enrollment levels among U.S. 
nuclear engineering programs. Since the late 1990's, enrollment levels 
in nuclear education programs have tripled. In fact, enrollment levels 
for 2005 have reached upwards of 1,500 students, the program's target 
level for the year 2015. In addition, the number of universities 
offering nuclear-related programs also has increased. These trends 
reflect renewed interest in nuclear power. Students will continue to be 
drawn into this course of study, and universities, along with nuclear 
industry societies and utilities, will continue to invest in university 
research reactors, students, and faculty members. Consequently, Federal 
assistance is no longer necessary, and the 2007 budget proposes 
termination of this program. The termination is also supported by the 
fact that the program was unable to demonstrate results from its 
activities when reviewed using the Program Assessment Rating Tool 
(PART), supporting the decision to spend taxpayer dollars on other 
priorities. Funding for providing fresh reactor fuel to universities is 
included in the Research Reactor Infrastructure program, housed within 
Radiological Facilities Management.
    Recognizing the abundance of coal as a domestic energy resource, 
the Department remains committed to research and development to promote 
its clean and efficient use. U.S. coal accounts for 25 percent of the 
world's coal reserves. For the last 3 years, the Department has been 
working to launch a public-private partnership, FutureGen, to develop a 
coal-based facility that will produce electricity and hydrogen with 
essentially zero atmospheric emissions. This budget includes $54 
million in fiscal year 2007 and proposes an advance appropriation of 
$203 million for the program in fiscal year 2008. Funding for FutureGen 
will be derived from rescinding $203 million in balances no longer 
needed to complete active projects in the Clean Coal Technology 
program. Better utilization of these fund balances to support FutureGen 
will generate real benefits for America's energy security and 
environmental quality.
    The budget request for fiscal year 2007 includes $4.6 million to 
support Alaska Natural Gas Pipeline activities authorized by Congress 
in late 2004. Within the total amount of $4.6 million, $2.3 million 
will be used to support an Office of the Federal Coordinator and the 
remaining $2.3 million will support the Loan Guarantee portion of the 
program. Once constructed, this pipeline will be capable of delivering 
enough gas to meet about 10 percent of the U.S. daily natural gas 
needs.
    The budget request proposes to terminate the oil and gas research 
and development programs, which have sufficient market incentives for 
private industry support, to other energy priorities.
    The Energy Policy Act of 2005 established a new mandatory oil and 
gas research and development (R&D) program, called the Ultra-Deep and 
Unconventional Natural Gas and Other Petroleum Research program, that 
is to be funded from Federal revenues from oil and gas leases beginning 
in fiscal year 2007. These R&D activities are more appropriate for the 
private-sector oil and gas industry to perform. Therefore, this budget 
proposes to repeal the program through a future legislative proposal, 
although we will faithfully execute current law until such time that 
Congress acts affirmatively on that legislative proposal.
    The fiscal year 2007 budget includes $124.9 million for a refocused 
portfolio of energy reliability and assurance activities in the Office 
of Electricity Delivery and Energy Reliability. This will support 
research and development in areas such as high temperature 
superconductivity, and simulation work needed to enhance the 
reliability and effectiveness of the Nation's power supply. This office 
also operates the Department's energy emergency response capability and 
led DOE's support effort during and after the Gulf Coast hurricanes.

                      ENSURING A CLEAN ENVIRONMENT

    To deliver on the Department's environmental cleanup commitments 
following 50 years of nuclear research and production from the Cold 
War, in 2002 the Environmental Management program underwent a major 
transformation that would enable the Department to perform its cleanup 
activities faster than previously estimated. Working in partnership 
with the public, States and regulators, the Environmental Management 
(EM) program has made significant progress in the last 4 years to shift 
away from risk management toward risk reduction. By the end of fiscal 
year 2006, the cleanup of a total of 86 DOE nuclear legacy sites will 
be complete. This includes the recently announced completion of Rocky 
Flats and the anticipated fiscal year 2006 completion of Fernald and 
Columbus sites in Ohio. While encouraged by the results demonstrated 
thus far, the program continues to stay focused on the mission and is 
working aggressively to enhance and refine project management 
approaches while addressing the regulatory and legal challenges 
associated with this complex environmental cleanup program.
    In fiscal year 2007, the budget includes $5.8 billion to continue 
environmental cleanup with a focus on site completion, with eight sites 
or areas to be completed in the 2007 to 2009 timeframe. This budget 
request is reduced from the fiscal year 2006 budget request of $6.5 
billion primarily reflecting cleanup completion at some sites in fiscal 
year 2006 and the subsequent transfer of post-closure work activities. 
As cleanup work is completed over the next 5 years at sites without a 
continuing mission, EM will transfer long-term surveillance and 
monitoring activities and management of pension and benefit programs to 
the Office of Legacy Management. For those with continuing missions, 
these activities will be transferred to the cognizant program office.
    The $5.8 billion budget request remains focused on EM's mission of 
reducing risk by cleaning up sites--consequently also reducing 
environmental liability--and will support the following key activities:
  --Stabilizing radioactive tank waste in preparation for disposition 
        (about 30 percent of the fiscal year 2007 request for EM);
  --Dispositioning transuranic and low-level wastes (about 15 percent 
        of the request for EM);
  --Storing and safeguarding nuclear materials (about 15 percent of the 
        request for EM);
  --Decontaminating and decommissioning excess facilities (about 20 
        percent of the request for EM); and
  --Remediating major areas of our large sites (Hanford, Savannah River 
        Site, Idaho National Laboratory, and Oak Ridge Reservation) 
        (about 10 percent of the request for EM).
    One of the significant cleanup challenges is the management and 
treatment of high-level radioactive liquid waste at the Hanford Waste 
Treatment and Immobilization Plant (WTP). In fiscal year 2007, $690 
million is proposed for the WTP project. The plant is a critical 
component of the program's plans to clean up 53 million gallons of 
radioactive waste currently stored in 177 aging underground storage 
tanks.
    By June 2006, the U.S. Army Corps of Engineers is expected to 
complete an independent cost validation, deploying more than 25 
professionals experienced in cost estimating, design, construction, and 
commissioning. The Department plans to utilize the results from several 
reviews to validate cost and schedule for this project.
    The Department, while responsible for the cleanup and disposal of 
high-level radioactive waste generated from the Cold War, is also 
responsible for managing and disposing of commercial spent nuclear fuel 
in a safe and environmentally sound manner. The latter responsibility 
is the mission of DOE's Office of Civilian Radioactive Waste Management 
(RW).
    The Nation's commercial and defense high-level radioactive waste 
and spent nuclear fuel will be safely isolated in a geologic repository 
to minimize risk to human health and the environment. The fiscal year 
2007 budget requests $544.5 million to establish a geologic repository 
at Yucca Mountain, Nevada. This administration is strongly committed to 
establishing Yucca Mountain as the Nation's first permanent repository 
for high-level waste and spent nuclear fuel. Licensing and developing a 
repository for the disposal of these materials will help set the stage 
for an expansion of nuclear power through the President's GNEP 
initiative, which could help to diversify our energy supply and support 
our economic future. Permanent geological disposal at Yucca Mountain 
offers the safest, most environmentally sound solution for dealing with 
this challenge.
    To further advance the administration's commitment to the 
establishment of Yucca Mountain, the Department intends to submit to 
Congress legislation to address land withdrawal, funding and other 
issues that are important to the program's success.
    As the Environmental Management program completes cleanup of sites 
throughout the DOE complex, management of post closure activities at 
these sites will transfer to the Office of Legacy Management (LM). In 
fiscal year 2007, $201.0 million is proposed to provide long-term 
surveillance and maintenance, long-term response actions, oversight and 
payment of pensions and benefits for former contractor retirees, and 
records management activities at closure sites transferred to LM. The 
majority of funding ($122.4 million) is associated with the transfer of 
post closure responsibilities and funding of three major sites from EM 
to LM in fiscal year 2007. These sites are: Rocky Flats, $90.8 million; 
Fernald, $26.5 million; and a group of sites known as the Nevada off 
sites, $5.1 million. The cumulative effect of these three transfers 
results in a 150 percent increase in the Legacy Management budget 
matched by a corresponding decrease in the Environmental Management 
budget.

            IMPROVING MANAGEMENT AT THE DEPARTMENT OF ENERGY

    Underpinning and supporting all of the programs above, the 
Department of Energy has continued to make strides in meeting President 
Bush's challenge to become more efficient, more effective, more 
results-oriented, and more accountable for performance. Over the past 4 
years, the President's Management Agenda (PMA) has been the framework 
for organizing the Department's management reform efforts.
    To better manage human capital, the Department implemented a 
performance management system to link employee achievement at all 
levels with mission accomplishment. In fiscal year 2006, DOE will 
publish, communicate and implement a revised 5-year Human Capital 
Management Strategic Plan as well as a formal leadership succession 
plan.
    In fiscal year 2006 and fiscal year 2007, DOE will expand the 
availability of financial data in support of decision-making by 
continuing to implement the Integrated Management Navigation (I-MANAGE) 
system, specifically in the areas of budget and procurement through the 
Integrated Data Warehouse (IDW). The Department continues to apply 
Earned Value Management principles to each of its major information 
technology investments. In addition, DOE is partnering with other 
government agencies to develop a standardized and integrated human 
resources information system, and to develop a consolidated grants 
management system.
    The Department continued its effort to institutionalize multi-year 
planning and strengthen the link between program performance and 
resource allocation decisions. The Program Assessment Rating Tool 
(PART) continues to be used to promote improved program performance. 
For programs that have not formally been reviewed by OMB, the PART 
process has been used for internal self-assessment.
    A number of important milestones were reached in Real Property 
Management including the approval of the Asset Management Plan (AMP) by 
the Deputy Secretary. The AMP outlines an overall framework for the 
strategic management of the Department's $77 billion portfolio of Real 
Property Assets. Additionally, the 20,000 real property records in the 
Facilities Information Management System, the Department's repository 
of real property information, were populated and updated as required by 
the Federal Real Property Council for support of the Federal Real 
Property Profile. This information will be used to support real 
property management decisions department-wide.
    As these examples indicate, the Department of Energy is using the 
PMA to address its many management challenges. The Department is 
working to become more streamlined, more efficient, and more results-
oriented in fiscal year 2007 and beyond.

                               CONCLUSION

    Energy is central to our economic and national security. Indeed, 
energy helps drive the global economy and has a significant impact on 
our quality of life and the health of our people and our environment. 
The fiscal year 2007 budget request balances the need to address short-
term challenges while planning for long-term actions. The request 
reflects our belief that basic science research should remain strong if 
we are to remain competitive with our global partners. The request 
contains bold new initiatives in nuclear, biomass, and solar energy. It 
continues the President's strong commitment to clean coal, hydrogen, 
and fusion. The request honors our commitment to deal with civilian 
nuclear waste, as well as legacy waste from the Cold War, and to 
further our already successful nonproliferation programs in order to 
help ensure a safer world for generations to come.
    This completes our testimony, and we would be pleased to respond to 
your questions today or in the future.

    Senator Domenici. I think you should just right now off the 
top of your head start answering some of the things we raised. 
Take another 5 minutes.

                             COAL RESEARCH

    Mr. Garman. All right. Let me first talk about coal, 
Senator Bond. We are proud of the fact that in this 
administration from the fiscal year 2002 budget to the present 
budget we have spent $2.2 billion on coal research, and we 
think that is very important. The President had made a promise 
that he would spend--he would request $2 billion over 10 years 
and it did not take him 10 years to fulfill that promise. He 
fulfilled it in 6, and we are proud of that.
    It is true that there is a dramatic decrease proposed in 
one aspect of that coal research, the Clean Coal Power 
Initiative, which is a demonstration program, and, as you have 
noted, it has gone from about $49 million to $5 million. The 
other part of the story is that there is in the neighborhood of 
$500 million in unobligated funds sitting in that account, some 
of those funds dating back from the 1990's.
    OMB and our own folks looked at that account balance and 
asked ourselves the question, are all of those moneys going 
toward good programmatic activities? Do we need to request more 
authority now? Might it be possible to take some of those 
funds, get them into a new solicitation, so that we can 
continue this work?
    We do take the point. We think it is very important to have 
a demonstration program to test drive these technologies before 
Wall Street will fund them. We do think that is important. One 
of the things that Assistant Secretary Jared is looking at, who 
is sitting behind me now, is looking at what of those funds 
might be freed up and made available if they are not being 
productively used and quickly used now. We want to improve that 
program. We want to get the money moving more quickly and get 
those dollars in the game.

                            LOAN GUARANTEES

    On the issue of loan guarantees, Mr. Chairman, which is 
something that you raised. The Secretary, who has something of 
a background in financial management, is personally involved in 
this with us and he is counseling that we take a cautious 
approach. As you know, the Department of Energy's track record 
in loan guarantees is mixed at best. We have made loan 
guarantees on geothermal programs in the past. Four of them 
failed. We have made three loan guarantees on synthetic fuels. 
One of them has been successful after default. We have made 
three loan guarantees in alcohol fuels programs. One of them, 
again after a default, is paying back against that.
    Senator Domenici. How old are these programs?
    Mr. Garman. They are old.
    Senator Domenici. You bet.
    Mr. Garman. They are quite old.
    So we are batting 2 out of 6--I am sorry, 6 out of 14. So 
we have zeroed in on the loan guarantee provisions, 
specifically in title XVII of the Energy Policy Act and other 
places, as being incredible new tools at our disposal that we 
do want to employ.
    I want to disavow you of this notion that somehow we are 
stalled. We have created a Loan Guarantee Office, and this is 
an office that is very important. It is an office that will 
conduct the process, qualify lenders, manage proposal reviews, 
monitor the portfolio of the Department. We are working to seek 
expertise. There is a lot of expertise that you need, financial 
expertise, credit risk expertise, commercial viability 
assessment expertise, that we may or may not have inside the 
Department. So we are getting that expertise, acquiring it from 
outside where possible, contracting it if necessary.
    We hope to be in a position to accept the first loan 
guarantee pre-applications for that universe of people who are 
self-payers under the provisions of the bill some time this 
summer, with a view that we might be in a position to make a 
contingent offer later this year. Now, I want to be clear. This 
is not a promise on our part. This is our internal goal. This 
is what we are hoping to achieve in the timeframe. Frankly, the 
Secretary is skeptical that we can pull it off that quickly, 
but his expectation is that we move as expeditiously as 
possible and, as you know, Secretary Bodman, is not a man that 
we relish letting down.
    Senator Domenici. We are going to move to the soon-to-be 
Secretary.
    Mr. Garman. So those are two of the issues.
    Senator Domenici. But I do want to make a point----
    Mr. Garman. Yes, sir.
    Senator Domenici [continuing]. Because I do not think the 
testimony should be taken of these prior efforts as being 
efforts that are synonymous with the proposals contained 
within, for loan guarantees, in the new Policy Act. The new 
Policy Act provides for a completely different kind of loan 
guarantee, as you well know.
    Mr. Garman. Yes, sir.
    Senator Domenici. That loan guarantee is at zero cost to 
the government because the applicant pays for the costs. There 
is a significant cleansing mechanism for whether it is a good 
project or not because of that, and it will be a different kind 
of proposal.
    What I am hearing you say is you are not slowing up on 
putting together all the apparatus, the structure needed. That 
is moving ahead as quickly as you can?
    Mr. Garman. Correct. For instance, we are trying to use 
guidelines, as opposed to regulations, because a regulatory 
process would take another 18 months or longer, and that is 
something that we are working with the Office of Management and 
Budget to understand how we can move ahead in that realm.
    Senator Domenici. We are now going to ask Dr. Orbach to 
give his testimony. You can do it however you would like. Your 
statement is in the record at this point without objection. 
Proceed.

                           Office of Science

STATEMENT OF RAYMOND L. ORBACH, Ph.D., DIRECTOR

    Dr. Orbach. Thank you, Mr. Chairman, members of the 
committee. I appreciate the opportunity to testify today and I 
appreciate the support that this committee has provided for 
science and its relationship to our Nation's energy security 
and economic competitiveness.
    The fiscal year 2007 President's request, as you have 
noted, includes a $505 million increase in the Department of 
Energy science program, and the President has announced his 
commitment to double the funding for basic research in the 
physical sciences over the next 10 years. We are going to use 
the increase in funding this year, with roughly half going to 
operations of our large-scale facilities and the other half to 
research, to competitively based research proposals from the 
entire community, to restore the balance between our facilities 
and our operations and our basic research program.
    The instruments that we are building we believe will give 
the United States an order of magnitude dominance over all 
other facilities in the areas that we approach. We will be a 
full partner in ITER, contained in this budget. We will be 
placing on the floor three high-end computational structures 
for a variety of physical problems, the fastest in the non-
defense world.
    We will be continuing with construction of the world's 
first free electron X-ray laser. This machine will provide ten 
orders of magnitude dominance over any other hard X-ray source 
in the world today. More than that, its timing will enable us 
to observe the change in the electron clouds as chemical 
reactions take place and to determine the structure of 
individual macromolecules.
    The Spallation Neutron Source will turn on in June of this 
year, a $1.4 billion project which is on time and on budget, 
and gives us an order of magnitude dominance for neutron 
scattering, pulse neutron scattering, in the world.
    Four of our five nanocenters will start operations with the 
2007 budget. These nanocenters will be unmatched anywhere in 
the world and will give our scientists and engineers 
opportunities to construct at the atomic level and understand 
the properties of the materials as they are being grown.
    We will be contributing $60 million to R&D for the 
International Linear Collider, which we hope will restore 
American dominance in high-energy physics in the next decade. 
We will be increasing the power of the CEBAF, the Continuous 
Electron Beam Accelerator Facility, at Thomas Jefferson to 12 
GEV, which will enable us to see the structure of individual 
quarks and gluons in the nucleus.
    We will be contributing to the optimum operations of RHIC 
at Brookhaven to study the properties of the universe very 
close to its creation. Finally, we will be finishing our R&D 
and investing in project engineering design for the NSLS-2, 
which is the first of the fourth generation light sources. This 
will be an X-ray microscope capable of operating at one 
nanometer in size, which would be of the order of three atomic 
diameters. There is no other instrument like it in the world. 
In addition, it will have an energy resolution that will give 
us not only the structure but also the dynamics of these new 
materials as they are created.
    I have gone through this to give you a sense of the impact 
that this augmentation in the Office of Science budget will 
have. We are fully aware that this request takes place in a 
period of budgetary stringency. We are indebted to the 
President for his foresight in recognizing the vital importance 
of America's continued leadership in the physical sciences to 
our Nation's global competitive position and our quest for 
greater energy security.
    We are committed to upholding our part of the bargain by 
delivering truly transformational science and technologies, 
breakthrough advances that will provide new pathways to energy 
security and ensure America's continued global economic 
leadership in the years ahead.

                           PREPARED STATEMENT

    Mr. Chairman, I am pleased to discuss this budget with you 
today. I thank you and the committee for the opportunity to 
appear and for your support over the years for the science 
program. Thank you.
    [The statement follows:]

              Prepared Statement of Dr. Raymond L. Orbach

    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to testify today on the Office of Science's fiscal year 
2007 budget request. I appreciate your strong support for basic 
research in the physical sciences, Mr. Chairman, and your understanding 
of the importance of this research to our Nation's energy security and 
economic competitiveness. I also want to thank the members of the 
subcommittee for their support. This budget represents a strong 
commitment on the part of the President to ensure continued U.S. 
leadership in the basic sciences. I believe this budget will enable the 
Office of Science to strengthen U.S. scientific leadership and carry 
out its mission to deliver the revolutionary discoveries and scientific 
tools that transform our understanding of energy and matter and advance 
our national, economic and energy security.
    The Office of Science requests $4,101,710,000 for the fiscal year 
2007 Science appropriation, an increase of $505,319,000 over the fiscal 
year 2006 appropriation. As part of the President's American 
Competitiveness Initiative, the fiscal year 2007 budget represents the 
beginning of the President's commitment to double, over 10 years, the 
sum of the research investment at the Office of Science, the National 
Science Foundation, and the Department of Commerce's National Institute 
of Standards and Technology. This commitment will help ensure that the 
United States remains the world leader in critical areas of basic 
scientific research; maintains an order of magnitude dominance for 
large-scale scientific facilities and instrumentation in the key fields 
of science and technology that will drive the 21st century economy; 
pursues the transformational technologies necessary for greater energy 
security and independence for our Nation; and nurtures and develops a 
world-class scientific and engineering workforce.
    The Office of Science is the lead Federal supporter for basic 
research in the physical sciences in the United States, and the steward 
for fields such as systems biology for energy and the environment, 
materials science, high energy physics, nuclear physics, heavy element 
chemistry, plasma physics, magnetic fusion, and catalysis. It also 
supports unique and vital components of U.S. research in climate change 
and geophysics. Researchers funded through the Office of Science are 
working on some of the most pressing scientific challenges of our age 
including: (1) Harnessing the power of microbial communities for: 
energy production from renewable sources, carbon sequestration, and 
environmental remediation; (2) Expanding the frontiers of 
nanotechnology to develop materials with unprecedented properties for 
widespread potential scientific, energy, and industrial applications; 
(3) Pursuing the breakthroughs in materials science, nanotechnology, 
biotechnology, and other fields needed to make solar energy more cost-
effective; (4) Demonstrating the scientific and technological 
feasibility of creating and controlling a sustained burning plasma to 
generate energy, as the next step toward making fusion power a 
commercial reality; (5) Using advanced computation, simulation, and 
modeling to understand and predict the behavior of complex systems, 
beyond the reach of our most powerful experimental probes, with 
transformational impact on a broad range of scientific and 
technological undertakings; (6) Understanding the origin of the 
universe and nature of dark matter and dark energy; and (7) Resolving 
key uncertainties and expanding the scientific foundation needed to 
understand, predict, and assess the potential effects of atmospheric 
carbon on climate and the environment.
    U.S. preeminence in science, technology, and innovation will depend 
on the continued availability of the most advanced scientific research 
facilities for our researchers. The Office of Science builds and 
operates the world's most powerful array of scientific facilities and 
instruments, including advanced synchrotron light sources, the new 
Spallation Neutron Source, state-of-the-art Nanoscale Science Research 
Centers, genome sequencing facilities, supercomputers and high-speed 
networks, climate and environmental monitoring capabilities, and 
particle accelerators for high energy and nuclear physics. We are in 
the process of developing an X-ray free electron laser light source 
that can image single large macromolecules and measure in real-time 
changes in the chemical bond as chemical and biological reactions take 
place. Our premier tools of science at the 10 national laboratories 
managed by the Office of Science are used by over 19,000 researchers 
and students from universities, other Federal agencies, and private 
industry every year, and have enabled U.S. researchers to make some of 
the most important scientific discoveries of the past 70 years.
    Office of Science leadership in basic research in the physical 
sciences, and stewardship of large research facilities, is directly 
linked to its role in training America's scientists, engineers, and 
teachers. Through the funding of a diverse portfolio of research at 
more than 300 colleges and universities nationwide, we provide direct 
support and access to research facilities for thousands of university 
students and researchers in the physical and biological sciences and 
mathematics. Facilities at the national laboratories provide unique 
opportunities for researchers and their students from across the 
country to pursue questions at the intersection of physics, chemistry, 
biology, computing, and materials science. The Office of Science also 
sponsors undergraduate student internships and fellowships for science 
and mathematics K-12 teachers for research experience and training at 
the national laboratories.
    The fiscal year 2007 budget request will allow the Office of 
Science to increase support for high-priority DOE mission-driven 
scientific research as well as support new initiatives; maintain 
optimum operations at our scientific user facilities; keep major 
facility construction projects on schedule and within budget; and 
treble educational, research, and training opportunities for the next 
generation of scientists, engineers, and teachers. The budget will also 
allow us to expand our contribution to basic research in support of the 
President's Hydrogen Fuel Initiative and the President's new Advanced 
Energy Initiative. Roughly half of our budget goes to construction and 
operations of the large scientific facilities, and the other half is 
approximately equally split between research at the DOE laboratories 
and research at universities. This budget will support the research of 
approximately 24,200 faculty, students, and postdoctoral researchers 
throughout the Nation, an increase of 2,600 from fiscal year 2006.
    The following programs are supported in the fiscal year 2007 budget 
request: Basic Energy Sciences, Advanced Scientific Computing Research, 
Biological and Environmental Research, Fusion Energy Sciences, High 
Energy Physics, Nuclear Physics, Science Laboratories Infrastructure, 
Science Program Direction, Workforce Development for Teachers and 
Scientists, and Safeguards and Security.

                    OFFICE OF SCIENCE FISCAL YEAR 2007 PRESIDENT'S REQUEST SUMMARY BY PROGRAM
                                            [In thousands of dollars]
----------------------------------------------------------------------------------------------------------------
                                                                    Fiscal Year     Fiscal Year
                                                                       2005            2006         Fiscal Year
                                                                   Appropriation   Appropriation   2007 Request
----------------------------------------------------------------------------------------------------------------
Science:
    Basic Energy Sciences.......................................       1,083,616       1,134,557       1,420,980
    Advanced Scientific Computing Research......................         226,180         234,684         318,654
    Biological and Environmental Research:
        Base program............................................         487,474         451,131         510,263
        Congressionally directed projects.......................          79,123         128,700  ..............
                                                                 -----------------------------------------------
          Total, Biological and Environmental Research..........         566,597         579,831         510,263
                                                                 ===============================================
    High Energy Physics.........................................         722,906         716,694         775,099
    Nuclear Physics.............................................         394,549         367,034         454,060
    Fusion Energy Sciences......................................         266,947         287,644         318,950
    Science Laboratories Infrastructure.........................          37,498          41,684          50,888
    Workforce Development for Teachers and Scientists...........           7,599           7,120          10,952
    Science Program Direction...................................         154,031         159,118         170,877
    Safeguards and Security.....................................          67,168          68,025          70,987
    Small Business Innovation Research/Small Business Technology         113,621  ..............  ..............
     Transfer...................................................
                                                                 -----------------------------------------------
        Subtotal, Science.......................................       3,640,712       3,596,391       4,101,710
    Less use of prior year balances.............................          -5,062  ..............  ..............
                                                                 -----------------------------------------------
      Total, Science............................................       3,635,650       3,596,391       4,101,710
----------------------------------------------------------------------------------------------------------------

                  FISCAL YEAR 2007 SCIENCE PRIORITIES

    In his State of the Union Message on January 31, 2006, President 
George W. Bush stated,

    ``To keep America competitive, one commitment is necessary above 
all: We must continue to lead the world in human talent and creativity. 
Our greatest advantage in the world has always been our educated, 
hardworking, ambitious people--and we're going to keep that edge. 
Tonight I announce an American Competitiveness Initiative, to encourage 
innovation throughout our economy, and to give our Nation's children a 
firm grounding in math and science.
    ``First, I propose to double the Federal commitment to the most 
critical basic research programs in the physical sciences over the next 
10 years. This funding will support the work of America's most creative 
minds as they explore promising areas such as nanotechnology, 
supercomputing, and alternative energy sources.''

    I believe the American Competitiveness Initiative and this 
commitment by the President present an historic opportunity for science 
in our country and continued U.S. global competitiveness. Through the 
fiscal year 2007 budget, the Office of Science will build on our record 
of results with new investments to maintain U.S. world-leadership 
status in the physical sciences, keep U.S. research and development at 
the forefront of global science, and increase America's talent pool in 
science, technology, engineering, and mathematics.
    Determining science and technology priorities across the Office of 
Science programs is an ongoing process, both in times of budget 
stringency and budget increases. Several factors are considered in our 
prioritization, including scientific opportunities identified by our 
scientific advisory committees and the overall scientific community; 
DOE mission needs; and administration and Departmental priorities. In 
fiscal year 2007, we will support the priorities in scientific 
research, facility operations, and construction and laboratory 
infrastructure established in the past few years and outlined in the 
Office of Science Strategic Plan and 20-year Facilities Outlook, in 
addition to Presidential and Departmental initiatives.
    The President's Hydrogen Fuel Initiative and the new Advanced 
Energy Initiative will be supported through our contributions to basic 
research in hydrogen, fusion, solar energy to transportation fuels, 
chemical separation and materials for advanced nuclear energy systems, 
and production of ethanol from cellulose. We will also continue strong 
support for other administration priorities such as nanotechnology, 
advanced scientific computation, and climate change science and 
technology.
    The Office of Science will actively lead and support the U.S. 
contributions to ITER, the international project to build and operate 
the first fusion science facility capable of producing a sustained, 
burning plasma to generate energy on a massive scale without 
environmental insult.
    Full operations at four of the DOE Nanoscale Science Research 
Centers (NSRCs) and completion of construction and start-up operations 
for the fifth NSRC will be supported in fiscal year 2007. These 
facilities are the Nation's premier nanoscience user centers, providing 
resources unmatched anywhere in the world for the synthesis, 
fabrication, and analysis of nanoparticles and nanomaterials.
    We will fully fund the programs in advanced scientific computing 
including support for: increasing capacity to 100-150 teraflops 
(trillions of operations per second) for high-performance production 
computing at the National Energy Research Scientific Computing Center 
(NERSC); 250 teraflop capability for modeling and simulation of 
scientific problems in combustion, fusion, and complex chemical 
reactions at Oak Ridge National Laboratory's Leadership Computing 
Facility; and installation of a 100 teraflop peak capacity IBM Blue 
Gene P system at Argonne National Laboratory's Leadership Computing 
Facility to extend architectural diversity in leadership computing and 
address challenges in catalysis, protein/DNA complexes, and materials 
sciences related to next-generation design of nuclear reactors.
    The Office of Science designs, constructs, and operates facilities 
and instruments that give U.S. scientists an ``order of magnitude'' 
lead over foreign competition in key scientific fields. For example, 
increasing the computing capacity at NERSC and the Leadership Computing 
Facilities will give the United States computational capabilities for 
open scientific research that are at least 10 times greater than 
available anywhere else. The Linac Coherent Light Source (LCLS) at the 
Stanford Linear Accelerator Center, when it comes on line in 2009, will 
produce X-rays 10 billion times, or 10 orders of magnitude more intense 
than any existing X-ray source in the world, and allow structural 
studies on individual nanoscale particles and single biomolecules. The 
Spallation Neutron Source (SNS), the world's forefront neutron 
scattering facility, will increase the number of neutrons available for 
cutting-edge research by a factor of 10 over any existing Spallation 
neutron source in the world when operations begin this year. We will be 
supporting the first full year of SNS operations in fiscal year 2007 as 
well as the fabrication of four to five instruments that are part of 
the initial suite of instruments for the target station.
    In fiscal year 2007, we will begin R&D and project engineering and 
design for the next generation of synchrotron light sources. The 
National Synchrotron Light Source-II (NSLS-II) will deliver orders of 
magnitude improvement in spatial resolution, providing the world's 
finest capabilities for X-ray imaging and enabling the study of 
material properties and functions, particularly at the nanoscale, at a 
level of detail and precision never before possible. Its energy 
resolution will explore dynamical properties of matter as no other 
light source has ever accomplished.
    Our research programs in nuclear physics continue to receive strong 
support. We will continue optimum operations at the Relativistic Heavy 
Ion Collider (RHIC), and support additional instrumentation projects 
for RHIC for studying the properties of hot, dense nuclear matter, 
providing insight into the early universe. We will also support 
increased operations at the Continuous Electron Beam Accelerator 
Facility (CEBAF) and project engineering and design for doubling the 
energy of the existing beam at CEBAF to 12 gigaelectron volts. It will 
image directly individual quarks and gluons in the nucleus, something 
never before accomplished.
    In addition to supporting core experimental and theoretical high-
energy physics research, we will double the resources for R&D for the 
proposed high-energy, high luminosity electron-positron International 
Linear Collider. And we will maintain strong support for U.S. 
participation in the research program at the Large Hadron Collider, 
scheduled to begin operations in 2007.
    The Office of Science will expand the Genomics: GTL program--a 
program that builds on the advances in genome sequencing, molecular 
science, and computation, to understand and ultimately harness the 
functions of microbes to address DOE's mission needs.
    We will also continue to support the development of leaders in the 
science and mathematics education community through a tripling of the 
number of K-12 teachers participating in the Laboratory Science Teacher 
Professional Development program, focusing on middle school teachers 
and students. This immersion program, working with master teachers and 
laboratory mentor scientists, builds content knowledge, research 
skills, and a lasting connection to the scientific community, leading 
to more effective teaching that inspires students in science and 
mathematics.

                        SCIENCE ACCOMPLISHMENTS

    Over the past 50 years, the Office of Science has blended cutting-
edge research and innovative problem solving to keep the United States 
at the forefront of scientific discovery. American taxpayers have 
received great value for their investment in basic research sponsored 
by the Office of Science that has led to significant technological 
innovations, new intellectual capital, enhanced economic 
competitiveness, and improved quality of life. The following are some 
of the past year's highlights:
    Promoting the Contributions of Physics to Our Quality of Life--2005 
World Year of Physics.--The Office of Science, in coordination with 
researchers at universities nationwide and the DOE national 
laboratories, celebrated the 2005 World Year of Physics through a year-
long program of activities and materials highlighting how physics 
enables advances in science and contributes to the quality of life. In 
celebration of the centennial of Albert Einstein's ``miracle year'', 
1905, when he published four papers that laid the foundations of much 
of physics as we know it today, the Office of Science co-sponsored a 
new PBS NOVA program, ``Einstein's Big Idea'', and its associated 
educational materials. The program aired on PBS stations nationwide in 
October 2005. Library guides about the program were distributed to all 
16,000 libraries nationwide, and teacher's guides were sent nationwide 
to 15,000 high school physics teachers, 3,700 middle school physics 
teachers, and 400 middle school science chairs. Several of the national 
laboratories held special lectures, symposia, and education events for 
local middle school and high school students and the surrounding 
communities. A DOE/Office of Science website was created to educate the 
public about the significance of Einstein's revolutionary work, 
describe the role of physics in various science and technology fields, 
publicize events, and highlight the work of DOE-sponsored physicists. 
The ``DOE Physicists at Work'' website continues to profile the work of 
young physicists conducting research in the universities and national 
laboratories funded by the Office of Science. Several activities 
coordinated by the American Physical Society were also co-sponsored by 
the Office of Science including Physics Quest, an outreach event held 
on the grounds of the Institute for Advanced Studies in Princeton, NJ, 
that took over 100,000 middle school students through a series of 
experiments on a hunt to finding Einstein's ``missing treasure'', and 
Physics on the Road, a project that supported the materials and 
equipment for teams from colleges and universities to perform physics 
demonstrations at schools and public venues.
    Nobel Prize in Chemistry.--The 2005 Nobel prize in chemistry was 
awarded to Robert H. Grubbs (CalTech), Richard R. Schrock (MIT), and 
Yves Chauvin (French Petroleum Institute) for the development of the 
``metathesis method'' in organic synthesis. This method of selectively 
stripping out certain atoms in a compound and replacing them with atoms 
that were previously part of another compound employs novel catalysts 
to simplify the process of custom-building molecules with specialized 
properties. Metathesis has led to industrial and pharmaceutical methods 
that are more efficient, produce fewer by-products, and are more 
environmentally friendly. The work of the laureates has major 
significance in the production of fuels, synthetic fibers, plastics, 
and pharmaceuticals. The Office of Science has supported Dr. Schrock's 
work in catalytic chemistry at the Massachusetts Institute of 
Technology since 1979 and supported Dr. Grubbs' work in homogeneous 
catalysis at Caltech from 1979 through 1988.
    Discoveries and Capabilities at the Frontier of Nanoscale 
Science.--In 2005, the world's first hard X-ray nanoprobe beamline was 
activated at the Advanced Photon Source (Argonne). The X-ray microscope 
nanoprobe will provide spatial resolution of 30 nanometers or better, 
making it a valuable tool for studying nanomaterials as the new Center 
for Nanoscale Materials begins operations in 2006 at Argonne National 
Laboratory. Researchers at the Stanford Synchrotron Radiation 
Laboratory have developed new methods for studying the structure of 
nanomaterials through a combined use of X-ray scattering and absorption 
measurement techniques that has led to significant advances in 
understanding the structures of nanomaterials and routine 
characterization of bacterial nano-minerals. Scientific discoveries at 
the nanoscale in 2005 include the following: ultrathin films, six atoms 
thick, that retained ferroelectric properties needed for next 
generation nanoscale devices such as electronics and sensors; ultrafast 
laser techniques observed the fastest reversible phase transition 
between nanocrystal structures ever recorded with the transition of 
vanadium oxide crystals switching from a semiconducting to metallic 
phase material; the fabrication of novel semiconductor nanocrystal 
polymer solar cells that demonstrated surprisingly high efficiencies; 
and the development of the world's smallest synthetic nanomotor--a 300 
nanometer gold rotor on a carbon nanotube shaft--demonstrating advances 
in the miniaturization of electromagnetic devices.
    Delivering Forefront Computational and Networking Capabilities for 
Science.--Several computational sciences and networking advances made 
in 2005 enable more effective use of leadership-scale computing 
resources and management of the growing data volumes from the 
scientific user facilities: computer science researchers have 
significantly enhanced the performance of simulation models for fusion, 
atmospheric science, and quantum chemistry applications and continue to 
improve programming models that optimize complex scientific 
applications run on computers with hundreds to thousands of processors; 
researchers at Argonne National Laboratory have produced a new modeling 
and solution paradigm for the design of efficient electricity markets; 
the Energy Sciences Network completed the first metropolitan area 
network connecting six DOE sites in the San Francisco Bay Area with 
dual connectivity at 20 gigabits per second, 10 to 50 times the 
previous bandwidth at each site, also improving reliability and 
lowering costs; and the UltraScienceNet Testbed completed deployment in 
August 2005 of its 20 gigabit per second reconfigurable optical network 
testbed designed to test advanced optical network technologies such as 
advanced data transfer networking technologies designed to meet the 
increasing demand for bandwidth and the needs of next-generation 
scientific instruments.
    Advances in Biotechnology for Energy and the Environment.--Progress 
towards understanding how living organisms interact with and respond to 
their environment, and how those processes involved can be utilized, 
was gained through the following accomplishments: researchers applied 
both genomic and proteomic approaches to characterize a naturally 
occurring microbial community for the first time at a remediation site, 
producing insights into potential biotechnology strategies for 
remediation of toxic materials; advanced genomic sequencing 
technologies applied to samples taken from the Sargasso Sea led to the 
discovery of over a million new genes that had never been seen before, 
identifying the potential of environmental genomics for discovering new 
microbe functionalities that can be harnessed for energy or 
environmental applications; researchers have developed the ability to 
insert fiber-optic probes into living cells to watch cellular processes 
unfold in real time; and a new clearinghouse was established that 
contains approximately 300 draft or completed genome sequences of 
microbes, associated information about the gene, protein functions, and 
biochemical pathways, and browsing tools to help researchers sort 
through and analyze genomic data.
    Accomplishments in Theory, Simulation, and Experiments Energize 
Fusion Research Towards ITER.--With progress on the international 
agreement to build ITER, investigations on the theory, simulation, and 
experimentation related to burning plasma and ITER related issues 
increased in 2005. The results of some of those studies include the 
following: researchers achieved ITER level plasma pressure at the 
Alcator C-Mod facility, a world record absolute pressure for magnetic 
confinement experiments; separate experiments on DIII-D indicated 
higher plasma pressures can be obtained without a penalty to energy 
confinement, suggesting that ITER could achieve higher fusion power 
output than originally conceived; multi-teraflop performance was 
achieved on a leading plasma micro-turbulence simulation code, 
demonstrating the ability of the code to effectively utilize increased 
computational capabilities and accelerate the pace of discoveries in 
this area of fusion plasma research; and high-performance reduced-
activation steels tested under fusion-relevant conditions demonstrated 
superior performance under intense neutron radiation compared to 
conventional steels, making these materials lead candidates for 
structural components of ITER.

                   PROGRAM OBJECTIVES AND PERFORMANCE

    The path from basic research to industrial competitiveness is not 
always obvious. History has taught us that seeking answers to 
fundamental questions results in a diverse array of practical 
applications as well as some remarkable revolutionary advances. Working 
with the scientific community, the Office of Science invests in the 
most promising research and sets definite and challenging long-term 
scientific goals with meaningful annual targets. The intent and impact 
of our performance goals may not always be clear to those outside the 
research community. Therefore the Office of Science has created a 
website (www.sc.doe.gov/measures) to better communicate what we are 
measuring and why it is important. This website also tracks progress 
toward management improvements and describes a wide array of program 
accomplishments.

                              ORGANIZATION

    The OneSC Project was initiated to streamline the Office of Science 
structure and improve operations across the Office of Science complex 
in keeping with the principles of the President's Management Agenda to 
manage government programs more efficiently and effectively. The Office 
of Science has been officially reorganized under the OneSC structure 
(Figure 2). Phase 1 of the reorganization was effective March 20, 2005. 
Phase 2 of OneSC involves human capital and organizational needs 
analyses and reengineering of SC business and management operations and 
processes. The Office of Science business practices and processes will 
be optimized to remove unnecessary work and support enhanced 
stewardship and oversight of the Office of Science laboratories. 
Attrition, retraining, reassignments, and workforce management 
incentives will be utilized to manage changes in staffing levels or 
skill mix needs resulting from Phase 2 activities. No downgrades, 
involuntary geographical transfers, separations, or reductions-in-force 
are planned or expected.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            SCIENCE PROGRAMS

Basic Energy Sciences
            Fiscal Year 2006 Appropriation--$1,134.6 Million; Fiscal 
                    Year 2007 Request--$1,421.0 Million
    Basic research supported by the Basic Energy Sciences (BES) program 
touches virtually every aspect of energy resources, production, 
conversion, efficiency, and waste mitigation. Research in materials 
sciences and engineering leads to the development of materials that 
improve the efficiency, economy, environmental acceptability, and 
safety of energy generation, conversion, transmission, and use. 
Research in chemistry leads to the development of advances such as 
efficient combustion systems with reduced emissions of pollutants; new 
solar photo conversion processes; improved catalysts for the production 
of fuels and chemicals; and better separations and analytical methods 
for applications in energy processes, environmental remediation, and 
waste management. Research in geosciences contributes to the solution 
of problems in multiple DOE mission areas, including reactive fluid 
flow studies to understand contaminant remediation and seismic imaging 
for reservoir definition. Research in the molecular and biochemical 
nature of photosynthesis aids the development of solar photo energy 
conversion and biomass conversion. In fiscal year 2007, the Office of 
Science will support expanded efforts in basic research related to 
transformational energy technologies. Within BES, there are increases 
to ongoing basic research for effective solar energy utilization, for 
the hydrogen economy, and for work underpinning advanced nuclear energy 
power. BES also asks researchers to reach far beyond today's problems 
in order to provide the basis for long-term solutions to what is 
probably society's greatest challenge--a secure, abundant, and clean 
energy supply. To that end, the fiscal year 2007 budget request would 
also increase research for grand challenge science questions and for 
new technique development in complex systems or emergent behavior, 
ultrafast science, mid-scale instrumentation, and chemical imaging.
    BES also provides the Nation's researchers with world-class 
research facilities, including reactor- and accelerator-based neutron 
sources, light sources soon to include the X-ray free electron laser, 
nanoscale science research centers, and electron beam micro-
characterization centers. These facilities provide outstanding 
capabilities for imaging and characterizing materials of all kinds from 
metals, alloys, and ceramics to fragile biological samples. The next 
steps in the characterization and the ultimate control of materials 
properties and chemical reactivity are to improve spatial resolution of 
imaging techniques; to enable a wide variety of samples, sample sizes, 
and sample environments to be used in imaging experiments; and to make 
measurements on very short time scales, comparable to the time of a 
chemical reaction or the formation of a chemical bond. With these 
tools, we will be able to understand how the composition of materials 
affects their properties, to watch proteins fold, to see chemical 
reactions, and to understand and observe the nature of the chemical 
bond. For fiscal year 2007, BES scientific user facilities will be 
scheduled to operate at an optimal number of hours.
    Construction of the Spallation Neutron Source (SNS) will be 
completed during the 3rd quarter of fiscal year 2006 and will join the 
suite of BES scientific user facilities. In fiscal year 2007, BES will 
support continued fabrication and commissioning of SNS instruments, 
funded both as part of the SNS project and from other sources including 
non-DOE sources, and will increase power to full levels. A new Major 
Item of Equipment is funded in fiscal year 2007 that will allow the 
fabrication of approximately four to five additional instruments for 
the SNS, thus nearly completing the initial suite of 24 instruments 
that can be accommodated in the high-power target station.
    Four Nanoscale Science Research Centers will be fully operational 
in fiscal year 2007: the Center for Nanophase Materials Sciences at Oak 
Ridge National Laboratory, the Molecular Foundry at Lawrence Berkeley 
National Laboratory, the Center for Nanoscale Materials at Argonne 
National Laboratory, and the Center for Integrated Nanotechnologies at 
Sandia National Laboratories and Los Alamos National Laboratory. A 
fifth Center, the Center for Functional Nanomaterials at Brookhaven 
National Laboratory, will receive final year construction funding. In 
fiscal year 2007, there are significant shifts in the nanoscale science 
and engineering research activities contributing to the BES investments 
in research at the nanoscale and a substantial overall increase in 
funding. Overall, the total investment for these Nanoscale Science 
Research Centers decreases by about 10 percent owing to the planned 
decrease in construction funding. Funding for research at the nanoscale 
increases very significantly owing to increases in funding for 
activities related to the hydrogen economy, solar energy conversion, 
and advanced nuclear energy.
    The Linac Coherent Light Source (LCLS) at the Stanford Linear 
Accelerator Center (SLAC) will continue Project Engineering Design 
(PED) and construction at the planned levels. The purpose of the LCLS 
Project is to provide laser-like radiation in the X-ray region of the 
spectrum that is 10 billion times greater in peak power and peak 
brightness than any existing coherent X-ray light source and that has 
pulse lengths measured in femtoseconds--the timescale of electronic and 
atomic motions. The LCLS will the first facility in the world for such 
groundbreaking research in the physical and life sciences. Support is 
also provided for PED and R&D for the National Synchrotron Light 
Source-II (NSLS-II), which will be a new synchrotron light source, 
highly optimized to deliver ultra-high brightness and flux and 
exceptional beam stability. This would enable the study of material 
properties and functions with a spatial resolution of 1 nanometer (nm), 
an energy resolution of 0.1 millielectron volt (meV), and the ultra-
high sensitivity required to perform spectroscopy on a single atom. 
NSLS-II will be transformational in opening new regimes of scientific 
discovery and investigation. The ability to probe materials with 1 nm 
or better spatial resolution and to analyze their dynamics with 0.1 meV 
energy resolution will be truly revolutionary.
    The Scientific Discovery through Advanced Computing (SciDAC) 
program is a set of coordinated investments across all Office of 
Science mission areas with the goal of achieving breakthrough 
scientific advances via computer simulation that were impossible using 
theoretical or laboratory studies alone. The SciDAC program in BES 
consists of two major activities: (1) characterizing chemically 
reacting flows as exemplified by combustion and (2) achieving 
scalability in the first-principles calculation of molecular 
properties, including chemical reaction rates.
Advanced Scientific Computing Research
            Fiscal Year 2006 Appropriation--$234.7 Million; Fiscal Year 
                    2007 Request--$318.6 Million
    The Advanced Scientific Computing Research (ASCR) program is 
expanding the capability of world-class scientific research capacity 
through advances in mathematics, high performance computing and 
advanced networks, and through the application of computers capable of 
many trillions of operations per second (terascale computers) to 
advanced scientific applications. Computer-based simulation enables us 
to understand and predict the behavior of complex systems that are 
beyond the reach of our most powerful experimental probes or our most 
sophisticated theories. Computational modeling has greatly advanced our 
understanding of fundamental processes of Nature, such as fluid flow 
and turbulence or molecular structure and reactivity. Soon, through 
modeling and simulation, we will be able to explore the interior of 
stars to understand how the chemical elements were created and learn 
how protein machines work inside living cells to enable the design of 
microbes that address critical energy or waste cleanup needs. We could 
also design novel catalysts and high-efficiency engines that expand our 
economy, lower pollution, and reduce our dependence on foreign oil. 
Computational science is increasingly important to progress at the 
frontiers of almost every scientific discipline and to our most 
challenging feats of engineering. The science of the future demands 
that we advance beyond our current computational abilities.
    For the past two decades SC, and the worldwide scientific 
community, have been harvesting their success in building and 
developing the Internet. This has enabled roughly a doubling in 
bandwidth every 2 years with no increase in cost. However, the demands 
of today's facilities, which generate millions of gigabytes per year of 
data, now outstrip the capabilities of the Internet design and the 
algorithms, software tools, libraries, and environments needed to 
accelerate scientific discovery through modeling and simulation are 
beyond the realm of commercial interest. However, the evolution of the 
telecom market, including the availability of direct access to optical 
fiber at attractive prices and the availability of flexible dense wave 
division multiplexing (DWDM) products gives SC the possibility of 
exploiting these technologies to provide scientific data where it is 
needed at speeds commensurate with the new data volumes. However, to 
take advantage of this opportunity significant research is needed to 
integrate these capabilities, make them available to scientists, and 
build the infrastructure which can provide cybersecurity in this 
environment.
    The Mathematical, Information, and Computational Sciences (MICS) 
effort supports the core research of the ASCR program. To establish and 
maintain networking, modeling and simulation leadership in scientific 
areas that are important to DOE's mission, the MICS subprogram employs 
a broad, but integrated, research strategy. The MICS subprogram's basic 
research portfolio in applied mathematics and computer science provides 
the foundation for enabling research activities, which include efforts 
to advance networking and to develop software tools, libraries, and 
environments. Results from enabling research supported by the MICS 
subprogram are used by computational scientists supported by other SC 
and DOE programs. This link to other DOE programs provides a tangible 
assessment of the value of the MICS subprogram for advancing scientific 
discovery and technology development through simulations. In addition 
to its research activities, the MICS subprogram plans, develops, and 
operates supercomputer and network facilities that are available--24 
hours a day, 365 days a year--to researchers working on problems 
relevant to DOE's scientific missions. In fiscal year 2007, the Energy 
Science Network (ESnet) will deliver a backbone network with two to 
four times the capability of today's network, to support the science 
mission of the Department. In addition, the National Energy Research 
Scientific Computing Center (NERSC) will be upgraded in fiscal year 
2006 to add a NERSC-5 machine with 100-150 teraflops of peak computing 
capacity early in fiscal year 2007. The NERSC computational resources 
are integrated by a common high performance file storage system that 
enables users to easily use all machines. Therefore the new machine 
will significantly reduce the current oversubscription at NERSC which 
serves nearly 2,000 scientists annually.
    The Oak Ridge National Laboratory (ORNL) Leadership Computing 
Facility (LCF), selected under the Leadership Computing Competition in 
fiscal year 2004, will be enhanced to deliver 250 teraflops of peak 
capability in fiscal year 2007 for scientific applications. In 
addition, further diversity with the LCF resources will be realized 
with an acquisition by Argonne National Laboratory (ANL) of a high 
performance IBM Blue Gene P with low-electrical power requirements and 
a peak capability of up to 100 teraflops. The expansion of the 
Leadership Computing Facility to include the Blue Gene computer at ANL 
was an important element of the joint ORNL, ANL, and PNNL proposal 
selected in 2004 to enable solutions for scientific problems beyond 
what would be attainable through a continued simple extrapolation of 
current computational capabilities. The capability provided in fiscal 
year 2007 will accelerate scientific understanding in many areas of 
science important to DOE including materials science, biology, and 
advanced designs of nuclear reactors.
    The research focus of ASCR SciDAC activities includes Integrated 
Software Infrastructure Centers (ISICs). ISICs are partnerships between 
DOE national laboratories and universities focused on research, 
development, and deployment of software to accelerate the development 
of SciDAC application codes. Progress to date includes significant 
improvements in performance modeling and analysis capabilities that 
have led to doubling the performance on 64 processors of the Community 
Atmosphere Model component of the SciDAC climate modeling activity. In 
fiscal year 2006, ASCR is recompeting its SciDAC portfolio, with the 
exception of activities in partnership with the Office of Fusion Energy 
that were initiated in fiscal year 2005. In addition, in fiscal year 
2007 ASCR will continue the competitively selected SciDAC institutes 
which can become centers of excellence in high end computational 
science in areas that are critical to DOE missions.
    Advancing high performance computing and computation is a highly 
coordinated interagency effort. ASCR has extensive partnerships with 
other Federal agencies and the National Nuclear Security Administration 
(NNSA). The activities funded by the MICS subprogram are coordinated 
with other Federal efforts through the NITR&D subcommittee of the 
National Science and Technology Council and its Technology Committee. 
The subcommittee coordinates planning, budgeting, and assessment 
activities of the multiagency NITR&D enterprise. DOE has been an active 
participant in these coordination groups and committees since their 
inception. The MICS subprogram will continue to coordinate its 
activities through these mechanisms and will lead the development of 
new coordinating mechanisms as needs arise. The DOE program solves 
mission critical problems in scientific computing. In addition, results 
from the DOE program benefit the Nation's information technology basic 
research effort. The fiscal year 2007 program positions DOE to make 
additional contributions to this effort.
Biological and Environmental Research
            Fiscal Year 2006 Appropriation--$451.1 Million\1\; Fiscal 
                    Year 2007 Request--$510.3 Million
---------------------------------------------------------------------------
    \1\ Does not include $128.7 Million in Congressionally-directed 
projects.
---------------------------------------------------------------------------
    Biological and Environmental Research (BER) supports basic research 
with broad impacts on our health, our environment, and our energy 
future. Biotechnology solutions are possible for DOE energy and 
environmental challenges by understanding complex biological systems 
and developing computational tools to model and predict their behavior. 
An ability to predict long-range and regional climate enables effective 
planning for future needs in energy, agriculture, and land and water 
use. Understanding the global carbon cycle and the associated role and 
capabilities of microbes and plants can lead to solutions for reducing 
carbon dioxide concentrations in the atmosphere. Understanding the 
complex role of biology, geochemistry, and hydrology beneath the 
Earth's surface will lead to improved decision making and solutions for 
contaminated DOE weapons sites. Both normal and abnormal health--from 
normal human development to cancer to brain function--can be understood 
and improved using radiotracers, advanced imaging instruments, and 
novel biomedical devices. Understanding the biological effects of low 
doses of radiation can lead to the development of science-based health 
risk policy to better protect workers and citizens.
    The fiscal year 2007 budget includes funds for the continued 
expansion of the Genomics: GTL program--a program at the forefront of 
the biological revolution. This program employs a systems approach to 
biology at the interface of the biological, physical, and computational 
sciences to address DOE's mission needs. This research will continue to 
more fully characterize the inventory of multi-protein molecular 
machines found in selected DOE-relevant microbes and higher organisms. 
It will determine the diverse biochemical capabilities of microbes and 
microbial communities, especially as they relate to potential 
biological solutions to DOE needs, found in populations of microbes 
isolated from DOE-relevant sites. Within the Genomics: GTL program, BER 
will develop the understanding needed to advance biotechnology-based 
strategies for biofuel production, focusing on biohydrogen and 
bioethanol.
    Ethanol produced from corn starch is currently the most widely 
consumed biofuel in the United States. The production of cellulosic 
ethanol from biomass has the potential to reduce current oil demand by 
one-third without reducing the food supply or damaging the environment. 
Currently, a biochemical conversion of biomass to ethanol involves 
three basic steps: (1) breakdown of raw biomass using heat and 
chemicals, (2) use of enzymes to breakdown plant cell wall materials 
into simple sugars, and (3) conversion of the sugars into ethanol using 
microbes. The long-term goal is to integrate the bioprocessing into a 
single step. Accomplishing this requires the development of genetically 
modified, multifunctional microbes or a stable mixed culture of 
microbes capable of carrying out all biologically mediated 
transformations needed for the complete conversion of biomass to 
ethanol. Research will be supported on a variety of enzymes and 
microbes that contribute (individually and together) to the conversion 
of cellulose to ethanol; analysis of enzymes to understand how they 
interact with and breakdown cellulose; a determination of the factors, 
such as temperature and different combinations of sugars, that 
influence biomass degradation or ethanol production; strategies for 
producing and maintaining stable mixed cultures of microbes; and 
improved capabilities for genetically engineering microbes that produce 
bioethanol. This research will lead to increased understanding of 
microbe-based production of cellulosic ethanol, increased production 
efficiencies, and reduced costs that will make cellulosic ethanol a 
cost competitive alternative to gasoline in the coming decades.
    Under certain conditions, green algae and a type of bacteria known 
as cyanobacteria can use energy from the sun to split water and 
generate hydrogen. This process, known as biophotolysis, has the 
potential to produce hydrogen on the scale necessary for meeting future 
energy demand. It also uses water as a source of hydrogen--a clean, 
renewable, carbon-free (i.e., non-fossil fuel based), substrate 
available in virtually inexhaustible quantities and is potentially the 
most efficient conversion of solar energy to hydrogen. Theoretically, 
the maximum energetic efficiency for direct biophotolysis is 40 percent 
compared with a maximum of about 1 percent for hydrogen production from 
biomass (Critical Reviews in Microbiology 31, 19-31, 2005). Research 
will include investigations on a range of hydrogen-producing enzymes 
and organisms, understanding how hydrogenase (the enzyme that cleaves 
water to produce hydrogen) work, the inhibition of hydrogenase activity 
by oxygen, and genetic regulatory and biochemical processes that 
influence hydrogen production. This new knowledge will be used to 
engineer microbes to use in hydrogen bioreactors or enzyme-catalysts to 
use in bioinspired nanostructures for hydrogen production.
    In 2003, the administration launched the Climate Change Research 
Initiative (CCRI) to focus research on areas where substantial progress 
in understanding and predicting climate change, including its causes 
and consequences, is possible over the next 5 years. In fiscal year 
2007, BER will contribute to the CCRI from four programs: Terrestrial 
Carbon Processes, Climate Change Prediction, ARM, and Integrated 
Assessment. Activities will be focused on (1) helping to resolve the 
North American carbon sink question (i.e., the magnitude and location 
of the North American carbon sink); (2) deployment and operation of a 
mobile ARM Cloud and Radiation Testbed facility to provide data on the 
effects of clouds and aerosols on the atmospheric radiation budget in 
regions and locations of opportunity where data is lacking or sparse; 
(3) using advanced climate models to simulate potential effects of 
natural and human-induced climate forcing on global and regional 
climate and the potential effects on climate of alternative options for 
mitigating increases in human forcing of climate; and (4) developing 
and evaluating assessment tools needed to study costs and benefits of 
potential strategies for reducing net carbon dioxide emissions.
    In fiscal year 2007, BER SciDAC-enabled activities will allow 
climate scientists to gain unprecedented insights into potential 
effects of energy production and use on the global climate system. BER 
will also add a SciDAC component to GTL and Environmental Remediation 
research. GTL SciDAC will initiate new research to develop mathematical 
and computational tools needed for complex biological system modeling 
and for analysis of complex data sets, such as mass spectrometry data. 
Environmental Remediation SciDAC will provide an opportunity for 
subsurface and computational scientists to develop and improve methods 
of simulating subsurface reactive transport processes on ``leadership 
class'' computers.
    Research emphasis within BER's Environmental Remediation Sciences 
subprogram will be focused on issues of subsurface cleanup such as 
defining and understanding the processes that control contaminant fate 
and transport in the environment and providing opportunities for use, 
or manipulation of natural processes to alter contaminant mobility. The 
resulting knowledge and technology will assist DOE's environmental 
clean-up and stewardship missions. Funding for experimental equipment 
recapitalization at the William R. Wiley Environmental Molecular 
Sciences Laboratory (EMSL) at Pacific Northwest National Laboratory 
(PNNL) will be increased in fiscal year 2007.
    BER will also continue in fiscal year 2007 to support fundamental 
research in genomics, medical applications and measurement science, and 
the health effects of low dose radiation. Resources are developed and 
made widely available for determining protein structures at DOE 
synchrotrons, for high-throughput genetic studies using mice, and for 
DOE-relevant high-throughput genomic DNA sequencing. Building on DOE 
capabilities in physics, chemistry, engineering, biology and 
computation, BER supports fundamental imaging research, maintains core 
infrastructure for imaging research, and develops new technologies to 
improve the diagnosis and treatment of psycho-neurological diseases and 
cancer and to improve the function of patients with neurological 
disabilities such as blindness.
High Energy Physics
            Fiscal Year 2006 Appropriation--$716.7 Million; Fiscal Year 
                    2007 Request--$775.1 Million
    The High Energy Physics (HEP) program provides over 90 percent of 
the Federal support for the Nation's high energy physics research. This 
research advances our understanding of how the universe works at its 
most basic level, from the elementary constituents of matter to the 
recently discovered but still mysterious dark energy and dark matter 
that so dominate our universe. Our research aims to solve one of 
Nature's deepest paradoxes: why does the universe appear to be made of 
matter but not antimatter? How can the laws of the atom and those of 
cosmological gravity resolve themselves to Einstein's long-sought 
unified theory of matter and force? HEP provides research facilities 
and advances our knowledge, not only in high energy physics, but 
increasingly in other fields, including particle astrophysics and 
cosmology. Research advances in one field often have a strong impact on 
research directions in another. Technology that was developed in 
response to the demands of high energy physics research has also become 
indispensable to other fields of science and has found wide 
applications in industry and medicine, often in ways that could not 
have been predicted when the technology was first developed. Examples 
include medical imaging, radiation therapy for cancer using particle 
beams, ion implantation of layers in semiconductors, materials research 
with electron microscopy, and the World Wide Web. The accelerator 
technologies of high-power X-ray light sources, from synchrotron 
radiation facilities to the new coherent light sources, are all derived 
from high energy physics accelerator technology.
    The U.S. HEP program in fiscal year 2007 will continue to lead the 
world with forefront user facilities at the Fermi National Accelerator 
Laboratory (Fermilab) and SLAC that help answer the key scientific 
questions outlined above, but these facilities are scheduled to 
complete their scientific missions by the end of the decade. Thus, the 
longer-term HEP program supported by this request begins to develop new 
world-leading facilities in targeted areas (for example, neutrino 
physics) that will establish a U.S. leadership role in these areas in 
the next decade. Further, HEP has prioritized current R&D efforts to 
select those which will provide the most compelling science 
opportunities in the coming decade within the available resources. For 
these reasons, the highest priority R&D effort is the development of 
the proposed International Linear Collider (ILC), and this request 
significantly advances the ILC R&D program. In making these decisions 
HEP has carefully considered the recommendations of the High Energy 
Physics Advisory Panel (HEPAP) and planning studies produced by the 
U.S. scientific community, including the National Academy of Sciences.
    R&D in support of the ILC is doubled relative to fiscal year 2006 
to support a U.S. leadership role in a comprehensive, coordinated 
international R&D program, and to provide a basis for U.S. industry to 
compete successfully for major subsystem contracts. The long-term goal 
of this effort is to support a decision on a construction start of an 
international electron-positron linear collider around the end of the 
decade. In fiscal year 2005 an international collaboration called the 
Global Design Effort (GDE) was organized to coordinate the R&D and 
design of a linear collider.
    To provide a nearer-term future HEP program, and to preserve future 
research options, R&D for accelerator and detector technologies, 
particularly in the growing area of neutrino physics, will continue at 
an increased level relative to fiscal year 2006. With Tevatron 
improvements completed, much of the accelerator development effort at 
Fermilab in fiscal year 2007 will focus on the neutrino program to 
study the universe's most prolific particle. The Neutrinos at the Main 
Injector (NuMI) beam allows studies of the fundamental physics of 
neutrino masses and mixings using the proton source section of the 
Tevatron complex. NuMI has begun operations and will eventually put 
much higher demands on that set of accelerators. A program of enhanced 
maintenance, operational improvements, and equipment upgrades is being 
developed to meet these higher demands, while continuing to run the 
Tevatron. Engineering design will begin on a new detector optimized to 
detect electron neutrinos, the Electron Neutrino Appearance (EnA) 
Detector, which will utilize the NuMI beam. Participation will begin in 
a reactor-based neutrino experiment. Meanwhile, R&D will continue for a 
high-intensity neutrino super beam facility and a double beta decay 
experiment. These efforts are part of a coordinated neutrino program 
developed from an American Physical Society study and a joint HEPAP/
Nuclear Sciences Advisory Committee (NSAC) subpanel review.
    In order to exploit the unique opportunity to expand the boundaries 
of our understanding of the matter-antimatter asymmetry in the 
universe, a high priority is given to continued operations and 
infrastructure support for the B-factory at SLAC. Upgrades to the 
accelerator and detector are currently scheduled for completion in 
2006, and our baseline plan is to have B-factory operations conclude in 
fiscal year 2008. We are also engaging with our advisory panels and 
international collaborating partners on the precise timetable for 
completion of B-Factory operations and follow-on data analyses.
    As the Large Hadron Collider (LHC) accelerator nears its turn-on 
date in 2007, U.S. activities related to fabrication of detector 
components will be completed and new activities related to 
commissioning and pre-operations of these detectors, along with 
software and computing activities needed to analyze the data, will 
ramp-up significantly. A scientifically vigorous role for U.S. research 
groups in the LHC physics program will continue to be a high priority 
of the HEP program.
    In order to explore the nature of dark energy, support for R&D on 
competitively-selected dark energy space-based mission concepts, 
including the Super Nova/Acceleration Probe (SNAP), will be 
significantly increased in fiscal year 2007. SNAP will be a mission 
concept proposed for a potential interagency sponsored experiment with 
NASA, the Joint Dark Energy Mission (JDEM). This joint mission will 
provide important new information about the nature of dark energy that 
will in turn lead to a better understanding of the birth, evolution, 
and ultimate fate of the universe. In fiscal year 2007, R&D will also 
be supported for ground facilities (in cooperation with NSF) and/or a 
variety of space-based facilities which could provide independent and 
complementary measurements of the nature of dark energy. Advice from 
the scientific community will be solicited to aid in selecting the 
particular concepts to be developed.
    In fiscal year 2005, the HEP program completed the original SciDAC 
programs in the areas of accelerator modeling and design, theoretical 
physics, astrophysics, and applying grid technology. Each of these 
projects has made significant strides in forging new and diverse 
collaborations (both among different disciplines of physics and between 
physicists and computational scientists) that have enabled the 
development and use of new and improved software for large-scale 
simulations. To build on these successes, the HEP program will re-
compete its SciDAC portfolio in fiscal year 2006 to obtain significant 
new insights through computational science into challenging problems 
that have the greatest impact in HEP mission areas.
Nuclear Physics
            Fiscal Year 2006 Appropriation--$367.0 Million; Fiscal Year 
                    2007 Request--$454.1 Million
    The Nuclear Physics (NP) program is the major sponsor of 
fundamental nuclear physics research in the Nation, providing about 90 
percent of Federal support. NP builds and operates world-leading 
scientific facilities and state-of-the-art instrumentation to study the 
evolution and structure of nuclear matter, from the smallest building 
blocks, quarks and gluons, to the stable elements in the Universe 
created by stars. Key aspects to these studies are understanding how 
the quarks and gluons combine to form the nucleons (proton and 
neutron), what are the properties and behavior of nuclear matter under 
extreme conditions of temperature and pressure, and what are the 
properties and reaction rates for atomic nuclei up to their limits of 
stability. Results and insight from these studies are relevant to 
understanding how the universe evolved in its earliest moments, how the 
chemical elements were formed, and how the properties of one of 
Nature's basic constituents, the neutrino, influences astrophysics 
phenomena such as supernovae. Nuclear physics also has had great impact 
on human life. Knowledge and techniques developed in pursuit of 
fundamental nuclear physics research are extensively utilized in our 
society today. The understanding of nuclear spin enabled the 
development of magnetic resonance imaging for medical use. Radioactive 
isotopes produced by accelerators and reactors are used for medical 
imaging, cancer therapy, and biochemical studies. Advances in cutting-
edge instrumentation developed for nuclear physics experiments have 
relevance to technological needs in combating terrorism. The highly 
trained scientific and technical personnel in fundamental nuclear 
physics that are a product of the program are a valuable human resource 
for many applied fields.
    The fiscal year 2007 budget request increases support for 
operations and research by 21 percent compared to fiscal year 2006. At 
this funding level, overall operations of the four National User 
Facilities and research efforts at universities and laboratories are 
supported at near optimal levels. This will allow researchers to make 
effective progress towards the program's scientific goals and 
milestones. In fiscal year 2007 modest funding is provided for generic 
exotic beam R&D directed towards development of capabilities for 
forefront nuclear structure and astrophysics studies and to understand 
the origin of the elements from iron to uranium.
    When the Universe was a millionth of a second old, nuclear matter 
is believed to have existed in its most extreme energy density form 
called the quark-gluon plasma. Experiments at the Relativistic Heavy 
Ion Collider's (RHIC) at Brookhaven National Laboratory (BNL) are 
searching to find and characterize this new state. These efforts will 
continue in fiscal year 2007, with increased support. NP, together with 
the National Aeronautics and Space Administration (NASA), begins 
construction of a new Electron Beam Ion Source (EBIS) to provide RHIC 
with more cost-effective, reliable, and versatile operations. Research 
and development activities, including the development of an innovative 
electron beam cooling system for RHIC, are expected to demonstrate the 
feasibility of increasing the luminosity or collision rate of the 
circulating beams by a factor of 10. In addition to RHIC efforts, the 
High Energy Density Physics activities include NP contributions to 
enhance the heavy ion triggering and measurement capabilities of LHC 
experiments under construction and the accompanying research program at 
universities and laboratories. Experiments at the LHC would permit 
measurements of the earliest highest energy density stage in the 
formation and development of matter at different conditions than those 
created at RHIC. The interplay of the different research programs at 
the LHC and the ongoing RHIC program will allow a detailed tomography 
of the hot, dense matter as it evolves from the ``perfect fluid'' (a 
fluid with zero viscosity) discovered at RHIC.
    Operations of the Continuous Electron Beam Accelerator Facility 
(CEBAF) at Thomas Jefferson National Accelerator Facility (TJNAF) in 
fiscal year 2007 will continue to advance our knowledge of the internal 
structure of protons and neutrons, particularly a unique property 
called ``confinement'' that binds together their fundamental 
constituents, particles called quarks and gluons. By providing 
precision experimental information concerning the quarks and gluons 
that form the protons and neutrons, the approximately 1,000 
experimental researchers that use CEBAF, together with researchers in 
nuclear theory, seek to provide a quantitative description of nuclear 
matter in terms of the fundamental theory of the strong interaction, 
Quantum ChromoDynamics. In fiscal year 2007, the accelerator provides 
beams simultaneously to all three experimental halls and Project 
Engineering Design (PED) activities begin on the 12 GeV CEBAF Upgrade. 
This cost-effective upgrade would allow for a test of a proposed 
mechanism of ``quark confinement''--one of the compelling unanswered 
puzzles of physics.
    Efforts at the Argonne Tandem Linear Accelerator System (ATLAS) at 
ANL and the Holifield Radioactive Ion Beam Facility (HRIBF) at ORNL 
will be supported in fiscal year 2007 to focus on investigating new 
regions of nuclear structure, studying interactions in nuclear matter 
like those occurring in neutron stars, and determining the reactions 
that created the nuclei of the chemical elements inside stars and 
supernovae. The GRETINA gamma-ray tracking array, currently under 
fabrication, will revolutionize gamma ray detection technology and 
offers dramatically improved capabilities to study the structure of 
nuclei at ATLAS, HRIBF, and elsewhere. The Fundamental Neutron Physics 
Beamline (FNPB) under fabrication at the SNS will provide a world-class 
capability to study the neutron decay properties, leading to a refined 
characterization of the weak force. Investments are made to initiate 
the fabrication of a neutron Electric Dipole Moment experiment, to be 
sited at the FNPB, in the search for new physics beyond the Standard 
Model.
    The Nuclear Physics program funds SciDAC programs in the areas of 
theoretical physics (National Computational Infrastructure for Lattice 
Gauge Theory), astrophysics (Shedding New Light on Exploding Stars: 
TeraScale Simulations of Neutrino-Driven Supernovae and their 
Nucleosynthesis), and grid technology (Particle Physics Data Grid 
Collaborative Pilot). In fiscal year 2006 proposal applications will be 
evaluated for new or renewal SciDAC grants.
    The Low Energy subprogram and the Theory subprogram, through their 
activities at the Nuclear Data Center, will support increased basic 
research efforts relevant to advanced nuclear fuel cycle issues. These 
subprograms will support nuclear data efforts and selected experiments 
that will lead to improvements in nuclear reaction cross-sections 
needed to calculate with reduced uncertainties the transmutation 
behavior for proposed advanced fuel cycles.
Fusion Energy Sciences
            Fiscal Year 2006 Appropriation--$287.7 Million; Fiscal Year 
                    2007 Request--$318.9 Million
    The Fusion Energy Sciences (FES) program advances the theoretical 
and experimental understanding of plasma and fusion science, including 
a close collaboration with international partners in identifying and 
exploring plasma and fusion physics issues through specialized 
facilities. The FES program supports research in: plasma science; 
magnetically confined plasmas; advances in tokamak design; innovative 
confinement options; nonneutral plasma physics and High Energy Density 
Physics (HEDP); and cutting edge technologies. FES also leads U.S. 
participation in ITER, an experiment to study and demonstrate the 
sustained burning of fusion fuel. This international collaboration will 
provide an unparalleled scientific research opportunity with a goal of 
demonstrating the scientific and technical feasibility of fusion power. 
Fusion is the energy source that powers the sun and stars. Fusion power 
could play a key role in U.S. long-term energy plans and independence 
because it offers the potential for plentiful, safe and environmentally 
benign energy.
    The site selection for the international ITER Project, Cadarache, 
France, in the European Union, was a major six-party decision on June 
28, 2005, at a Ministerial-level meeting in Moscow, Russia. 
Negotiations continued throughout the Fall of 2005, which led to the 
ITER parties (a) approving and welcoming the designated Director 
General Nominee chosen to lead the ITER organization, (b) approving and 
welcoming India into the ITER negotiations as a full non-host ITER 
party, and (c) completing the text of the draft ITER Agreement. In 
accordance with the Energy Policy Act of 2005, and as determined during 
the Fall 2005 ITER negotiations, the ITER Agreement directly addresses 
the following EPAct requirements:
  --(i) clearly defines the U.S. financial contribution to construction 
        and operations (as well as deactivation and decommissioning), 
        as well as any other project costs associated with the project,
  --(ii) ensures that the share of high-technology components of ITER 
        that are manufactured in the United States is at least 
        proportionate to the U.S. financial contribution to ITER,
  --(iii) ensures, by virtue of the in-kind contribution procurement 
        approach, that the United States will not be financially 
        responsible for cost overruns in components manufactured by 
        other ITER parties,
  --(iv) guarantees the United States full access to all data generated 
        by ITER,
  --(v) enables U.S. researchers to propose and carry out an equitable 
        share of experiments on ITER,
  --(vi) provides the United States with a role in all collective 
        decision-making related to ITER, and
  --(vii) describes and defines the process for discontinuing and 
        decommissioning ITER and the U.S. role in that process.
    The U.S. Contributions to ITER project is being managed by the U.S. 
ITER Project Office (USIPO), established as a Princeton Plasma Physics 
Laboratory (PPPL)/Oak Ridge National Laboratory (ORNL) partnership. The 
fiscal year 2007 request for the U.S. Contributions to ITER Major Item 
of Equipment (MIE) project maintains the overall Total Project Cost 
funding cap of $1,122,000,000. The U.S. effort will be consistent with 
the other ITER parties in the pace of starting the long lead 
procurements, in providing increased numbers of personnel to the ITER 
Organization, and in providing cash for common expenses. The profile is 
preliminary until the baseline scope, cost, and schedule for the MIE 
project are established, and the Director General Nominee and ITER 
Organization have achieved a standard mode of operation.
    In support of ITER and U.S. Contributions to ITER, FES is placing 
increased emphasis on its national burning plasma program--a critical 
underpinning to the fusion science in ITER. FES plans to enhance 
burning plasma research efforts across the U.S. domestic fusion 
program, including: ITER R&D support both in physics and technology and 
exploring new modes of improved or extended ITER performance; 
developing safe and environmentally attractive technologies necessary 
for ITER; exploring fusion simulation efforts that examine the complex 
behavior of burning plasmas in tokamaks; carrying out experiments on 
our national FES facilities with diagnostics and plasma control that 
can be extrapolated to ITER; and integrating all that is learned into a 
forward-looking approach to future fusion applications.
    The Energy Policy Act of 2005 Sec. 972(c)(5)(C) requires the 
Secretary of Energy to provide ``a report describing how United States 
participation in the ITER will be funded without reducing funding for 
other programs in the Office of Science (including other fusion 
programs) . . . ''. The Department's fiscal year 2007 budget provides 
for healthy increases for all programs within the Office of Science and 
supports the ITER request of $60,000,000 almost entirely from new funds 
in the Fusion Energy Sciences (FES) budget request.
    The Director of the Office of Science has stated that the FES 
program in the Office of Science will reasonably bear at least some of 
the cost of building ITER from within its budget and that ITER will not 
unduly harm funding of other Office of Science research programs. The 
Department expects that the $1.122 billion ITER funding profile could 
have some effect on the overall allocation of funds, both within the 
FES program and within the Office of Science, in future budgets. This 
has been and will continue to be the standard practice for funding 
large, capital-intensive projects within DOE. Nevertheless, as 
demonstrated by this fiscal year 2007 request, the Office of Science 
can fund ITER while maintaining healthy funding for other research 
programs.
    The research and facility operations funding for the three major 
facilities will increase from the fiscal year 2006 level. Operations at 
the largest facility, DIII-D, will increase from 7 weeks in fiscal year 
2006 to 12 weeks in fiscal year 2007, while operations at C-Mod at MIT 
and NSTX at PPPL will each increase by 1 week over fiscal year 2006, to 
15 and 12 weeks respectively. A new baseline was established in July 
2005 for the National Compact Stellarator Experiment (NCSX), a joint 
PPPL/ORNL advanced stellarator experiment being built at PPPL. It 
results in a 14-month delay in the schedule with completion in July 
2009 and a new TEC of $92,401,000. The fiscal year 2007 request 
supports the new baseline. Funding for the FES SciDAC program will 
increase in fiscal year 2007 to continue development of tools that 
facilitate international fusion collaborations and initiate development 
of an integrated software environment that can accommodate the wide 
range of space and time scales and the multiple phenomena that are 
encountered in simulations of fusion systems. Within SciDAC, the Fusion 
Simulation Project is a major initiative involving plasma physicists, 
applied mathematicians, and computer scientists to create a 
comprehensive set of models of fusion systems, combined with the 
algorithms required to implement the models and the computational 
infrastructure to enable them to work together.
    Other changes include redirections in fusion theory, High Energy 
Density Physics, research in heavy ion beam science, plasma technology 
and materials research, and experimental plasma research. 
Congressionally-directed, non-defense research at the Atlas pulsed 
power facility is discontinued in fiscal year 2007.
Science Laboratories Infrastructure
            Fiscal Year 2006 Appropriation--$41.7 Million; Fiscal Year 
                    2007 Request--$50.9 Million
    The mission of the Science Laboratories Infrastructure (SLI) 
program is to enable the conduct of DOE research missions at the Office 
of Science laboratories by funding line item construction projects to 
maintain the general purpose infrastructure and the clean up for reuse 
or removal of excess facilities. The program also supports Office of 
Science landlord responsibilities for the 24,000-acre Oak Ridge 
Reservation and provides Payments in Lieu of Taxes (PILT) to local 
communities around ANL-East, BNL, and ORNL.
    In fiscal year 2007, SLI will initiate funding for four 
construction projects: the Seismic Safety Upgrade of Buildings, Phase 
I, at the Lawrence Berkeley National Laboratory (LBNL); the 
Modernization of Building 4500N, Wing 4, Phase I, at ORNL; the Building 
Electrical Services Upgrade, Phase II, at the ANL; and Renovate Science 
Lab, Phase I, at BNL. Funding for the PNNL Physical Sciences Facility 
is requested in the National Nuclear Security Administration's (NNSA's) 
Nuclear Non-Proliferation R&D program for fiscal year 2007. This 
project is cofunded by the Office of Science, NNSA, and the Department 
of Homeland Security. The demolition of the Bevatron at LBNL is funded 
at $14.0 million.
Workforce Development for Teachers and Scientists
            Fiscal Year 2006 Appropriation--$7.1 Million; Fiscal Year 
                    2007 Request--$10.9 Million
    The mission of the Workforce Development for Teachers and 
Scientists (WDTS) program is to provide a continuum of educational 
opportunities to the Nation's students and teachers of science, 
technology, engineering, and mathematics (STEM).
    The Laboratory Science Teacher Professional Development (LSTPD) 
program increases to expand participation from 108 teachers in fiscal 
year 2006 to 300 in fiscal year 2007. The Faculty Sabbatical activity 
was initiated in fiscal year 2005 for faculty from Minority Serving 
Institutions (MSI) and reduced in fiscal year 2006 due to feedback from 
MSI faculty who expressed their inability to participate in sabbatical 
programs and a preference for shorter fellowship-type opportunities. 
Fiscal year 2007 participation will be reduced to two faculty members. 
The Science Undergraduate Laboratory Internship (SULI) programs will be 
increased to add approximately 55 students. The Albert Einstein 
Distinguished Educator Fellowship and the National and Middle School 
Science Bowls will all continue.
Science Program Direction
            Fiscal Year 2006 Appropriation--$159.1 Million; Fiscal Year 
                    2007 Request--$170.9 Million
    Science Program Direction (SCPD) enables a skilled, highly 
motivated Federal workforce to manage the Office of Science's basic and 
applied research portfolio, programs, projects, and facilities in 
support of new and improved energy, environmental, and health 
technologies. SCPD consists of two subprograms: Program Direction and 
Field Operations.
    The Program Direction subprogram is the single funding source for 
the Office of Science Federal staff in headquarters responsible for 
managing, directing, administering, and supporting the broad spectrum 
of Office of Science disciplines. This subprogram includes planning and 
analysis activities, providing the capabilities needed to plan, 
evaluate, and communicate the scientific excellence, relevance, and 
performance of the Office of Science basic research programs. 
Additionally, Program Direction includes funding for the Office of 
Scientific and Technical Information. The Field Operations subprogram 
is the funding source for the Federal workforce in the Field 
responsible for management and administrative functions performed 
within the Chicago and Oak Ridge Operations Offices, and site offices 
supporting the Office of Science laboratories and facilities.
    In fiscal year 2007, Program Direction funding increases by 7.4 
percent. Most of the increase will support an additional 25 FTEs for 
program management positions, to address recent committee of visitor 
recommendations and to manage the increase in the research activities 
in the fiscal year 2007 budget. The increase also supports a 2.2 
percent pay raise; an increased cap for SES basic pay; other pay-
related costs such as the government's contributions for employee 
health insurance and Federal Employees' Retirement System (FERS); 
escalation of non-pay categories, such as travel, training, and 
contracts; and increased e-Gov assessments and other fixed operating 
requirements across the Office of Science complex. Finally, the 
increase will cover requirements not requested in previous budget 
requests, including travel expenses of Office of Science Advisory 
Committee members and requirements related to Appendix A of OMB 
Circular A-123, Management's Responsibility for Internal Control.
Safeguards and Security
            Fiscal Year 2006 Appropriation--$68.0 Million; Fiscal Year 
                    2007 Request--$71.0 Million
    The Safeguards and Security (S&S) program ensures appropriate 
levels of protection against unauthorized access, theft, diversion, 
loss of custody, or destruction of DOE assets and hostile acts that may 
cause adverse impacts on fundamental science, national security or the 
health and safety of DOE and contractor employees, the public or the 
environment. The Office of Science's Integrated Safeguards and Security 
Management strategy encompasses a tailored approach to safeguards and 
security. As such, each site has a specific protection program that is 
analyzed and defined in its individual Security Plan. This approach 
allows each site to design varying degrees of protection commensurate 
with the risks and consequences described in their site-specific threat 
scenarios.
    The fiscal year 2007 budget will ensure adequate security posture 
for Office of Science facilities by protecting fundamental science, 
national security, and the health and safety of DOE and contractor 
employees, the public and the environment. Fiscal year 2007 includes 
funding necessary to protect people and property at the 2003 Design 
Basis Threat (DBT) level. In fiscal year 2007, an increase in funding 
for the Cyber Security program element is being requested to begin to 
address the promulgation of new National Institute of Standards and 
Technology (NIST) requirements which are required by the Federal 
Information Security Management Act (FISMA) to improve the Federal and 
an Office of Science laboratory cyber security posture.

                               CONCLUSION

    I want to thank you, Mr. Chairman, for providing this opportunity 
to discuss the Office of Science research programs and our 
contributions to the Nation's scientific enterprise. On behalf of DOE, 
I am pleased to present this fiscal year 2007 budget request for the 
Office of Science.
    This concludes my testimony. I would be pleased to answer any 
questions you might have.

    Senator Domenici. First I want to commend you for your 
approach to enhancing this office and trying to get it on the 
path that is declared by the President and those who pursue it 
with vigor, doubling the office. We have all wanted it to move 
in the direction you are talking about. Let us hope you can 
keep it going that way. That has tremendous, tremendous 
consequences for our children and our country's future and 
nobody quite figures that when you use all these words, but 
believe it. That is what it is. It is developing the capacity 
to make sure that the brains of our young people of the future 
are able to be truly fully developed in competition with the 
world. That is what we are talking about.
    Now, having said that, you heard some concerns. Does any 
one or two things pop out that you would like to answer right 
now, or would you like to move on?
    Dr. Orbach. I think I would prefer to move on and respond 
to questions.
    Senator Domenici. All right, we are going to start 
questioning, and we are going to start with the Senator from 
Colorado.

                  NATIONAL RENEWABLE ENERGY LABORATORY

    Senator Allard. Thank you, Mr. Chairman.
    I want to start out with the National Renewable Energy 
Laboratory in Colorado. As you know, you are aware of its 
importance and I know that you are also aware of the 
difficulties we have had there. I guess the question that comes 
to mind is, do you believe that the Department of Energy has 
all the tools it needs to see that a situation like that never 
occurs again?
    Mr. Garman. No, sir I do not. I have begun to explore with 
the subcommittee staff a new tool that might help us in the 
future have greater flexibility. This tool involves being able 
to get at some old program dollars that are nonperforming or 
underperforming and get them in the game so that we can have 
more flexibility to prevent that sort of thing from happening 
again. The subcommittee staff has been very accommodating in 
listening to our ideas and we think we can come up with----
    Senator Allard. I appreciate your efforts in that regard. 
What portion of your budget is disbursed based on earmarks and 
what portion is given under grants?
    Mr. Garman. It varies by program. In the Office of Energy 
Efficiency and Renewable Energy, which has received a 
significant amount of attention, the biomass program is 
earmarked or subjected to congressionally directed spending of 
57 percent of the total program dollars, geothermal 16 percent, 
solar 17 percent, wind 33 percent, freedom car and vehicle 
technologies 11 percent. Those are the major earmarked 
programs.
    Senator Allard. What was the last one?
    Mr. Garman. Freedom car and vehicle technologies.
    Senator Allard. I see. What was the percentage on that?
    Mr. Garman. 11 percent.
    I do not want to be misconstrued. Some of the 
congressionally directed projects are very good projects and 
let me say that out front. We have some projects, excellent 
work, excellent R&D outputs, and the only negative thing that 
anyone in the program could say about it is that it was not 
competitively awarded.
    But we do subject these programs to merit review after the 
fact and we evaluate them and we try to get the very best R&D 
outputs that we can out of them. So I do not want this to be 
misconstrued--they have presented us with some challenges, but 
they also have presented us with some opportunities.
    Senator Allard. Well, I thank you for your willingness to 
try and work with the committee and work with our office.
    Senator Domenici. What is an earmark? How did he--did he 
define an ``earmark'' there?
    Mr. Garman. No, sir.
    Senator Domenici. Could we do that, Senator? Would that be 
all right, if I asked him what that means?
    Senator Allard. Yes, go ahead.
    Mr. Garman. Our definition of an earmark is, in its 
simplest form, when the recipient of the funding is designated.
    Senator Domenici. Is designated by the law?
    Mr. Garman. In the report language, the report language 
will specify projects, and our consultations with the 
subcommittee staff will designate the recipient in many cases.
    Senator Allard. Thank you for following up on that, Mr. 
Chairman.

                       ROCKY FLATS MINERAL RIGHTS

    Let me also go on to Rocky Flats. Last year Congress passed 
legislation at my behest that authorized the Secretary of 
Energy to purchase some mineral rights at Rocky Flats. This 
authority was provided just for 1 year and I understand that 
minimal progress has been made so far. What is the Department 
of Energy's plan for purchasing the essential mineral water 
rights there at Rocky Flats and when do you expect this 
transaction to be completed?
    Mr. Garman. I am going to have to take that question for 
the record, Senator, and get back to you on that quickly, if I 
can.
    [The information follows:]

                         Rocky Flats Litigation

    I have not personally been involved with this case, but I am 
informed that the Department's lawyers' oversight of it has been quite 
proactive. They advise that there is no evidence that properties in the 
vicinity of Rocky Flats suffered extensive damage. Just last year the 
Agency for Toxic Substances and Disease Registry (ATSDR) issued a 
report concluding that the ``studies and sampling data generated by 
numerous parties, including the U.S. Environmental Protection Agency 
(EPA), the Colorado Department of Public Health and Environment 
(CDPHE), the U.S. Department of Energy (DOE) and its contractors and 
local community groups, universities and private researchers . . . 
paint a consistent picture of the public health implications of 
environmental contamination'' near Rocky Flats, and that picture is 
that ``past, current and future exposures are below levels associated 
with adverse health effects.'' In fact, ATSDR reported that ``estimated 
total exposures to radiation from the soil . . . are 3,000 times lower 
than the average exposures to ionizing radiation experienced by United 
States residents.''

    Senator Allard. I would appreciate it if you would. This is 
something that is really important to get that wrapped up. We 
want to transfer that over to the Department of the Interior to 
be managed as a refuge. That cannot happen until we get this 
issue resolved. So it is important, I think, that we get this 
taken care of. I have received some information regarding that 
perhaps maybe it was not progressing along as it should and if 
it is not I would like to know why and what the hold-up is on 
that. So the sooner you get back to us, I would appreciate it 
very much.
    Mr. Garman. Yes, sir.
    Senator Allard. With regard to--it looks like my time has 
expired, Mr. Chairman.
    Senator Domenici. Thank you very much.
    Senator Murray.

                             PNNL 300 AREA

    Senator Murray. Thank you, Mr. Chairman.
    Dr. Orbach, as you know, when we talk about Hanford cleanup 
the plant and tank farms are the first thing that comes to 
everybody's mind, but there is a lot of work to be done across 
the complex and progress is being made. The river corridor 
cleanup, which includes the 300 Area, is moving forward better 
than expected right now, but there is an obstacle out there. As 
you well know, the PNNL has a lot of capabilities. It is housed 
in that 300 Area and it has to exit those facilities and 
relocate.
    The Capability Replacement Laboratory project has been 
devised to meet that need and the goal of that project is to 
keep both the cleanup at the Hanford site and the PNNL work on 
track. In December of last year, the CD-1 for this project 
which outlined a schedule for the PNNL exit was approved. But 
it now appears that this schedule is going to cause a delay in 
the river corridor cleanup. Are you familiar with that issue?
    Dr. Orbach. Yes, I am, Senator. I believe that the 2015 
date is still on track and that we can meet that commitment. 
The change has been a consequence of the complexity of the 
facilities required to receive the workers who are in the 300 
Area. But we now have a robust plan with both the----
    Senator Murray. You do understand it is going to be a cause 
of delay now without additional funding?
    Dr. Orbach. The funding is actually on track. There has 
been a delay, that is correct. But the target date still 
remains.
    Senator Murray. Well, within the 2007 budget request all of 
the funding is contained in the NNSA budget. Can you explain 
why there are no Office of Science funds that are requested?
    Dr. Orbach. Yes. It is simply a question of phasing. The 
Office of Science funding in terms of our responsibility will 
show up in the fiscal year 2008 budget and it is just a 
question of when--which agency puts its funding in. But as I 
say, we have a phased structure for both the Office of Science, 
NNSA, and also DHS to create the facilities that will be 
required to move people from the 300 Area.
    Senator Murray. So there is no delay due to the PNNL exit 
schedule?
    Dr. Orbach. There is no delay with regard to the river 
corridor commitment. There is a--we have extended the closing 
of the 300 Area so that we can----
    Senator Murray. To accommodate that.

                         WASTE TREATMENT PLANT

    Dr. Orbach. To accommodate a proper facility, yes.
    Senator Murray. Well, I want to keep working with you on 
this because it obviously has a big impact on our State, and I 
appreciate the work we have done on that.
    Mr. Chairman, I see that Assistant Secretary Rispoli is in 
the office and I wanted to ask him a question, with your 
permission, about the EM budget regarding the vit plant and if 
he could just tell us where we are on that and give us a quick 
update on how we are going to address the new cost and schedule 
while he is here, if you would not mind.
    Senator Domenici. I have no objection, unless you all do.
    All right. If there is none, let us--state your name and 
glad to have you here.
    Mr. Rispoli. Thank you, Mr. Chairman. Mr. Chairman, members 
of the subcommittee, I am Jim Rispoli, the Assistant Secretary 
for Environmental Management.
    Senator, I would be happy to take your question.
    Senator Murray. Thank you. I just wondered if you could 
give us while you are here a quick update of where we are on 
the vit plant. We all know there is a long road ahead of us. I 
appreciate the better communications we are having this year. 
But if you could just give the committee a quick update on 
where we are on this, how we are going to address the technical 
issues, and where we stand on the new cost and schedule 
baseline.
    Mr. Rispoli. I would be happy to. As you all know, the 
budget that was submitted as part of the President's budget did 
not yet incorporate any of the new cost estimates that are 
being worked, but subsequent to the budget being delivered, in 
fact within just the several weeks afterward, we began 
delivering reports to the appropriate committees and 
subcommittees in the Congress as well as to the delegation of 
Washington State.
    We have now got approximate costs that have not been 
validated by the Corps of Engineers, which is doing that effort 
for us. So quickly where we are: The estimates that we have to 
date are in the range of $10 to $11 billion. That does not 
necessarily include risk that is not within the control of the 
contractor or the Department. That is called programmatic risk 
and that is addressed in some of the reports that we have 
delivered. But we are in that range.
    Meanwhile, the Army Corps of Engineers is reviewing a 
technical estimate for the project cost and schedule that 
amounts to, I am told, 87 looseleaf volumes of information. 
They will be complete with the evaluation of the whole estimate 
late this summer, in time for us to communicate that to the 
Congress.
    But the figures that I gave you are the range that we are 
talking about. We have worked very vigorously to address the 
issues. They are broken into three categories. One of them is 
project management types of issues and we have taken strong 
action based upon several of the reports that we have received 
and provided to you and the subcommittee and the committees. We 
have taken vigorous action to improve our project management 
both at the site and at the headquarters by addition of key 
qualified personnel. For example, we have certified--the 
project manager there has been certified by an independent 
board last December as qualified to be in charge of that 
project. We have added people in the project management area at 
both headquarters and the field, including contracts type of 
people.
    The technical issues, as you know, are very complex, and we 
did deliver a report to this subcommittee and other committees 
and your delegation. We have identified through bringing in a 
team of best and brightest from all segments of the industry, 
not just Bechtel but their competitors, academia, other areas, 
and have identified the technical issues. The team, the 
technical team, believes all of these can be solved, but the 
good point is that we have them on the table now so that we can 
solve them now and do not have to confront them downstream as 
new surprises at that point.
    So we consider this to be a major accomplishment that we 
have brought in this team of very accomplished people to look 
at the technical issues.
    Senator Murray. I really appreciate that and I appreciate 
your staying in touch with us and communicating on this. 
Obviously it is going to have an impact. But my concern is now 
the vit plant is going to be delayed, but the cleanup of the 
tanks is still a really pressing issue, and how are we going to 
pay for that when there is no funding for supplemental 
treatment in the budget?
    Mr. Rispoli. Yes, I understand the question. The question 
is that we have been evaluating a supplemental treatment that 
is called bulk vitrification. I have visited the site several 
times to see the mockup of how that process would work. Our 
intent is that this summer--I should mention that I have spoken 
with executives at both CH2M Hill, which is the prime 
contractor, as well as to corporate officers of AMEC, which is 
the subcontractor that is doing that.
    Our objective is to get a cost and schedule estimate--we 
call it a baseline--this summer that we can then independently 
validate. We do not know----
    Senator Murray. Including the treatment?
    Mr. Rispoli. Including that--this is for the supplemental 
treatment.
    We do not know at this point what the spending profile 
would be because we do not yet have the cost and schedule 
estimate in our hands to then be able to independently review.
    Senator Murray. But you expect to have that for us by the 
end of the summer so we can know what this committee 
appropriations bill will need----
    Mr. Rispoli. We expect to have that information from the 
AMEC subcontractor through the prime contractor by the end of 
the summer, so that we can then independently evaluate it and 
determine the best path forward. In the mean time, however, the 
funds that we have got right now are being used to develop that 
cost and schedule estimate.
    As I have stated before for the record, we need 
supplemental technology. As you know, the vitrification plant 
on the low activity waste side is not designed to handle 100 
percent of the low activity waste. So we need the supplemental 
technology. We believe this is the viable approach to do it. We 
just need the cost and schedule estimates that reflect the 
solution. They have technology issues as well that are being 
solved, and once we have that and validate it we will be able 
to communicate that to the Congress to come up with a path 
forward for that.
    Senator Murray. Well, I am concerned that we appear to have 
a gap in funding and I want to pursue that. Mr. Chairman, I 
know my time is up, but I would like to continue to have a 
conversation with you about this, because this really is a 
critical issue for all of us.
    Mr. Rispoli. Yes, Senator, I understand your point.
    Senator Murray. Thank you.
    Mr. Rispoli. Thank you.

                      COAL RESEARCH AND FUTUREGEN

    Senator Domenici. Well, let me just say to all of you--and 
I guess this is a tribute to the top of the Department--I 
really am convinced that you are all trying to get this job 
done, and I am very impressed and enthused that we will get 
there, in spite of budget problems.
    Let me take an issue that I want to try to understand. 
Could we bring Mr. Jarrett to sit by you, Mr. Under Secretary, 
and let me talk about coal, wherever he could fit there. Now, 
let me address the issue of coal in terms of what we are trying 
to do. We have a very serious problem in the transportation 
area of the United States, of using too much fuel that comes 
from overseas that are derivatives of oil. We have this big 
commodity over here in the United States called coal, which 
obviously scientifically is not too far afield from oil. They 
are very similar.
    There are two things we have been trying to do. No. 1, we 
have been trying to clean up the coal as we burn it, and we all 
call that clean coal technology. No. 2, we have been trying to 
convert it to fuel, to liquid, so it can be used for fuel. The 
Nazis did a little bit of that to save them at the end of the 
war, right. You know that.
    Mr. Jarrett. Yes.
    Senator Domenici. It was not very terrific, good, but they 
did do some. We know how to do it. We have not moved very 
dramatically.
    The last one has to do with global warming. We are working 
on the issue of how do you get carbon out of the coal as you 
burn it, as you convert it. There are different technologies, 
but we have been throwing around the word ``sequester'' or get 
the carbon out.
    Now, whoever can best explain to me on the record here for 
5 minutes, what is going on in terms of these three areas? 
Could you start with the last one first, the one of 
sequestration, sometimes referred to as America's FutureGen 
project or program, or an effort to develop an IGCC facility? 
Now, where are we with reference to this in terms of the money 
we have and the program you have put before us as you have 
attempted to assimilate this?
    I understand you are new, but you understand well, and I 
compliment you and congratulate you for taking the job, Mr. 
Jarrett.
    Do you want to do that? Do you want to let him do that?
    Mr. Garman. Sure.
    Senator Domenici. All right.

                          CARBON SEQUESTRATION

    Mr. Jarrett. There are a lot of questions in there, but I 
will start with the issue of carbon sequestration. As you know 
from conversations you and I have had previously, I am a strong 
believer that we need to advance our clean coal technology 
programs in this country because it is cheap, it is domestic, 
and it is plentiful. We can produce power from coal today and 
we do. Fifty-two percent of our electricity today comes from 
coal. We believe that coal will maintain or actually grow its 
market share in the decades to come, based on all of the 
projections.
    The obstacle that we have with developing our coal 
resources are environmental, and I will say up front that today 
we have the technology to utilize our coal and take care of the 
environment. What we cannot do is do it at an affordable cost. 
So all of our clean coal technology programs are aimed at 
learning how to develop and utilize that vast resource that we 
have in this country in an affordable way.
    Many of the problems have been resolved. Many of the 
environmental problems are well on the way to being resolved. 
But I think the Holy Grail for the coal program is to figure 
out the ways to eliminate carbon gas emissions from the 
combustion of coal in an affordable way. We are working on a 
couple of technology paths forward to do that. We are looking 
at more efficient ways to remove carbon gases in the existing 
fleet of pulverized coal powerplants that we have in this 
country.
    Senator Domenici. I understand. Now just let me interrupt. 
Between you and the Secretary, just tell the committee. Our 
objective is to use Government to the extent we can to move 
this technology forward. We are not a sole player. The private 
sector wants to do this, too, right?
    Mr. Jarrett. That is absolutely correct.
    Senator Domenici. And it would be a great big victory for 
them. They have got a giant future use for coal and they are in 
business, and they have told climate change people, we have 
made a breakthrough, right?
    Mr. Jarrett. Yes.
    Senator Domenici. Now, what are we in this budget--how much 
money do we have directed at this effort between the two of 
you? And are we doing the right thing, and did you cut the 
program or did you move money around, and are we still moving 
ahead with FutureGen or whatever? Please tell me. A lot of 
people come to our offices, his and mine, telling us they have 
got a solution to this and you all just will not listen to 
them. They have been in there to see you and they have got this 
idea.
    What is our role in all this? You have got my gist here. 
Just talk at me for 5 minutes. What are we doing about all 
this?
    Mr. Garman. There are some common threads in here that we 
are looking to exploit. First of all, it has become clear that 
gasification of coal is a pathway that leads us to both 
liquefaction, that can give us liquid fuels, it can lead us to 
opportunities to sequester carbon dioxide, it can lead us to 
opportunities to make a cleaner-burning conventional coal plant 
through IGCC technology.
    So gasification technology is something the Department has 
worked on for a long time and there are commercial gasifiers 
available today, just as there are commercial liquefaction 
plants available today. The South Africans have been making 
liquid fuels from coal. Syntroleum, an outfit that is working 
today, has technology to do that.
    The real issue is there are some technology risks, but 
there are financial risks. These are more expensive. As I think 
Senator Bond was commenting, there are ways to make diesel fuel 
from coal today if you can finance something on the order of a 
$6 billion plant for a 150,000 barrel-a-day capacity.
    Getting financing for that is very tough in this market. If 
Wall Street was convinced that oil was going to stay high, then 
it might be easier. But it is a $35 or $40 per barrel threshold 
most likely in getting that kind of financing. So in that 
respect the loan guarantee authority could play an important 
role in getting these technologies, which we think will work 
and that they are proven, into the marketplace so we can get 
some experience.
    There are companies, AEP among them, who is committed to 
building integrated combined cycle coal plants, gasifying the 
coal. There are companies, BP among them, who are looking at 
gasifying petroleum coke and sequestering the carbon dioxide in 
an enhanced oil recovery activity. These are all good things 
that are going on out there.
    We think through a combination--FutureGen is really in my 
mind the project that tries to package these technologies 
together and demonstrate them as packaged technology in a way 
that has not been done before. Thus it is very important to us 
and we want to continue that work.
    We also need to get the Office of Science more involved 
with us in the carbon sequestration aspect. They are going to 
do it and they are excited about the prospect, because we have 
to be able to convince the public that when we capture and 
sequester carbon dioxide in a saline aquifer or in an unminable 
coal seam or in an old oil and gas field that it is going to 
stay there, that it is not going to come out 10 or 50 or 100 
years in the future.
    Senator Domenici. We understand.
    Mr. Garman. That is a scientifically rigorous process that, 
frankly, we need Dr. Orbach and his folks' help with.
    So what I am trying to do is to paint a picture that we 
think, through partnerships with the private sector, 
partnerships with the Office of Science, we think that we are 
building a program that can demonstrate these technologies and 
validate the costs and get them ready for the private sector to 
take up.
    The decision as to whether the private sector is going to 
do that in large part is dependent on their guesstimates of 
what you are going to do with respect to carbon.
    Senator Domenici. They are going to make a marketplace 
decision.
    Mr. Garman. That is right. If they think carbon is going to 
cost $30 a ton, they will go in one direction. If they think 
carbon emissions are going to be free, they will go in another, 
in my view.
    Senator Domenici. Mr. Jarrett, any further comments?
    Mr. Jarrett. No.
    Senator Domenici. Okay, good.
    Senator Allard. Mr. Chairman, could I ask a question on 
that?
    Senator Domenici. Yes.
    Senator Allard. If we have carbon left over, these 
synthetic carbons, is that a potential use for that carbon? 
These are very lightweight, very tough materials.
    Mr. Garman. Yes.
    Senator Allard. Is that a place for the carbon?
    Mr. Garman. Yes. Yes, it is. We do not necessarily have to 
take the carbon dioxide and put it in the ground. We can--it is 
potentially possible to take this carbon from that stream and 
use it to make carbon fiber, to lightweight vehicles and what-
not.
    There are also interesting opportunities--and this is again 
part of why I am so excited about getting the Office of Science 
involved in this. There are things that we are not looking at 
that have great potential. An interesting example is there are 
folks in Arizona that are fooling around with the notion of 
taking a carbon dioxide stream directly from a coal plant, 
pumping it into brine water in the desert in between large 
panels of glass, growing algae, which flourishes in the brine 
water, exposed to all this carbon dioxide, and taking that 
algae twice a day, harvesting it twice a day because it grows 
so quickly, and turning that into ethanol, which is an 
interesting and novel approach.
    This is something that other folks are looking at. Now that 
we are in essence getting the Office of Science more integrated 
with us, which is long overdue and a great credit to Dr. 
Orbach, these are the sorts of things that we hope we are able 
to get involved in.
    Senator Domenici. But all this is not tomorrow. People are 
asking if we are going to get this done, are we going to get 
somebody to propose to build a $6 billion IGCC plant within the 
next year, do we have a program in place that might facilitate 
somebody doing that.
    Mr. Garman. That was a coal liquefaction plant. The IGCC 
plant could come in below that.
    Senator Domenici. Well, tell me which one would be first?
    Mr. Jarrett. Well, Senator, the IGCC plants are being 
proposed----
    Senator Domenici. Pilots.
    Mr. Jarrett [continuing]. Today as we speak. But the coal 
liquefaction plants, there are proposals or ideas that come to 
me from across the country in the 2 months that I have been 
there, and they all have a common problem. We have the 
technology to produce, to go coal-to-liquids, to produce ultra-
clean jet fuel and diesel fuels and other petroleum products 
out there. But the stumbling block for all of them is 
financing, and whether it is a $6 billion plant or--I think the 
first several will be much more modest than that.
    But the problem with all of them is the uncertainty about 
what is going to happen with world oil prices, because we know 
that right now--we know we can produce fuel from coal at the 
low $40 per barrel equivalent for a first- or second-of-a-kind 
plant, and that by the time we get to a fourth- or fifth-of-a-
kind plant we will have that technology worked so that we can 
produce fuel at about $35 a barrel.
    But the concern is when you make that kind of a substantial 
capital investment and then world oil prices were to drop to 
some number below that. Then you have threatened the financial 
viability of that plant.
    Senator Domenici. Can you get straight one last question in 
my mind, then I am off this issue. I am sorry it took so long. 
Which is going to come first in these plants that we are going 
to build? Which commercial consortia or company is going to get 
the first one and what is it going to be? Coal liquefaction for 
diesel fuel, is that what it is going to be, diesel and related 
products?
    Mr. Jarrett. I believe that coal-to-liquids and commercial 
deployment of IGCC plants for producing electricity will happen 
simultaneous. We know that there are IGCC commercial plants on 
the drawing boards today.
    Senator Domenici. And we have within the Department now the 
facilities to be helpful if the loan guarantee works? That is 
one instrumentality to help with the financing. And secondly 
the issue of base price, a bottom line price. If the United 
States were to adopt a statute establishing a bottom line for 
the price of crude oil at $35 right now and said that is going 
to be it, or $40, and said we are going to take care of any 
price that varies from that, that would shake this industry up, 
would it not?
    Mr. Jarrett. My personal view is that would shake the coal-
to-liquids industry up in a hurry. But we are having 
conversations with that industry and asking them the very 
questions that you are asking right now. That is really as a 
follow-up to the meeting you and I had not too long ago to talk 
about those questions.
    Mr. Garman. My personal view is that IGCC plants will come 
first, simply because there are folks that know that if they 
propose to build a pulverized coal plant they will be sued, and 
they are just looking at IGCC as a cleaner--they will not 
capture and sequester carbon dioxide, but it will be a cleaner 
burning plant that is more efficient than a pulverized coal 
plant.
    The interesting thing is that there is a lot of--and I want 
to make this point. There is a lot of DOE past technology work 
in this area. These gasifiers--this is a success story for the 
Department and it is technology that this Department has been 
involved in and you have been involved in promoting for 
decades. And finally we are at the threshold of seeing these 
technologies coming----
    Senator Domenici. But is it the right thing to happen now?
    Mr. Garman. I believe it is. I believe it is time for our 
technologies to enter the market.
    Senator Domenici. Tell me which one it is going to be, 
again?
    Mr. Garman. I think it is going to be integrated gasified 
combined cycle coal plants that will come into the market.
    Senator Domenici. What are they going to do with the 
carbon?
    Mr. Garman. These first ones will not capture carbon 
dioxide. They will simply gasify the coal for burning in a 
turbine and generating electricity. These first plants will not 
capture carbon dioxide, but they are more efficient than 
pulverized coal plants.
    Senator Domenici. Are these not a little more expensive?
    Mr. Garman. Yes, sir, they are, and that is why they have 
not been built. Compared to a pulverized coal plant, they are 
more expensive.

                          GASIFIER TECHNOLOGY

    Senator Allard. That brings up, Mr. Chairman, a 
quantitative question I wanted to ask you. How much natural gas 
can be brought on line with a lot of these technologies? Is 
there research and testing? Do you have any idea?
    Mr. Garman. I would have to take that one for the record to 
give you a good authoritative answer.
    [The information follows:]

                          Gasifier Technology

    The National Coal Council examined that question and in their March 
2006 report to the Secretary: ``Coal: America's Energy Future.'' One of 
their key findings was that using coal to produce natural gas could 
provide an alternative to at least 15 percent of America's annual 
natural gas consumption by 2025, or the equivalent of 4 trillion cubic 
feet (Tcf) per year. They projected that this additional supply would 
use an additional 340 million tons of coal per year. This amount of gas 
is roughly equal to Energy Information Administration's (EIA's) 
projection of liquefied natural gas imports in 2025.
    Currently, the Great Plains Gasification plant in Beulah, ND 
produces 148 million standard cubic feet per day (54 billion standard 
cubic annually) of substitute natural gas (SNG) from North Dakota 
lignite. This plant, which came on line in 1984, uses older fixed-bed 
gasification technology. The SNG produced in the plant is added into 
the existing natural gas pipeline network to heat thousands of homes 
and businesses in the United States. It should be noted that carbon 
dioxide generated in the process is sent via a 330 km pipeline to 
Saskatchewan, where it is used for enhanced oil recovery--the Weyburn 
project. This is one of the Carbon Sequestration Leadership Forum 
projects which DOE has been sponsoring along with other international 
participants. This carbon dioxide remains sequestered in the oil field, 
and therefore this plant provides an early preview of the kind of 
advanced near zero-emission coal technology we are developing in the 
DOE coal program.
    The technology to produce SNG is commercially available today. The 
DOE research and development program in coal gasification is focused on 
the development of advanced technology to reduce cost, improve 
efficiency, and enhance reliability when used in future near zero-
emission coal plants. These developments are also expected to provide 
significant benefits for plant configurations that produce SNG alone or 
in conjunction with other products such as electricity.

    Senator Allard. Okay.
    Senator Domenici. Senator, I took a lot of time. Do you 
want to take a little more time?

                     ROCKY FLATS LITIGATION CLAIMS

    Senator Allard. Just one more question. That was one of 
them, and this fits in here very naturally. This has to do 
again with Rocky Flats. The former weapons contractors, Dow and 
Rockwell, and the property owners nearby have been engaged in a 
protracted legal discussion about whether these property owners 
will be compensated for damage caused by the environmental 
contamination at Rocky Flats.
    Last February a jury awarded the property owners, in my 
view an incredible amount of money, over $550 million in 
damages. I understand the contractors are now appealing the 
decision. It seems to me that the only people who are really 
benefiting from this are the attorneys. They have already 
collected more than $100 million in legal fees.
    Because Dow and Rockwell now are going to be indemnified by 
the Federal Government, I guess the real losers are going to be 
the American taxpayers. To what extent are you involved with 
this case and do you have any evidence of extensive damage from 
the operation?
    Mr. Garman. Because this is a matter in active litigation, 
I would--and I apologize for doing this--but I would like to 
take that for the record. I am not a lawyer and it is dangerous 
for me to comment on issues in active litigation.
    [The information follows:]

                       Rocky Flats Mineral Rights

    The Department of Energy (DOE), in partnership with the U.S. Fish 
and Wildlife Service (USFWS) and Natural Resources Trustees (Trustees), 
has established and is currently executing a plan for purchasing the 
essential mineral rights at Rocky Flats.
    The acquisition strategy for the mineral rights will be conducted 
in two phases. First, the Trust for Public Lands (TPL), a nonprofit 
group specializing in real estate acquisitions for Federal Government 
entities, will purchase the mineral rights from willing owners at fair 
market value, and will perform any appraisal updates required. In the 
second phase, these rights will be purchased by the DOE, with the funds 
provided in the Energy and Water Development Appropriations Act for 
fiscal year 2006.
    At this time, TPL, DOE, and USFWS are finalizing a letter of 
agreement, stipulating the process for contacting willing sellers and 
ascertaining fair market values.
    DOE and the USFWS fully expect to accomplish the acquisition of 
mineral rights well within the timeline mandated by Congress, and in 
harmony with the local stakeholder community.

    Senator Allard. Well, give us some thoughts, if you would, 
in response, to the extent that you think you can.
    Mr. Garman. Yes, sir.
    Senator Allard. I understand your point on this.
    Thank you, Mr. Chairman.

                   LOS ALAMOS NEUTRON SCIENCE CENTER

    Senator Domenici. Thank you very much.
    Dr. Orbach, it is not well known that the Office of Science 
funds a considerable amount of research at some of the NNSA 
laboratories, which is the defense nuclear-related 
laboratories. The Office of Science supports around $70 million 
worth of research at Los Alamos, including work at the Neutron 
Science Center, called LANSCE. That is one of the most powerful 
linear accelerators in the world. Albeit quite old, it is still 
one of the most powerful.
    As you know, NNSA, the principal sponsor of LANSCE, is 
considering a major accelerator refurbishment project to secure 
lifetime extension of the facility. If NNSA goes forward with 
this project, would the Office of Science continue to support 
science research at LANSCE?
    Dr. Orbach. Mr. Chairman, yes. The Lujhan Center, which is 
our pulsed neutron center feeding off of LANSCE, has been a 
very successful exercise in the last few years and we have 
every intention of continuing that support. It will be a very 
helpful adjunct to the SNS.

                      ALTERNATE SOURCES OF ENERGY

    Senator Domenici. The President has made curing our 
Nation's addiction to oil as a top priority. In fact, the 
President's statement about that was one of the most exciting 
things that he said, and also setting a goal for reduction in 
the amount of oil that we might have to import. That has caused 
everybody around here to want to double that goal. I am kind of 
beset by Senators wanting a new law that will do more than that 
and we are wondering about how we are going to do that.
    But one of the--I am aware of the fact that the Department 
has provided $40 million to support nuclear energy research and 
that the Energy Policy Act authorized $49 million to be used by 
the Office of Science to support what is called integrated 
bioenergy R&D with regard to cellulosic biomass. What promising 
technologies are on the horizon that will enable us to turn 
corn stalks and wood waste into ethanol, and what other types 
of research in your office support the reduction of our use of 
fossil fuels?
    Dr. Orbach. We have a broad portfolio which ranges from 
alternate sources of energy through ITER, for example, also 
through efficiencies, lighter materials and so on, that we 
think will increase efficiencies and reduce consumption of 
energy. But to be very direct, we also believe that our 
programs that involve genomics, genomics GTL, will address the 
bioenergy opportunities directly. We have a commitment to 
expand and create new research centers for bioenergy that will 
be focused on cellulosic ethanol.
    In addition, we have every reason to believe that we can 
mimic nature's structures in photosynthesis to go from solar to 
fuels, as well of course as photovoltaics. So we are examining 
a wide variety of really transformational approaches to 
reducing our dependency on oil.

                     INTERNATIONAL LINEAR COLLIDER

    Senator Domenici. I have a number of questions about the 
genome program, the genome project that you have got going, but 
I think I am going to submit them. They require a very long 
introduction to the question and I do not want to take that 
much time.
    But I want to move to a rather interesting subject matter, 
at least between you and me. Perhaps nobody else in the world 
cares. It relates to the International Linear Collider. This 
year the--no, I am not going to do that one either. I am going 
to give you that one to answer, okay.
    I am going to talk with you a little about the Linear No 
Threshold Standard. Have you got that, Linear No Threshold 
Standard. Last year we discussed this Linear No Threshold Model 
research that the Department was assembling. I understand that 
there is a French study that was published last year that 
challenged the validity of the Linear No Threshold model that 
we were putting together. The effect--all of this has to do 
with the effect of low dose radiation, and the French study 
urged a total reevaluation of this model.
    Am I correct so far?
    Dr. Orbach. Yes, you are, sir.
    Senator Domenici. As it applied to low doses of ionized 
radiation, below 10 rems. Now, first let us stop for a minute. 
Regardless of whether there is any big application to this 
subject or not, what does ``10 rems'' mean?
    Dr. Orbach. It is a measure of the effect on biological 
material of radiation, either alpha or gamma radiation, and the 
energy deposited in the material itself. The energy deposited 
is measured in terms of rads. It is in ergs per gram. Then that 
is converted to rems to take account of the fact that the 
different kinds of radiation have different effects on the 
biological material.
    Ten rems is our maximum for what we call low dose 
radiation.
    Senator Domenici. So if we are trying to say you can use 
something that is dispensing with radiological material that is 
going to let that get out, we have a standard that says it is 
safe if it is 10 or under; is that what you are saying?
    Dr. Orbach. No, our standards are actually much lower than 
that.
    Senator Domenici. Okay, tell me about it?
    Dr. Orbach. The epidemiology research that we have seen 
does not show significant or any cancerous effects for 
radiation of 10 rems or less. But the actual amounts of 
radiation that are used as our standards are orders of 
magnitude lower than that value.
    Senator Domenici. But it is an attempt at quantifying?
    Dr. Orbach. Yes. Our program is completely consistent with 
the French observations and we are now, I believe, at a point 
where we can work with the EPA to begin to reassess the 
radiation risks that low dose radiation might involve.
    Senator Domenici. We jumped ahead here. I was trying to get 
here on the record how various people in their daily lives are 
exposed. So I get in an airplane tonight in New York and I fly 
all the way across the continent to Los Angeles. I am exposed 
to radiation, right?
    Dr. Orbach. That is correct.
    Senator Domenici. And it is different than the radiation 
that I am going to be exposed to if I stand on the ground here, 
certainly at sea level. And I fly all the way across and I get 
exposed to radiation, but nobody thinks there is anything wrong 
with that, right?
    Dr. Orbach. That is correct.
    Senator Domenici. How much am I exposed to when I fly?
    Dr. Orbach. My memory is about 10 millirems. That is--the 
round trip I took from New York to London, is of the order of 
10 millirems, which would be a hundredth of a rem or a 
thousandth of the 10 rems.
    Senator Domenici. Okay. And you did it round trip, it is 
double?
    Dr. Orbach. Yes.
    Senator Domenici. Now, let us proceed. The reevaluation of 
this model that I had gotten to and then we got sidetracked, 
the model applies to low doses. This is significant for a 
variety of reasons. But the most significant is that we base 
all our standards and regulations on levels far below 10 rems; 
correct statement?
    Dr. Orbach. That is correct.
    Senator Domenici. In fact, we set our cleanup levels which 
we just referred to over here for Colorado's cleanup, we set 
those standards for cleanup levels at levels below 10 and some 
cleanup levels are under 20 millirems, which you have just 
described how much smaller that is, far below the natural 
background of between 200 and 400 millirems.
    Dr. Orbach. That is correct.
    Senator Domenici. Is this study consistent with the data 
that the Department has collected under the Linear No Threshold 
Standard, and are we confident that the conclusion will change 
current regulations based on science if it is flawed?
    Dr. Orbach. We are convinced that the Linear No Threshold 
Model is incorrect at the low dosages of 10 rems or less. We 
are convinced that the scientific data has accumulated, 
certainly in recent years, to require a reevaluation of the 
risk of low dose and especially low dose rate radiation, and we 
are convinced that the epidemiology at 10 rems or less needs to 
be investigated to determine whether there is any evidence of 
cancerous consequences.
    Senator Domenici. How much resistance are you getting and 
from whom for this rather dramatic statement that you are 
making here?
    Dr. Orbach. Well, first of all, we do our own research, 
thanks to the support of this committee and the appropriations 
over the last 5 years. So our peer-reviewed research projects 
that are done by researchers all over our country have been 
accumulating, especially in recent years, to enable me to make 
this statement.
    But then last spring a remarkable set of documents emerged 
from the French Academies of Science. The French Academy of 
Science and the French Institute--the French Academy of 
Nuclear--sorry--of Medical Research published a joint statement 
which was consistent with our own research findings and in fact 
made categorical remarks that the Linear No Threshold Model is 
not based on evidence that exists in the literature today at 
low dosage.
    Senator Domenici. We might one day have a half day hearing 
on what this means, what it could mean.
    Dr. Orbach. I would be pleased to put such a hearing 
together.
    Senator Domenici. If this is applied, the reduction in the 
cost to society could be in the hundreds of billions of dollars 
over time because we are wasting money protecting ourselves 
from what we are now told needs no protection. Am I reading it 
right?
    Dr. Orbach. I would agree. I would agree with that 
conclusion.

                      HYDROGEN POWERED FUEL CELLS

    Senator Domenici. Mr. Secretary, one of the major elements 
of the bill that we passed, title VIII, was a road map that 
included revised funding and milestones for the development of 
hydrogen and fuel cells under the freedom car and the fuel 
partnership. Can you locate that in your mind or in your 
recollection, material there? The provision as a result of 
extensive collaboration between hydrogen and fuel stakeholders 
and policymakers, in which the research and development needs 
of the DOE and the industries that were participating were 
extensively evaluated. I think you might have even been a party 
to that.
    Section 8 reflects Congress' determined will that we wanted 
the President's 2010 and 2015 goals for hydrogen-powered fuel 
cells. Can you discuss how the statutory directives of EPAct 
2005 figured in the 2007 budget and can you tell us how DOE 
plans to meet these goals?
    Mr. Garman. The statutory requirements in the Energy Policy 
Act comport very, very closely, almost precisely, with our road 
mapping plan and our long-term and short-term program plans. We 
have fallen behind in some areas. Our overall goal is still on 
track. Our goal is to be able to put industry in a position to 
make a commercialization decision with the technical barriers 
solved by 2015.
    Because of some shortfalls in appropriations and 
congressionally directed spending, we have let some aspects 
slip. Last year I think we got about 60 percent of our 
request----
    Senator Domenici. I have to excuse myself. I have a phone 
call here. There is nobody else here, so do not talk.
    It looks like that was a most opportunistic moment in time. 
Others had to leave also. Now we are going to take just 5 more 
minutes and give you about 100 questions to answer.
    Mr. Garman. Okay. I will keep the answers very brief then.
    Senator Domenici. Okay. Finish that answer.
    Mr. Garman. We have had some programs and some projects 
slip, but not to the extent that we are moving away from our 
2015 goal.
    Senator Domenici. You mentioned in that statement that part 
of that problem was because of budget shortfalls. I would 
assume that there are some technological problems along with 
it, or is it all money?
    Mr. Garman. Well, there are some technical challenges that 
confront us in achieving the full-blown hydrogen vision, and I 
will just illustrate one and it is another illustration of how 
we think the Office of Science can be helpful. One of the most 
challenging aspects of the program is carrying enough hydrogen 
on board a fuel cell vehicle to give that vehicle the kind of 
range that a consumer expects, 300, 350 miles.
    Today, with current technology the fuel cell vehicles that 
we have on the road go about 150 miles. That will not fly with 
the consumer. So we are looking at a variety of different 
technologies, perhaps involving metal hydrides, carbon 
nanotubes, a variety of different materials and structures that 
could hold a lot more hydrogen in a manner that is closer to 
ambient temperatures and pressures, so that you do not have to 
use high pressure tanks and some of the other things that, 
frankly, might be of concern to a consumer.
    Just last week in SLAC, I was able to see some work that 
was being done there to look at how to stack more hydrogen in 
the carbon nanostructures so that, instead of going to a 
conventional fueling station the way we do today, you just 
might pick up a canister of hydrogen-impregnated carbon at Wal-
Mart and stick that in your car and that would be your fuel.
    So there are all kinds of novel ideas and approaches that 
we are looking at. Our partners, such as General Motors and 
Ballard and others, have been doing some very good work. This 
money is being well leveraged in my view with private sector 
dollars in achieving these goals.

                   YUCCA MOUNTAIN LICENSE APPLICATION

    Senator Domenici. The last question has to do with the 
Yucca Mountain license application. Secretary Bodman testified 
that the Department anticipates providing a new schedule for 
license application and repository operations by early summer. 
The budget justification material indicates among the tasks to 
be accomplished in the 2007 budget is defending the license 
application before the NRC.
    My question is twofold. Does the budget request assume that 
a license application will occur in 2007 and, if not, would the 
request need to be adjusted? And second, what is the 
Department's current estimate for the cost of the rail line to 
Yucca Mountain?
    Mr. Garman. We do not expect to be in a position to submit 
a license to the NRC in fiscal year 2007, and we will submit 
some materials. Of course, obviously when our schedule later 
this summer is there we will try to lay it out for you as 
clearly as we can.
    The cost of the rail line is highly variable based on the 
final routing and of course the cost of steel, which lately is 
accelerating. But it could be a $2 billion railroad.
    Senator Domenici. Two billion dollars?
    Mr. Garman. Yes, sir, it could.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Domenici. If it could, it probably will. If it 
could, it probably will be more.
    In any event, I am sorry we cannot go on. We have many more 
questions. Your testimony will be reviewed and we will have 
some questions on how we might adjust some dollars to 
accomplish some of the things you could not do. I want to close 
by commending you once again, you and all of the staff that is 
here with you, for your hard work, and thanks for your patience 
today.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]

            Questions Submitted by Senator Pete V. Domenici

                        GENOMES TO LIFE PROGRAM

    Question. Dr. Orbach, as you know, genomics research has been a top 
priority of mine for some time. I am very proud that the Department of 
Energy took the lead in mapping the human genome. This knowledge 
provides us the opportunity to understand many biological questions. I 
am very supportive of the Genomes to Life program, although I am 
frustrated with the slow pace of deployment of the four facilities. I 
believe 20 years is too long to wait to integrate the four planned 
facilities.
    I understand the National Research Council has reviewed the 
Department's current plan and they have made several recommendations to 
accelerate the implementation of genomics research within the 
Department. The National Academies has suggested the Department 
consider integrating the capabilities of each of the four facilities 
into one facility to address one or two Department core missions such 
as bio-energy or carbon sequestration. I believe this report has made 
good recommendations that will save the Department time and money and 
allow research to begin immediately.
    Dr. Orbach, what do you think of these recommendations? Do you 
believe the Department will realize the same scientific benefit by 
integrating the four facilities into one?
    Answer. The National Academies report was an excellent report. Its 
recommendations played a key role, along with the announcement of the 
President's Advanced Energy Initiative, in our recent decision to 
recast plans for the GTL facilities. The Department believes that the 
new facilities plan for vertically integrated centers focused on bio-
energy research, based partly on recommendations from the NRC panel, 
should indeed be able to accomplish the GTL program's objectives more 
rapidly and at reduced cost.
    Question. The Department has already issued a Request for Proposals 
on the first of four buildings. In light of this report, will you 
cancel the RFP and reissue an RFP based on these recommendations?
    Answer. On March 28, 2006, the Office of Science cancelled its 
Funding Opportunity Announcement (FOA) for a planned GTL Facility for 
the Production and Characterization of Proteins and Molecular Tags, 
issued in early January. The Office of Science plans to issue a new 
solicitation in the coming months for one or more centers for bio-
energy research. Centers focused on systems biology research into 
carbon sequestration and bioremediation are also being considered for 
future years.
    Question. The Academies recommended the Department pursue one or 
two core missions and support research into bio-energy, environmental 
cleanup and carbon sequestration. What grand challenge do you believe 
is the highest research priority?
    Answer. In response to the President's Advanced Energy Initiative's 
mandate for a strong focus on bio-energy, with an emphasis on producing 
research results that will help reduce the Nation's dependence on 
fossil fuel, GTL's energy mission is the highest research priority.

                   LOS ALAMOS NEUTRON SCIENCE CENTER

    Question. Dr. Orbach, It is not well known that the Office of 
Science funds a considerable amount of research at some of the NNSA 
laboratories. The Office of Science supports around $70 million worth 
of research at Los Alamos, including work at the Los Alamos Neutron 
Science Center, (LANSCE), one of the most powerful linear accelerators 
in the world.
    As you know, the NNSA, the principal sponsor of LANSCE is 
considering a major accelerator refurbishment project to secure a 
significant lifetime extension of the facility.
    If NNSA goes forward with this project, would the Office of Science 
continue to support scientific research at LANSCE?
    Answer. The Office of Science would likely continue to support 
merit-based scientific research at LANSCE, particularly at the Manuel 
Lujan Jr. Neutron Scattering Center.

                      SCIENCE AND ENERGY RESEARCH

    Question. Dr. Orbach, the President has made curing our Nation's 
addition to oil a top priority. I am aware of the fact that the 
Department has provided $40 million to support nuclear energy research. 
Also the Energy Policy Act authorized $49 million to be used by the 
Office of Science to support integrated bio-energy R&D.
    With regard to cellulosic biomass, what promising technologies are 
on the horizon that will enable us to turn cornstalks and wood waste 
into ethanol?
    Answer. We believe that our efforts in the GTL program to harness 
the powers of the microbial world hold the key to making the production 
of cellulosic ethanol cost-effective on a large scale. Advances in GTL 
genomics and systems biology approaches offer potential for improving 
the enzyme systems that deconstruct plant cell walls and increasing the 
yield of ethanol-producing microorganisms. In addition, systems biology 
potentially provides powerful tools for enhancing the productivity of 
biomass crops by optimizing them for industrial processing.
    Question. What other type of research is your office supporting to 
reduce our usage of fossil fuels?
    Answer. In energy supply, the Office of Science is funding fusion 
energy research, which holds the promise of an economic, 
environmentally benign energy source. We are also funding research in 
solar to fuels in which we will try to mimic photosynthetic processes 
in plants. To reduce energy consumption, we fund combustion research to 
improve combustion efficiency; research to create lightweight, high-
strength materials that improve efficiency; research into materials for 
transportation, storage and use of hydrogen; and high-performance 
computers that reduce the time-to-market for new, efficient engine 
designs (virtual prototypes) and can lead to airframe and vehicle 
designs that improve aerodynamics.

                      LINEAR-NO-THRESHOLD STANDARD

    Question. Dr. Orbach, last year we discussed the liner-no-threshold 
model research the Department is assembling. I understand a French 
study was published last year that challenged the validity of the 
Liner-No-Threshold model in assessing the effect of low dose radiation 
and urged the re-evaluation of this model as it applies to low doses of 
ionizing radiation below 10 rem. This is significant for a variety of 
reasons, but the most significant is that we base all of our standards 
and regulations on levels far below 10 rem. In fact we set our cleanup 
levels at under 20 millirems--far below the natural background of 
between 200-400 millirems.
    Is this study consistent with the data the Department has collected 
on the Linear-No-Threshold standard?
    Answer. Yes, the French Report is consistent with much of the data 
coming from the DOE Low Dose Program. The new data does not support a 
linear extrapolation to low doses for cancer risk.
    Question. If you are confident of these conclusions how will this 
change current regulations that are based on a flawed scientific model?
    Answer. Our understanding of the biological responses to low dose 
radiation exposure has increased dramatically. The new data directly 
challenge major underlying assumptions originally employed when the 
task of estimating human health risk for low dose exposures was first 
attempted, primarily using A-bomb survival data. I believe that the 
scientific community will rethink risk estimation in light of the newer 
more biologically rigorous assumptions. At the same time, more 
attention will be paid to more relevant epidemiological studies of low 
chronic exposures that mostly show no excess cancers. In the end, EPA 
and other regulatory agencies which have the lead on setting 
regulations will use these new scientific data provided by DOE's Office 
of Science and others.

                       JOINT DARK ENERGY MISSION

    Question. Dr. Orbach, you have consistently argued to sustain our 
scientific leadership in areas where we can and should be the world 
leaders. Unfortunately, I fear we are about to lose our leadership in 
an area where the United States has assembled the best scientific minds 
and maintain the most capable space program. I am referring to the 
joint DOE/NASA Joint Dark Energy Mission which is supported by the 
Office of High Energy Physics and ranked as No. 3 on the 20-year 
Scientific Technology Roadmap. This project will investigate the 
universe to understand the most fundamental questions about energy, 
space and time. In order to fully realize its scientific value we must 
launch a space-based telescope.
    Unfortunately, insufficient funding for this program puts in 
jeopardy the program and is likely to result in other countries picking 
off the assembled scientific and engineering talent.
    Despite the fact that this project was ranked No. 3 in the 
Department's 20-year plan, this project seems to have lost favor within 
the Department and NASA. Why is that? Why isn't the Department fighting 
to maintain this world-class scientific capability?
    Answer. The Joint Dark Energy Mission (JDEM) remains a high 
priority in the Office of Science. In fact, funding for competitively-
awarded dark energy R&D goes up over three-fold in the fiscal year 2007 
President's request. We continue to have discussions with NASA on how 
best to move forward on an interagency basis on JDEM. In February 2005, 
two interagency Federal advisory committees of DOE, NASA, and the 
National Science Foundation established a Dark Energy Task Force as a 
joint subcommittee to advise the agencies on the future of dark energy 
research on the ground and in space. The final task force report should 
be released in May 2006 and we expect that our path forward on dark 
energy studies broadly, and JDEM in particular, could be significantly 
impacted by the recommendations of this distinguished panel.
    Question. How will the Department support the JDEM program as well 
as other large projects, including the work on neutrino detection and 
the Large Hadron Collider?
    Answer. We believe the SC budget request will adequately support 
the JDEM mission as well as other large projects, including the work on 
neutrino detection and the Large Hadron Collider (LHC). As you may 
know, the just-released National Academies report on the future of 
particle physics in the United States, ``Revealing the Hidden Nature of 
Space and Time: Charting the Course for Elementary Particle Physics'', 
recommends that our highest priority should be supporting our LHC 
research program, followed by R&D on the proposed International Linear 
Collider, and then research including dark energy and neutrinos.
    Question. NASA has indicated that a re-plan of the Beyond Einstein 
program, which supports the JDEM program, will be conducted in fiscal 
year 2008-2009 to determine mission need. This would effectively kill 
any opportunity for a space launch for a telescope to support this 
research. Do you agree with this assessment?
    Answer. We had discussions with NASA on this, and we understand 
NASA will have a competition between the Constellation X-Ray 
Observatory (Con-X), Laser Interferometer Space Antenna (LISA), and 
JDEM missions to decide which one could start about 2010. Thus, we 
believe there is still the opportunity for a joint DOE-NASA JDEM 
mission.
    Question. Why isn't NASA supportive of this mission? Has this 
changed the Department's view of this project?
    Answer. We understand that JDEM remains an important part of the 
NASA Beyond-Einstein program but they are limited by funding to only 
moving one of the three missions (Con-X, LISA and JDEM) forward. DOE 
and NASA both are currently supporting mission concept studies. DOE's 
view of JDEM has not changed, and we support the JDEM mission.
    Question. If NASA isn't supportive of this mission why isn't this 
reflected in the budget justification?
    Answer. NASA is supportive of the mission and will be doing a 
competition between Con-X, LISA and JDEM in the 2008-2009 timeframe to 
decide which of the three will go forward about 2010. Both NASA and DOE 
are currently funding mission concept studies.
    Question. How much would it cost for the Department to take over 
this project and fund the space launch without financial support from 
NASA?
    Answer. An extremely crude early cost estimate for the full JDEM 
mission and launch is somewhere in the range of $600 million to well 
over $1 billion, but we would need to carry out a thorough mission 
concept competition and scientific and technical reviews before 
proceeding to a more mature cost estimate. We also expect that the 
soon-to-be-released dark energy task force report (mentioned above) 
could necessitate a re-evaluation of the optimal path forward including 
the appropriate scope and scale of JDEM.

                     INTERNATIONAL LINEAR COLLIDER

    Question. This year, the Large Hadron Collider located in CERN will 
come on-line supporting high energy physics research. In fiscal year 
2007, the DOE will fulfill its funding obligation of $450 million of 
the $6 billion project.
    The budget request includes a request of $60 million, an increase 
of $30 million to support the United States R&D effort to build the 
next generation collider to replace the LHC, which will initiate 
operations this year. The budget justification also supports 
construction studies and siting studies. I understand cost estimates 
for this next generation machine begin at $7 billion.
    Why is the United States rushing to support the next generation 
machine, before the existing state-of-the-art facility has begun 
operations? When does the Department hope to break ground on this new 
machine and where?
    Answer. The International Linear Collider (ILC) and the LHC are 
synergistic from a scientific standpoint. Simply put, the LHC can 
discover that new phenomena exist and the ILC will tell us what they 
are and what they mean. It will likely take another 5 years of R&D 
before we are technically ready to proceed with construction of the 
ILC, should the decision be made in the affirmative on a domestic and 
international basis. The current phase of the ILC is an internationally 
planned and coordinated program of R&D that should result in technical 
demonstrations of all major system components over the next several 
years. Our domestic decision process for the construction phase rests 
primarily on this R&D, the technical cost estimate from the Global 
Design Effort, and on compelling scientific results from the early LHC 
program. The next phase for the ILC would then be a thorough 
multilateral international decision process, ultimately including a 
competitive site-selection process, allocation of roles and 
responsibilities, and so on. It is therefore premature for the 
Department to hazard a guess on when the project could break ground. 
Our current position is that Fermilab would likely be the optimal site 
within the United States.
    Question. How much does the Department expect the International 
Linear Collider to cost and what are the cost share arrangements with 
other countries? Is there a cost the Department believes is too much 
for this facility?
    Answer. We await the Global Design Effort, under Professor Barry 
Barish, to report a credible cost estimate early next calendar year. 
Based on the ITER fusion project, it would be reasonable to expect that 
the host State would shoulder 50 percent of the cost.
    Question. Does the Department intend to compete the siting of this 
new facility among U.S. institutions?
    Answer. Our current position is that Fermilab would likely be the 
optimal site within the United States. The management and operation 
contract for Fermilab will continue to be open for prudent and 
necessary competition.
    Question. Where does this facility rank in the Department's 20-year 
plan?
    Answer. ILC ranks No. 1 in the mid-term epoch.

                    OFFICE OF SCIENCE--20-YEAR PLAN

    Question. Dr. Orbach, in November 2003, the Department put forward 
a 20-year plan entitled ``Facilities for the Future of Science, a 
Twenty-Year Outlook'' This report identified the facilities and mission 
that the Department wanted to pursue in near-, mid- and long-term. The 
selections were reviewed and prioritized by an Office of Science 
Advisory Committee. One argument for this facility was that it would 
establish priorities with clear goals that would help with balancing 
budget priorities and adhere to scientific priorities. One of the 
facilities identified in the plan was the Rare Isotope Accelerator, 
listed as the third priority and a near-term goal. This project 
apparently has been bumped another 5 years into the mid-term.
    Is this project an exception and will the Department continue to 
follow the 20-year plan implemented just a little over 2 years ago?
    Answer. Achieving an optimal balance among the many competing 
priorities for science funding is a formidable challenge. We devote 
substantial effort to achieving this task. Our 2003 publication 
``Facilities for the Future of Science, A Twenty-Year Outlook'' marked 
the first time, to my knowledge, that any government agency either here 
or abroad publicly issued such a long-range planning document on major 
scientific facilities. The Facilities publication culminated many 
months of careful deliberation that consolidated a list of 53 
prospective facilities into a list of 28. The Facilities document 
prioritized the 28 on the basis of ``Importance to Science'', grouped 
into three ``epochs'' on the basis of ``Readiness for Construction.'' 
These epochs are Near-Term, Mid-Term, and Far-Term, spanning the 20 
years. Priorities should be thought of as internal to the respective 
epoch. Comparison of priorities between epochs would be incorrect.
    The purpose of this construction was to recognize that technologies 
change, and that the determination of which epoch a particular facility 
fell into might well change with time. The introduction to the document 
states, in fact: ``We know, however, that science changes. Discoveries 
will alter the course of research and so the facilities needed in the 
future. For this reason, the `Facilities for the Future of Science: A 
Twenty-Year Outlook' should be assessed periodically in light of the 
evolving state of science and technology.''
    Thus, overall, the facilities identified and the priorities set in 
the facilities outlook remain valid. Our prioritization among epochs, 
however, has changed because we could not predict precisely how quickly 
various technologies would develop.
    Question. Have any of the other projects changed in their position 
on the list? If so, why?
    Answer. Yes, the elimination of BTeV last year because it was 
determined that it could not be completed in time to provide meaningful 
results before the Large Hadron Collider starts taking data. And the 
top priority within the Far-Term epoch, the National Synchrotron Light 
Source Upgrade (NSLS II), was placed in that epoch because, at the time 
the facilities outlook was written, it was thought that the technology 
would not be ready for construction for some years. But the technology 
developed more quickly than anticipated, and NSLS II should now be 
regarded as in the Near-Term epoch.

                    TECHNOLOGY TRANSFER COORDINATOR

    Question. The Energy Policy Act of 2005 created the position of a 
Technology Transfer Coordinator. The Coordinator is meant to focus the 
Department's efforts to transition energy technologies developed at the 
National Laboratories into the marketplace. The Act also establishes an 
Energy Technology Commercialization Fund, using a 0.9 percent set-aside 
of funds used for applied energy research and development. I understand 
the Department has not yet acted to comply with these requirements.
    Has the Department determined which Under Secretary will have 
responsibility for enacting these provisions?
    Answer. The Department is studying this provision of EPAct and will 
report back to you when a determination is made.
    Question. Since the Office of Science oversees a larger number of 
National Laboratories than any other office within the Department, 
should the Technology Transfer Coordinator report to the Under 
Secretary of Science?
    Answer. Once the Department has concluded its assessment of the 
EPAct provisions, the Secretary will make a determination whether the 
Technology Transfer Coordinator will report to the Under Secretary for 
Science.
    Question. The provision creating the Energy Technology 
Commercialization Fund applies to the current fiscal year. Will the 
Department be able to account for the use of the funds set-aside for 
the fund for fiscal year 2006?
    Answer. The Department is still assessing this provision and will 
respond once the assessment is complete.
    Question. The same section of the Act requires the Department to 
submit a technology transfer execution plan. What is the status of the 
Department's efforts to develop this plan?
    Answer. The Department is still working on the technology transfer 
execution plan.

                   INDEPENDENTLY FINANCED FACILITIES

    Question. Dr. Orbach, I understand that DOE is trying to address 
aging infrastructure crucial for science at DOE and NNSA laboratories 
through alternative financing such as the use of private third-party 
financing without the upfront cost to the Federal Government.
    What are the DOE plans for supporting and promoting third-party 
financing, and what are the obstacles faced when initiating projects 
such as the Science Complex at Los Alamos National Laboratory?
    Answer. The Department's approach to alternative financing is to 
consider it in the acquisition strategy phase of proposed new shorter-
term projects. The acquisition strategy is developed after the mission 
need is approved. If alternative financing is recommended, then a 
business case must be provided that supports this recommendation. 
General-purpose type facilities with credible private-sector uses 
(e.g., office buildings) are usually best-suited for alternative 
financing.
    Each opportunity is unique and the Department reviews each 
opportunity individually based on its merits. It is not appropriate for 
me to address opportunities that may be under consideration at Los 
Alamos because the facility is under the stewardship of the National 
Nuclear Security Administration.

                        RARE ISOTOPE ACCELERATOR

    Question. The Nuclear Science Advisory Committee was charged in 
2003 to compare the capabilities of the proposed Rare Isotope 
Accelerator (RIA) and the planned GSI facility in Germany. The 
committee concluded that RIA and the GSI were designed for different 
purposes and that each would serve large and distinct user communities.
    Does the Department accept the committee's conclusion that RIA and 
the GSI are not duplicative? If not, what is the reason for 
disagreement with the NSAC assessment?
    Answer. The NSAC assessment found that RIA's rare isotope research 
capabilities were more extensive than those of GSI. The Department 
accepts these findings.

                       INDIA'S INCLUSION IN ITER

    Question. At the December negotiations to complete the 
international agreement on ITER, the delegations welcomed India as a 
full party. With this development, I understand that the parties to 
ITER now constitute over half of the world's population.
    How will the inclusion of India as a full partner in ITER alter 
U.S. financial commitments to the project?
    Answer. The joining of India has not reduced the overall 
contributions of the other parties, but within those contributions it 
has enabled each of the Parties to provide an appropriate funding 
contingency to cover unanticipated costs of the ITER Organization, the 
legal entity responsible for oversight of the construction, assembly, 
operation, and deactivation of the facility.
    Question. How will the inclusion of India as a full partner in ITER 
alter U.S. prospects for the development of new technologies likely 
result in valuable intellectual property?
    Answer. In order for India to be a full partner, the allocation of 
in-kind hardware contributions was renegotiated among the ITER parties. 
The European Union, China, Japan, Korea, Russia, and the United States 
adjusted their high- and lower-tech contributions so that India's 
allocation would also be such a mix. The United States will still be 
providing significant amounts of high-tech hardware with the potential 
to develop valuable intellectual property.

         EXPERIMENTAL PROGRAM TO STIMULATE COMPETITIVE RESEARCH

    Question. The Experimental Program to Stimulate Competitive 
Research (EPSCoR) supports basic research in States that have 
historically received relatively less Federal research funding, in 
particular for University research. EPSCoR funding has been flat in 
recent years, at about $8 million. Under the President's American 
Competitiveness Initiative, Office of Science funding will double over 
the next decade.
    Do you anticipate that EPSCoR funding will remain a constant 
fraction of the overall Office of Science budget, as the total budget 
increases?
    Answer. Yes, EPSCoR funding will at a minimum remain a constant 
fraction of SC budget.

                STANDBY SUPPORT FOR NUCLEAR POWER PLANTS

    Question. The Energy Policy Act of 2005, Section 638 authorized the 
Department to implement ``risk assurance'' as a protection against 
regulatory delays and litigation. This provision provides a $500 
million guarantee for the first two plants.
    How does the Department intend to implement this provision?
    Answer. Consistent with EPAct, the Department is developing a 
rulemaking to provide the procedures and process for implementation of 
the standby support provisions in Section 638, otherwise referred to as 
Federal risk insurance. The Department is on target to meet the 
deadlines established in the legislation and to issue the interim final 
rule by May 6, 2006. The rulemaking is expected be final by the 
legislative deadline of August 2006.
    Question. EPAct authorized the use of both grant funding and loan 
guarantees, both requiring an appropriation. When will the Department 
budget funds to support this activity?
    Answer. The Department is currently evaluating the timing and 
appropriate funding from both grant funding and loan guarantees under 
EPAct.

                           NUCLEAR POWER R&D

    Question. The President has made nuclear power a top priority in 
this budget providing $250 million toward the GNEP program, which 
largely funds advanced fuel cycle activities. This large funding 
commitment seems to contrast with reductions in the Nuclear Power 2010, 
which seeks to support the deployment of new, safer reactors. It also 
runs counter to funding increases for the Nuclear Regulatory 
Commission, which is preparing to review license applications developed 
under the NP2010 program.
    Will the Department be able to fully support all the proposed 
combined operating license applications with this level of funding?
    Answer. Yes. The Nuclear Power 2010 program remains a top 
Departmental priority. The requested level of funding will fully 
support the originally planned proposed combined operating license 
application work scope for fiscal year 2007. The requested funding is 
based on the scope of the work negotiated with the industry in fiscal 
year 2005, when the New Plant Licensing Demonstration projects were 
initiated. The award of the cooperative agreements was later than 
expected, and there has been a slower-than-expected ramp-up of 
activities. As a result, the NP2010 program costs have lagged behind 
our obligated funding resulting in carry over from fiscal year 2005 
into this fiscal year. With the unexpected additional appropriations in 
fiscal year 2006, the NP2010 program anticipates carryover into fiscal 
year 2007 that combined with the budget request will support the 
originally-planned work scope.

                IMPLEMENTATION OF THE ENERGY POLICY ACT

    Question. Mr. Garman, EPAct provided a broad authority to the 
Department to support R&D, but also sought to support the deployment 
and technology validation of specific alternative energy such as 
biomass, clean coal technology, and solar, as well as others. 
Unfortunately, there are a number of demonstration activities, 
including Title 15, ``Ethanol and Motor Fuels'' that didn't receive any 
funding even though Congress authorized over $800 million for grants 
and other cost sharing arrangements to encourage the commercialization 
of biomass conversion technology.
    Can you please explain how and when the Department intends to 
support the Biomass-to-Ethanol programs in Title 15?
    Answer. Our biomass program currently supports the goals of Title 
15 through investments in advanced technologies that will augment 
biofuels production at existing corn wet and dry mills. The program 
also fosters the development of the next generation biorefinery for the 
production of fuels, power, and commodity chemicals from a wide variety 
of feedstocks including the conventional grain crops as well as 
perennial grasses and wood and forest residues.
    As noted in the Statement of Administration Policy (SAP) submitted 
to energy bill conferees on July 17, 2005, ``The House and Senate 
versions of H.R. 6 also include authorization levels that in many cases 
significantly exceed the President's Budget. These authorizations set 
unrealistic targets and expectations for future program-funding 
decisions.'' House and Senate SAPs contained similar language.
    The Department prioritized activities, including those authorized 
under EPAct, that would most contribute to the goal of reducing 
America's growing dependence on foreign oil. The 2007 budget reflects 
the Department's priorities.
    Question. Section 942 also provided production incentives for 
cellulosic biofuels. This activity hasn't been funded either. Can you 
update me on the status of this provision and if the Department will 
provide any funding in the near future? Also, is the Department 
preparing regulations to support this program?
    Answer. Section 942 authorizes the Secretary to use a reverse 
auction to deliver the first billion gallons in annual cellulosic 
biofuels production by 2015. The use of this authorization is timed to 
the first year that 100 million gallons of cellulosic biofuels are 
produced in the United States or in August of 2008. We are reviewing 
the requirements for this program and determining what regulations will 
be required and the schedule for such requirements.

                      CLEAN COAL POWER INITIATIVE

    Question. The budget provides just $5 million toward the Clean Coal 
Power Initiative, down $45 million from the current year levels. This 
program supports the deployment of clean coal technology including 
Integrated Gasification Combine Cycle (IGCC) facilities, which have the 
potential to significantly reduce greenhouse gas emissions. 
Historically, the Department wouldn't go forward with a technology 
solicitation without having secured at least $200 million. At this 
point, there is roughly $50 million available for fiscal year 2006.
    What is the rationale for cutting clean coal research at this 
point?
    Answer. The fiscal year 2007 funding request of $5 million will be 
combined with that from prior appropriations and will go towards the 
accumulation of funds for a future CCPI solicitation. In addition, if 
other clean coal projects do not go forward, then any additional 
funding that becomes available will also be applied towards a future 
CCPI solicitation. Ongoing CCPI projects, FutureGen, and various tax 
incentives including those authorized in the Energy Policy Act of 2005 
continue to provide incentives for demonstration and deployment of 
clean coal technologies with the potential to significantly reduce 
greenhouse gas emissions.
    The budget reduces the addition of new funds to CCPI, so that the 
program can take steps to improve the use of funds already provided for 
projects. As identified in the Program Assessment Rating Tool (PART) 
review, delays in CCPI ongoing projects and selected projects still in 
negotiation have contributed to high unobligated balances, currently 
over $500 million. This is partially a result of lengthy negotiations 
due to the complexity of the projects and statutory requirements to 
provide full funding to projects. In addition, extended negotiations 
over contract terms, private sector difficulty securing adequate 
financing for their cost share, private sector difficulty obtaining 
permits, and other issues have led to significant unobligated balances 
tied to projects or independent components of projects that were 
selected several years ago and have not begun construction.
    Although some degree of unobligated balances are expected, and in 
fact necessary, for forward funded, large scale, long duration, 
demonstration projects, the program also sees unobligated balances tied 
up in projects that are not moving forward to achieve CCPI's goals 
expeditiously and are delaying the benefit of funds appropriated for 
CPPI. The program is working to reduce the time between selection and 
award for projects that are being negotiated for initiation, and the 
time for those projects already awarded but requiring negotiated 
agreements to go to the next budget phase for which funding will be 
obligated. The goal of these improvements in the CCPI process is to 
ensure that projects progress to commencement of construction in a 
timely manner and strengthen the Department's ability to withdraw 
funding from stalled projects. If a project does not go forward or 
continue to the next budget phase, the available funds will be put 
towards a future CCPI solicitation. The program is also working to 
develop processes to ensure consistency of project selection with the 
R&D Investment Criteria and improve contract and project management 
controls to achieve the desired results.
    Question. When do you envision the next technology solicitation?
    Answer. The fiscal year 2007 request for the Clean Coal Power 
Initiative (CCPI) of $5 million, along with funds from the prior 
appropriations, will make available approximately $80 million that 
could go towards the accumulation of funds for a future CCPI 
solicitation. In addition, if other clean coal projects do not go 
forward, then any additional prior year clean coal funding that becomes 
available will also be applied towards the funding for a future CCPI 
solicitation. The decision of when to issue a CCPI solicitation will be 
made in the context of annual budget formulation and will be influenced 
by steps the program is currently taking to improve the use of funds 
already provided for projects and availability of prior year funds from 
projects that may not go forward.
    Question. The Secretary has previously testified that there is a 
large amount of uncommitted funds within this account--can you please 
provide more specific details of this funding and if any of those funds 
can be rescinded?
    Answer. By uncommitted funds the reference is to the fact that the 
funds have not yet been obligated for some of the competitively 
selected projects. When funds are obligated, they are committed to a 
particular contract. However, there is a commitment to fund those 
selected projects that currently are in negotiations to either be 
awarded for start-up or to continue to the next budget phase. 
Obligations of funds to the projects are done on a budget phase basis 
after the project has been negotiated and awarded. As such there is a 
funding commitment, but not a contractual funding obligation, tied to 
the projects.
    Lengthy negotiations due to the complexity of the projects, 
statutory requirements to provide full funding to projects, and long 
lead time acquisition of components have resulted in approximately $480 
million in unobligated balances for projects in CCPI and its 
predecessor programs (Power Plant Improvement Initiative and Clean Coal 
Technology Demonstration Program) that were awarded in the last 2 years 
and have not yet started and projects that were awarded up to 3 years 
ago and are currently making progress towards construction or are under 
construction. In addition, extended negotiations over contract terms, 
private sector difficulty securing adequate financing for their cost-
share, private sector difficulty obtaining permits, and other issues 
have led to approximately $195 million in unobligated balances for 
projects or independent components of projects that were awarded 3, 4, 
and 13 years ago, and have not yet started. If for some reason, a 
project does not go forward, the funding would be made available for a 
future CCPI solicitation.

                                  GNEP

    Question. Secretary Garman, as I have stated previously, I am very 
encouraged by the Department's new energy initiatives, especially the 
Global Nuclear Energy Partnership (GNEP). This is an ambitious program 
that will have significant impacts on the energy security of the 
Nation. Over the years the DOE has invested in nuclear research that 
can have a direct impact on new nuclear fuels and solve the problem of 
large volumes of nuclear waste that could contribute to the 
proliferation of nuclear weapons.
    I am anxious to see the next level of detail from the Department on 
how the funds will be spent in fiscal year 2007, in particular what 
roles will be assigned to what national laboratories.
    Can you tell me how DOE and GNEP will tap into the expertise 
resident in the NNSA laboratories and when this committee should expect 
to see the details of the work distribution?
    Answer. While Idaho National Laboratory currently is the lead 
laboratory for the advanced Fuel Cycle Initiative, the participation by 
and capabilities of all of DOE's national laboratories will be critical 
to the success of GNEP. The seven national laboratories--Argonne, Los 
Alamos, Lawrence Livermore, Sandia, Oak Ridge, Pacific Northwest, and 
Idaho--have provided input into the Department's development of and 
vision for GNEP. These seven national laboratories are also currently 
involved in the preparation of more detailed work scope and funding 
requirements. The details of the work distribution would be available 
to the committee after careful consideration and approval by DOE. NNSA, 
and its laboratories, are integral to the GNEP effort and are engaged 
specifically in the areas of advanced safeguards and non-proliferation.

                          FOSSIL ENERGY BUDGET

    Question. In your budget justification, the Department supports the 
FutureGen program to build a cost-effective near-zero atmospheric 
emissions from coal with the assumption that ``the successful and 
timely achievement of the Fossil Energy R&D objectives'' and the 
availability of technologies for are integrated into FutureGen. 
However, the budget has proposed to nearly eliminate funding under the 
Clean Coal Power Initiative--the driver for technology development.
    How can the Department hope to build a state-of-the-art facility 
using yet to be developed technology when you won't commit the 
resources to develop such technologies?
    Answer. The fiscal year 2007 budget request represents the 
necessary funding to develop the technologies arising from our coal 
research program for FutureGen and near-zero emission coal technologies 
in general. We believe that the funding level is sufficient to advance 
these technologies to the level of maturity and acceptable risk for 
integrated testing in FutureGen. The Clean Coal Power Initiative (CCPI) 
funding is focused on more mature technologies that are ready for 
demonstration prior to commercial deployment. The CCPI, however, does 
reduce the risk of the longer range commercial deployment of future 
near-zero emission plants based on FutureGen technology by reducing 
risks in technologies and operations that would have been demonstrated 
in CCPI such as Integrated Gasification Combined Cycle.

         CLEAN COAL POWER INITIATIVE--USE OF CARRYOVER BALANCES

    Question. The DOE 5-year budget justification claims that the 
Department will provide out-year funding for Clean Coal Power 
Initiative (CCPI) demonstration of advanced coal technologies, 
``contingent upon improvement of use of funds already provided for 
projects.''
    What exactly does the Department expect in terms of ``improvement 
of use of funds'' that will support future appropriations to the 
Department's leading coal R&D program?
    Answer. The program is working to reduce the time between project 
selection and award as well as the negotiating time for ongoing 
projects to proceed to the next budget phase, ensure that projects 
progress to commencement of construction in a timely manner, strengthen 
the Department's ability to withdraw funding from stalled projects, 
ensure project selection consistency with the R&D Investment Criteria, 
and improve contract and project management controls to achieve the 
desired results.
    Question. If the Department is dissatisfied with the performance of 
the existing competitively-awarded clean coal projects, what do you 
intend to do to improve performance of the projects?
    Answer. As identified in the Program Assessment Rating Tool (PART) 
review, project delays in CCPI have resulted in high unobligated 
balances, currently over $500 million. This is partially a result of 
lengthy negotiations due to the complexity of the projects, and 
statutory requirements to have available full funding for these 
projects. In addition, extended negotiations over contract terms, 
private sector difficulty securing adequate financing for their cost 
share, private sector difficulty obtaining permits, and other issues 
have contributed to the unobligated balances situation for projects or 
independent components of projects that were selected several years ago 
and have not begun construction.
    The issue is two-fold. First, these are complex project agreements 
to negotiate and frequently require the industrial participant to 
obtain items such as power purchase agreements that the participant 
must separately negotiate before coming to closure on the cooperative 
agreement with the Department. Secondarily, the projects that have been 
awarded are commercial demonstrations and therefore are also 
susceptible post-award to changes in market conditions which could 
result in loss of power purchase agreements or technology development 
risks, which in turn lead to delays.
    The Department is aiming to improve the process and minimize the 
disruptions and delays due to changing market conditions by better 
anticipating possible market impacts and addressing them earlier in the 
negotiation process. The Department is also developing contract 
provisions and other process improvements that strengthen the 
Department's ability to withdraw funding from stalled projects. Project 
selection will be improved by ensuring consistency of the selection 
process with the R&D Investment Criteria.
    If for some reason a Clean Coal Power Initiative (CCPI) project 
that was competitively awarded does not progress satisfactorily to the 
next phase because of either not meeting the milestones, or incurs 
inordinate delays, then the Department will to the extent possible 
assist the project participant in overcoming hurdles to move a project 
forward. If these obstacles cannot be resolved, the Department will 
pursue a mutual agreement or exercise other contractual provisions to 
terminate the project, and make the remaining funds available for a 
future CCPI solicitation.
    The Department is also working to improve contract management 
processes in response to GAO and DOE Inspector General reports 
identifying weaknesses.
    Question. Does the Department have any plans to re-compete any of 
the existing awards? If so, which one?
    Answer. The Department does not plan to re-compete any of the 
existing awards. In the case when a project is terminated, the 
available funds will go towards a future CCPI solicitation.

                                HYDROGEN

    Question. Secretary Garman, I have been pleased to see the 
significant developments made at our national labs in the area of 
hydrogen fuel cells. Los Alamos National Laboratory in particular has 
been a leader in this area. The Department has developed an excellent 
roadmap leading to the introduction of hydrogen fuel cells.
    In your view are you receiving adequate resources to move to the 
next level in your roadmap?
    Answer. Yes, the administration's funding request is sufficient to 
keep the hydrogen program on track to develop the critical technologies 
that will enable industry to make a commercialization decision in 2015 
on hydrogen fuel cell vehicles and the infrastructure to refuel them.

                     NEXT GENERATION NUCLEAR PLANT

    Question. Despite the significant support for the GNEP program, I 
question whether or not the Department is as serious about the Next 
Generation Nuclear Plant that will also support the President Nuclear 
Hydrogen Initiative.
    When does the Department intend to begin construction on the Next 
Generation Nuclear Plant?
    Answer. The Department is committed to meeting the Energy Policy 
Act requirements for the Next Generation Nuclear Plant. A wide spectrum 
of R&D activities is underway focusing on development of nuclear fuels, 
metallic and graphite materials capable of high-temperature service, 
and analytical methods to be used in assessing reactor system safety 
and performance. The R&D program will inform a decision by 2011 to 
proceed with the design competition for the NGNP as mandated by EPAct. 
The design competition is expected to take 2 years. A decision to 
construct would be expected to follow completion of final design 
activities. The Department is working with the Nuclear Regulatory 
Commission on a licensing strategy for the NGNP.
    Question. Without this plant, how will the Department validate the 
Nuclear Hydrogen Initiative, much less develop hydrogen from non-fossil 
sources such as natural gas?
    Answer. The Department is currently developing two systems of 
hydrogen production (thermochemical cycles and high-temperature 
electrolysis) using nuclear energy. Prototype testing of these 
processes are planned using non-nuclear heat sources. The results from 
the prototype tests will be used to guide the design of the 
engineering-scale facility to be coupled with the NGNP. While the NGNP 
would be capable of driving either of these systems, research is being 
conducted to lower the process heat requirements to reduce the 
technical risks associated with the very high operating temperatures of 
the NGNP.

                             URANIUM SUPPLY

    Question. Congress and the Bush Administration are encouraging the 
development of additional nuclear powerplants. Other nations are also 
aggressively pursuing the construction of new nuclear reactors. This is 
going to require more uranium to fuel our current and new reactors.
    Has DOE done any analysis on the availability of uranium inside the 
United States for nuclear power reactors over the next decade?
    Answer. The Department has analyzed a number of commercially-
available reports on the quantity and quality of domestic uranium 
reserves and resources that could be developed over the next decade. We 
would be happy to provide you with a briefing if you would like.

                           BARTER OF URANIUM

    Question. This subcommittee in the fiscal year 2006 Energy and 
Water Appropriations conference report directed DOE to follow 
government procurement procedures in any sales or bartering of DOE 
uranium inventories.
    Does DOE believe it is required to follow this directive?
    Answer. The Department has fully complied with the Section 314 of 
the fiscal year 2006 Energy and Water Development Appropriations Act 
including the provision that ``applicable'' procurement laws and 
regulations be followed. Because a sale, transfer or barter is not 
considered a ``procurement,'' provisions of the Competition in 
Contracting Act and the Federal Procurement Regulations are not 
applicable. Nevertheless, DOE documented its justification for the 
initial transfer of uranium to USEC for competitive sale as if those 
provisions applied. This transfer of a small amount of uranium to USEC 
(200 metric tons) was necessary to secure funding for USEC's 
continuation of the uranium remediation activities with no disruption. 
DOE recently conducted a competitive sale for 200 metric tons.
    Question. What has DOE done to follow this directive?
    Answer. The Department issued a Request for Proposals which closed 
this month for the Department's sale of 200 metric tons.

                   AMERICAN CENTRIFUGE PROGRAM--USEC

    Question. The Department has transferred the technology for the 
American Centrifuge Program to USEC, Inc. to commercialize. As part of 
the June 2002 agreement between DOE and USEC, there are a number of 
milestones that USEC is required to meet this summer and fall. There is 
concern since USEC's NRC license application appears to be delayed.
    Have you been briefed on the technology development program and do 
you believe that this technology is workable and is commercially viable 
at full scale?
    Answer. The Department is monitoring USEC's activities toward 
meeting its obligations under the June 2002 Agreement with DOE. We 
receive regular reports on the status of USEC's research and 
development program. The technology was proven in the government's 
program in the 1980's. The Department believes that the market will 
decide if American Centrifuge Program is commercially viable.
    Question. Are there any specific technical concerns you may have 
regarding the deployment of this technology? Are you confident that 
this project is well managed and following appropriate scientific 
practices to validate this technology?
    Answer. DOE is not in a position to assess the USEC practices since 
this is a not a government-directed program.

                           URANIUM INVENTORY

    Question. Given the increased national interest in nuclear power, 
the key role that fuel supply policy will play going forward and the 
increased interest by this subcommittee in DOE uranium inventory 
management, this seems to me to be the wrong time to remove these 
issues from DOE HQ and place them in a group whose experience is 
primarily in selling assets.
    I would feel much better knowing that these crucial functions, if 
they are to be transferred from the Office of Nuclear Energy, be 
transferred to your office, Mr. Under Secretary.
    Will you give this serious consideration and report back on the 
decision to the subcommittee?
    Answer. No decision has been made on transferring the functions. 
That said, these functions currently report to my office through the 
Office of Nuclear Energy. Should the Department conclude that it is 
more effective to transfer the functions, they likely would remain 
within my purview. I will keep the subcommittee apprized as we consider 
this issue.

                             URANIUM MINING

    Question. Domestic producers of uranium recently wrote Secretary 
Bodman and urged the DOE to maintain its uranium inventories for a 
possible shortfall between supply and consumption that they believe 
will grow annually over the next decade.
    Did the Department meet with the domestic producers to address 
their concerns?
    Answer. Prior to receiving their letter, the Office of Nuclear 
Energy staff met with the Uranium Producers of America. We believed 
that we addressed their concerns. More recently, Assistant Secretary 
Dennis Spurgeon met with several uranium companies this month to 
discuss their concerns.
    Question. What was DOE's response to this issue?
    Answer. The Department closely monitors activities in the nuclear 
fuel market for any potential major disruption of fuel supply to our 
Nation's commercial nuclear power reactors and has a designated uranium 
inventory to ensure the reliability of deliveries under the Highly 
Enriched Uranium Purchase Agreement with the Russian Federation.
    As part of a March 1999 Agreement concerning the transfer of source 
material to the Russian Federation, DOE agreed to maintain a stock for 
10 years of no less than 22,000 metric tons of natural uranium 
equivalent. The Agreement states that ``the stock may be reduced, 
through the withdrawal of uranium, in order to ensure the reliability 
of deliveries under the Commercial Agreement.'' DOE continues to 
maintain this stock.
    Question. Has DOE made any effort to encourage new domestic uranium 
production?
    Answer. We believe that market forces (the current price as of 
April 10 is $41.00/lb.) will stimulate new domestic production.

                              WIND ENERGY

    Question. In the fiscal year 2006 Energy and Water Conference 
Report, the Department was instructed to shift responsibility for the 
integration of renewable technology to the Office of Electricity 
Delivery and Energy Reliability. However, your budget provides nearly 
$8 million in funding for program staff to interface with FERC, 
regional transmission organizations, independent system operators and 
State regulators.
    Do you believe that the wind program staff is better able to 
perform this function than the staff of the Electricity Delivery and 
Reliability Office? If so, why have we bothered to establish the Office 
of Electricity Delivery and Reliability?
    Answer. Senior staff from the Office of Energy Efficiency and 
Renewable Energy (EERE) and the Office of Electricity Delivery and 
Energy Reliability (OE), met May 16, 2006 to examine coordination 
between offices, and the appropriate roles and responsibilities between 
them. Our two offices have jointly decided to establish a formal 
working partnership for coordinating the work on wind and electricity 
systems integration.
    Of the requested $8 million in fiscal year 2007, the majority of 
funds will be used to characterize wind, turbine operations, plant 
behavior and interconnection electronics, with $3.97 million devoted to 
Systems Integration. Of the Systems Integration total, $500,000 is 
planned for interfacing with FERC, regional transmission organizations, 
independent system operators and State regulators of which OE will 
serve as the lead DOE organization.
    Question. Has the Department committed funds within the wind energy 
program to support integration activities in fiscal year 2006--is the 
Electricity and Reliability Office involved?
    Answer. Yes, the Department has committed $2.4 million in fiscal 
year 2006 for system integration activities in the Wind Technology 
Program and program staff interacts on an ongoing basis with colleagues 
in the Office of Electricity Delivery and Energy Reliability (OE). Wind 
Program management recently discussed with OE the wind program vision 
for improved grid availability, as well as the role of expected wind 
development in the National Interest Electric Transmission Corridor 
Study under Section 1221 of EPAct. EERE continues to closely coordinate 
all its electricity-related actions with OE.

                        SOLAR AMERICA INITIATIVE

    Question. The President has proposed the Solar America Initiative 
to achieve market competitiveness of solar electricity by 2015 instead 
of 2020. This program appears to shift from a demonstration approach to 
that of a technology development program with industry.
    Which technologies will the Department focus on and which have the 
greatest opportunities to meet the 2015 goal?
    Answer. To meet its 2015 goals, the Solar America Initiative (SAI) 
will support R&D and manufacturing improvements through industry-led 
partnerships to reduce the cost of solar electric systems and optimize 
system performance. The R&D work will be complemented by a technology 
acceptance effort to help overcome the non-R&D barriers to 
commercialization of solar electric systems. SAI focuses work on both 
photovoltaics such as thin-film and multi-junction photovoltaics, but 
also supports concentrating solar power (CSP) technologies such as 
dishes and parabolic collectors.
    Question. What technology developments have occurred that led the 
Department to believe that it could make solar energy cost competitive 
5 years ahead of schedule?
    Answer. The Department believes that the cost competitiveness of 
solar energy can be accelerated by focusing on the transfer of 
demonstrated high-efficiency cells from the laboratory, to large scale 
industrial production through public-private collaboration with 
industry-led ``Technology Pathway Partnerships''. We also believe that 
our increased funding request will accelerate the pace at which we will 
achieve results that can lower costs.

                        HYDROGEN COMPETITIVENESS

    Question. The President established the Hydrogen Fuel Initiative to 
develop a hydrogen economy. One goal was to cut the production and 
delivery cost of hydrogen in half by 2010.
    How successful has the Department been in achieving this goal?
    Answer. Significant progress has been made in reducing the cost of 
hydrogen. For example, the cost of distributed hydrogen production from 
natural gas has fallen from $5.00/gallon of gasoline equivalent (gge) 
in 2003 to a current cost of about $3.10/gge. This cost is estimated 
using an economic model developed by the National Renewable Energy 
Laboratory and industry partners. Additionally, an independent panel 
has been commissioned to verify that our 2005 target of $3.00/gge has 
been met.
    These analysis activities use the Energy Information Administration 
(EIA) High A price projections for natural gas, which are typically 
less than today's market price. Therefore, the Department will continue 
to evaluate the effect of natural gas price volatility on the viability 
of this hydrogen pathway to compete with conventional fuels such as 
gasoline.
    Question. What about achieving the stated goals for reducing the 
cost of renewable production (distributed) sources?
    Answer. The Department believes that renewable hydrogen production 
pathways are critical to the long-term success of the President's 
Hydrogen Fuel Initiative to reduce our dependence on foreign oil and to 
reduce greenhouse gas and criteria emissions. Multiple renewable 
hydrogen production pathways are being pursued, including biomass 
gasification/reforming, renewable fuel reforming, photoelectrochemical, 
photobiological, solar high-temperature thermochemical, and water 
electrolysis using renewable electricity resources.
    Because appropriations have fallen short of request levels and 
Congressionally-directed projects consumed a significant portion of the 
budget in fiscal year 2005 and fiscal year 2006, the Department had to 
prioritize funding for its proposed projects. The Department chose to 
focus on distributed natural gas technologies that would most likely 
help to achieve the 2015 technology readiness milestone. Funding for 
hydrogen production projects on electrolysis and distributed reforming 
of renewable liquids was reduced, while funding for other longer-term 
renewable technologies was eliminated (total funding of renewable 
hydrogen production was reduced from a planned level of approximately 
$24 million to $13.1 million). Therefore, progress on the cost 
reduction of many renewable hydrogen production technologies has been 
limited. For example, cost of hydrogen from renewable bio-liquids in 
2003 was $6.70/gallon of gasoline equivalent and has not fallen 
appreciably toward our 2015 target of $2.50/gallon of gasoline 
equivalent. The President's fiscal year 2007 budget request includes 
funding for renewable hydrogen projects.

                         HYDROGEN MANUFACTURING

    Question. For the first time in the past 2 years the Department has 
provided funding for manufacturing R&D within the hydrogen account.
    What type of R&D is being proposed? Who will perform this activity?
    Answer. On January 24, 2006, Secretary Bodman released a ``Roadmap 
on Manufacturing R&D for the Hydrogen Economy'' for public comment. 
This roadmap, developed with interagency and industry input, identifies 
future high-priority manufacturing needs (automated/agile processing, 
high speed forming/molding, joining technology, non-destructive 
inspection techniques, etc.) in polymer electrolyte membrane fuel 
cells, high pressure composite storage tanks, and fuel reformers and 
electrolyzers for producing hydrogen.
    Based on further industry comments, due April 24, 2006, the 
Department will update the roadmap and establish priorities for an 
upcoming solicitation. The organizations performing the new 
manufacturing research will be competitively selected. Teams could 
include industry, national laboratories, and university partners.

                     HYDROGEN AND FUEL CELL PROGRAM

    Question. One of the major elements of the bill (Title 8) was a 
roadmap that included revised funding and milestones for development of 
hydrogen and fuel cells under the FreedomCAR and Fuel Partnership. The 
provisions are the result of extensive collaboration between the 
hydrogen and fuel stakeholders and policy makers in which the research 
and development needs of DOE and the participating industries were 
extensively re-evaluated. Title VIII reflects what Congress determined 
will be needed to meet the President's 2010 and 2015 goals for hydrogen 
powered fuel cell vehicles.
    Can you discuss how the statutory directives of EPAct 2005 figured 
in the fiscal year 2007 budget request? Can you tell me how DOE plans 
to meet the law's goals?
    Answer. The President's fiscal year 2007 budget request of $289.5 
million for the Hydrogen Fuel Initiative is consistent with Title VIII 
of the Energy Policy Act of 2005.
    In particular, the Department's multi-year planning drove the 
budget request which fully supports the statutory timeline and goals 
related to vehicles and infrastructure stipulated in Section 805. We 
plan to meet these goals through research partnerships with industry 
technology developers, national labs, and universities. The majority of 
funding will remain focused on research to help achieve cost and 
performance targets, in accordance with the administration's R&D 
investment criteria. Limited learning demonstrations covering multiple 
applications will be used to refocus research and to periodically 
validate progress.

                                BIOMASS

    Question. The Department has requested a significant increase in 
the Biomass program, including substantial increases in funding for 
thermochemical platform R&D and biochemical platform R&D.
    Which of these technologies has the greatest potential to reduce 
the costs of biomass production?
    Answer. It's difficult to answer this question with any degree of 
certainty at this time. There are a wide variety of feedstocks that can 
be converted to ethanol, and different feedstocks are available in 
different regions of the country. Ultimately, the most economic 
conversion technology--the biochemical (fermentation) or the 
thermochemical (gasification and pyrolysis)--may depend on the 
feedstock used.

                      STRATEGIC PETROLEUM RESERVES

    Question. The fiscal year 2007 budget doesn't request any 
additional funding to make repairs to the Strategic Petroleum Reserve 
after a direct hit by Hurricane Katrina.
    Is it fair to say that the SPR handled oil supply shortages in the 
Gulf region using already allocated funds?
    Answer. The SPR had sufficient funds to repair the minor damage 
that was caused by Hurricane Katrina. The damage included roofing, 
fencing and damaged trailers. The total cost of repairs was less than 
$1 million and was covered by our fiscal year 2006 appropriation.

                  HURRICANE KATRINA DISASTER RECOVERY

    Question. In the wake of Hurricane Katrina, you have created a 
program within Building Technologies called, ``Disaster Recovery and 
Building Reconstruction.''
    Could you please expand upon this program and specify how it will 
help in the rebuilding of the Gulf Coast?
    Answer. In November 2005, the Department launched its Disaster 
Recovery and Building Reconstruction web site (www.eere.energy.gov/
buildings), providing building resources, lessons learned from past 
disasters, and a calendar of workshops and training sessions being 
conducted throughout the Gulf region. This is not a new program as 
such, but rather a compilation of our existing efforts and partnerships 
applicable to rebuilding the Gulf region. We also continue to work with 
State energy offices, universities, and businesses in the affected 
States to encourage a broad regional exchange of information and best 
practices on energy efficient building technologies.

                             KATRINA--EPACT

    Question. The tragedy of Hurricane Katrina presents a unique 
situation in which thousands of buildings and homes need rebuilding. In 
addition the Energy Policy Act provided the Department with additional 
authorities to establish in the Energy Policy Act. Sections 126 and 140 
both authorize the Department to establish programs to facilitate 
energy efficiency and the integration on renewable energy technology. 
Obviously, the Gulf Coast region provides a great opportunity for the 
Department to develop these pilot programs.
    Has the Department taken any steps to help the disaster recovery by 
promoting or encouraging the use of energy efficient building 
materials?
    Answer. Yes, the Department is actively working with universities, 
extension services, builders, and building materials suppliers to 
encourage the use of energy efficient practices and energy efficient 
building materials. For example, the Department is partnering with The 
Home Depot, the Department of Housing and Urban Development, and State 
energy offices on a series of weekend training sessions on how to 
repair storm-damaged homes using energy efficient products and 
practices. Training sessions were held in New Orleans, Louisiana on 
January 22-23, Biloxi, Mississippi on January 28-29, and in Mobile, 
Alabama on February 4. These events attracted over 2,000 attendees. We 
are working closely with The Home Depot and other retailers to design a 
series of on-going events in the spring and summer to prepare for the 
upcoming hurricane season.

                         WEATHERIZATION PROGRAM

    Question. The Department has proposed cuts to cut the 
Weatherization Assistance Program by $77 million. This will impact 
33,000 families who will pay an estimated $200 million in heating and 
cooling assistance if they don't receive this aid.
    At a time when home energy bills are very high and there are a 
large number of people in the Gulf States who will be struggling to pay 
their bills this year, why did you decide to cut money from these 
grants?
    Answer. From 2002 through 2006, the administration requested a 
total of $1.359 billion for the Weatherization Program, nearly doubling 
the baseline funding assumptions (using 2001 appropriations). 
Unfortunately, Congressional appropriations from 2002 through 2006 fell 
short of the administration's requests by a cumulative total of $208 
million. Nevertheless, increased appropriations driven by the 
President's 2002 through 2006 budgets led to energy and cost savings 
for hundreds of thousands of the neediest low-income families.
    The administration made very difficult choices in developing the 
fiscal year 2007 budget. Reducing America's growing dependence on 
foreign oil and changing how we power our homes and businesses are 
among the Department's highest priorities, as outlined in the 
President's Advanced Energy Initiative.
    The Department's benefits models indicate that the Weatherization 
Program does not provide significant energy benefits compared to the 
potential benefits of other programs where we are increasing our 
investments.
    We note that financial aid for helping low-income families pay 
their energy bill is provided by the Department of Health and Human 
Service's Low Income Home Energy Assistance Program (LIHEAP).

             PHOTOVOLTAIC ENERGY COMMERCIALIZATION PROGRAM

    Question. The Energy Policy Act of 2005 created the ``Photovoltaic 
Energy Commercialization Program,'' which aims to establish 
photovoltaic solar electric systems for electric production in public 
buildings. The request for photovoltaic energy systems is up more than 
50 percent from fiscal year 2006.
    Is this effort to increase the use of solar power in public 
buildings included in the President's Solar America Initiative? In what 
other ways is the Solar America Initiative planning to use the 
requested $65 million plus up from fiscal year 2006?
    Answer. The ``Photovoltaic Energy Commercialization Program'' 
contained in Section 204 of the Energy Policy Act of 2005 is not part 
of the President's Solar America Initiative (SAI). Section 204 
authorizes the Administrator of the General Services Administration 
(GSA) to establish a photovoltaic (PV) commercialization program. The 
Department is willing to provide technical assistance to GSA, should 
GSA decide to implement such a program.
    The additional funding that the Department of Energy is requesting 
in fiscal year 2007 for the Solar America Initiative is to achieve the 
goal of cost-competitive (currently estimated at 5 to 10 cents per 
kilowatt-hour) solar power by 2015. The majority of requested SAI funds 
will be used to support a competitive solicitation for industry-led R&D 
to reduce costs along multiple photovoltaic technologies, some of which 
may be down-selected in future years. Ultimately, we aim to have 
partners demonstrate the ability to produce fully-integrated cost-
competitive photovoltaic systems optimized for U.S. markets by 2015. In 
addition, the Department is also planning to issue a second, smaller 
competitive solicitation in the area of solar technology acceptance 
that may include funding for technology assistance to promote the 
commercialization of photovoltaic systems in public buildings. The 
Department is in the process of developing its strategy for this 
technology acceptance solicitation, and will seek public feedback 
shortly to help inform the structure and content of the solicitation.

                   OFF-SHORE WIND ENERGY DEVELOPMENT

    Question. As part of the Energy Policy Act, Congress streamlined 
the permitting process and jurisdictional confusion regarding the 
permitting of offshore renewable energy projects, which have been a 
barrier to development. Several offshore wind projects have been 
announced, but none of the projects have been developed. In addition 
the Department has announced that it will support an offshore wind 
demonstration.
    What is the status of the regulatory reform process and are you 
confident that this will result in an efficient and streamlined 
permitting process?
    Answer. The Energy Policy Act of 2005 outlined a path to develop 
new regulations to manage the approval process for offshore wind and 
other renewable energy projects on the Outer Continental Shelf (OCS) 
and assigned the Department of the Interior's Minerals Management 
Service (MMS) as the lead agency. There are no interim policies or 
guidelines; however, MMS issued an Advanced Notice of Proposed 
Rulemaking to solicit comments from stakeholders in developing the 
language for the new regulations. The Department of Energy's Office of 
Wind and Hydropower Technologies Program will continue providing 
technical and other assistance to MMS under a soon-to-be-finalized 
Memorandum of Agreement related to offshore wind energy issues.
    Question. How many wind projects have been announced or are under 
consideration? How many megawatts of fossil energy will these projects 
displace and by when?
    Answer. Several offshore wind projects have been announced, 
although only two have taken formal steps required to begin the 
regulatory review process required for sites in Federal waters. The two 
commercial projects include the Cape Wind Project (420 megawatts), and 
the Long Island Power Authority/FPL Energy project (143 megawatts). The 
wind generated power from these projects would likely displace oil and 
natural gas-fired peaking powerplants.
    Question. How many megawatts of energy could the United States 
expect to produce from offshore wind?
    Answer. Preliminary estimates conducted at the National Renewable 
Energy Laboratory (NREL) indicate that more than 1,000 gigawatts of 
offshore wind energy potential exist in the United States between 5 and 
50 nautical miles off the coastlines, including the Great Lakes, with 
approximately 810 gigawatts over waters that are 30 m and deeper 
(Future of Offshore Wind Energy in the United States, June 2004; 
www.nrel.gov/docs/fy04osti/36313.pdf). Realizing even a fraction of 
this presents major economic, technical, and social challenges.

                      AMERICAN CENTRIFUGE PROJECT

    Question. As you know, the Department of Energy signed in 2002 a 
lease agreement with the United States Enrichment Corporation (USEC) 
for centrifuge technology. Currently, USEC is planning on constructing 
the American Centrifuge Plant (ACP) based upon a former DOE design that 
was never fully proven. History tells us that DOE spent more than two 
decades and $3 billion on centrifuge technology.
    What compensation did the Federal Government receive for this 
technology transfer?
    Answer. To obtain access to the restricted data related to the gas 
centrifuge enrichment process, identified at 10 C.F.R. 725.31 Appendix 
A as category C-24 isotope separation. USEC was required by regulation 
to pay, and did pay, $25,000. USEC also is fully funding development 
activities under the Cooperative Research and Development Agreement 
(CRADA) with the Oak Ridge National Laboratory. Finally, the Department 
is currently negotiating, but has not yet executed, a technology 
licensing agreement with USEC that addresses royalty payments for 
USEC's commercialization of DOE centrifuge technology.
    Question. Is the Federal Government liable should the technology 
prove unworkable?
    Answer. No.
    Question. Does DOE currently have departmental personnel working on 
this project?
    Answer. Since USEC's CRADA is with ORNL, there are some laboratory 
personnel working on the project. USEC pays 100 percent of the costs 
under the CRADA. Some DOE employees provide the required regulatory 
oversight.
    Question. At what stage in machine development is USEC?
    Answer. Because USEC is a private company and the technology 
development program is privately funded, its detailed development 
information is considered business proprietary to USEC and may be 
subject to protections under the Trade Secrets Act. Under this Act, DOE 
is obliged to take measures to protect such business proprietary 
information from public disclosure. In response to the committee's 
request for business proprietary information in its oversight capacity, 
the Department will provide the information requested in the 
Department's possession under separate cover in a secure fashion in 
accordance with applicable law and the Department's procedures.
    Question. Are individual prototype machines still being tested as 
reported in November 2005? What is the DOE's level of participation?
    Answer. As noted previously, this information is business 
proprietary to USEC. As a result, a response will be provided under 
separate cover. DOE provides regulatory oversight to ensure that 
industrial safety and environmental requirements are met.
    Question. What does prototype machine testing by USEC actually mean 
and involve? What is the DOE's level of participation?
    Answer. As noted previously this information is business 
proprietary to USEC. As a result, a response will be provided under 
separate cover. DOE is involved in a regulatory capacity to ensure that 
industrial safety and environmental requirements are met.
    Question. Is there any chance that the reliability and performance 
data will not be ready for the DOE October Milestone?
    Answer. The Department is not in a position to respond to this 
question.
    Question. Will the October data include economic performance data? 
If not, when will such data be available?
    Answer. The Department is not in a position to respond to this 
question.
    Question. Will economic data be proven for financing commitments to 
be obtained by January 2007 for the 1 million SWU plant?
    Answer. The Department is not in a position to respond to this 
question.
    Question. If ``cast-iron'' economic data is not available by 
January 2007, how can construction begin to meet the DOE June 2007 
Milestone?
    Answer. The June 2007 construction milestone is tied to a licensing 
decision by the Nuclear Regulatory Commission which is required before 
USEC can begin construction. The economic data requirement is an for 
USEC to resolve.
    Question. Is there a ``fall-back'' strategy in the event that the 
ACP cannot be developed as a commercially viable economic option in 
accord with the DOE June 2002 Agreement?
    Answer. The Department is not currently evaluating alternatives to 
the APC option.
    Question. Are real and proven alternative production technology 
options being investigated, other than continued and indefinite 
operation of the Paducah Gaseous Diffusion Plant?
    Answer. The Department is closely following developments in the 
domestic enrichment marketplace including the proposed LES centrifuge 
plant plans in New Mexico. We believe that market forces will work to 
provide sufficient domestic capacity to meet U.S. utility requirements.

               RECLASSIFYING WASTE AT HANFORD, WASHINGTON

    Question. Mr. Rispoli, the Congress reclassified certain waste as 
being ``incidental to reprocessing'' and as a result, this would allow 
the Department to leave a small amount of material in the tanks that 
would be filled with grout to permanently immobilize any remaining 
waste. This is the standard being applied to cleanup at Idaho and 
Savannah River. I am told that applying this same authority to the 
Hanford tank farm has the potential to save between $10-$15 billion.
    If this authority was extended to Hanford, can you estimate the 
budgetary impact would be for this project? How much time could be 
saved?
    Answer. The Department of Energy (DOE) committed during the debate 
on section 3116 of the National Defense Authorization bill that we 
would not work unilaterally to add another State to the 
reclassification authorization. That being said, DOE has not completed 
an analysis to determine how much time or money could be saved should 
this authority be extended to Washington State.
    Question. Does the Department believe this standard should be 
applied to the Hanford tank farm cleanup?
    Answer. The Department of Energy (DOE) has discussed with State of 
Washington officials on several occasions the benefits it perceives 
that application of section 3116 would offer to the citizens of the 
State of Washington. These benefits include a provision for the U.S. 
Nuclear Regulatory Commission's consultation and monitoring, and the 
certainty concerning the process to be used in making determinations. 
However, the DOE committed during the debate on section 3116 of the 
National Defense Authorization bill that we would not work unilaterally 
to add another State to the reclassification authorization. That being 
said, DOE has not completed an analysis to determine how much time or 
money could be saved should this authority be extended to the State of 
Washington.

                 HANFORD CLEANUP--FAVORITE AMONG EQUALS

    Question. The Environmental Cleanup budget is down by over $762 
million. Funding for cleanup at virtually every site in the complex is 
down. Los Alamos has been reduced by over $50 million; Idaho is down 
$20 million; Savannah River is down by $94 million. In contrast, 
funding for Hanford is up, despite the fact that we still don't have a 
clear idea how much the Waste Treatment Facility will cost.
    We do know that Bechtel, the current contractor, estimates it will 
cost over $11 billion. This is up from the original cost estimate of 
$4.3 billion in 2000.
    In the 2006 budget request, the Department predicted with 80 
percent certainty that the cost of the project would be $5.8 billion 
and be completed by 2011. This is incredible to me that in 1 year the 
cost of the project could go from $5.8 billion to $11 billion.
    It appears that everything that could go wrong with this project 
has gone wrong. There has been tremendous technical risk, poor 
engineering and design management, and regulatory uncertainty as a 
result of the Defense Nuclear Facilities Safety Board.
    Mr. Garman, when will you have a better sense of the final cost 
estimate for the Waste Treatment Project?
    Answer. In December 2005, the Department of Energy directed the 
Waste Treatment and Immobilization Plant (WTP) prime contractor, 
Bechtel National Inc., to deliver an updated Estimate-At-Completion 
(EAC) to reflect available funding for fiscal year 2006 and impacts of 
the results of the independent technical and cost reviews by May 31, 
2006.
    DOE has engaged the U.S. Army Corps of Engineers to perform an 
independent expert review of the EAC and to validate the EAC. The USACE 
has retained a number of recognized industry experts working with its 
own senior staff to perform this review. The USACE's report is 
scheduled to be completed by late summer 2006. Once the EAC is 
validated by the USACE, DOE would then validate and approve the 
baseline for the WTP project.
    Question. What can and will be been done to get control of this 
project and to reverse the cost increases?
    Answer. I think it is important to note that all prior planned 
designs for the Waste Treatment and Immobilization Plant (WTP) were 
based on a plant capable of treating and immobilizing only one-fourth 
of the high-level waste at the Hanford site. The current plant is sized 
to treat and immobilize 100 percent of the high-level waste, thus 
eliminating the need for a second, very sizeable and costly plant that 
the Department of Energy's (DOE's) prior plan had envisioned. In 
addition, since this project first got underway in the late 1990's, 
major advancements in technology have been recognized that will improve 
WTP performance. These advancements include: development of an ion 
exchange material to more effectively and less expensively remove 
radioactive cesium from tank waste liquids; improvement of throughput 
capacities for the furnaces used to vitrify the radioactive waste; and 
enhanced blending ability of pumps to maintain a consistent waste mix. 
We anticipate that benefits from these improvements will avoid the 
necessity of building a second plant for high-level waste, improve 
turnaround time, reduce personnel exposure, reduce performance risk and 
operating cost, and reduce the total number of canisters produced, 
thereby decreasing the volume of material ultimately sent to a 
repository for permanent disposal.
    On June 23, 2005, the Secretary of Energy made key decisions to 
address the WTP project scope, cost, schedule, contract, and management 
issues. The management actions included direction to: (1) conduct an 
After Action Review to assess the causes of the project cost, schedule, 
scope and project management issues, (2) assemble a new DOE 
Headquarters senior level management team, (3) submit the 
qualifications for a Federal Project Director to the DOE Project 
Management Certification Board, (4) provide weekly progress reports to 
the Principal Deputy Assistant Secretary for Environmental Management, 
(5) conduct quarterly progress reviews with the Secretary, and (6) 
develop an execution plan and master schedule for all of the major 
activities associated with the path forward for the project.
    The Secretary indicated to Bechtel Corporation that it must 
demonstrate its commitment and project management capabilities to this 
critical project by accomplishing the following:
  --Address the current technical issues, increasing the confidence in 
        design, contain costs, and develop a viable schedule.
  --Obtain the ``best and brightest'' from other major firms to 
        critically assess the current technical approach, evaluate 
        risks, review the cost/schedule, and develop recommendations to 
        promptly and dramatically improve project performance.
  --Provide the ``best and brightest'' site project management team 
        (executives, engineers and technicians) for the duration of the 
        project.
  --Develop and submit to DOE a complete and credible Estimate-At-
        Completion.
    Based on the actions directed by the Secretary of Energy and the 
reviews implemented by independent industry experts, there is now a 
strong project management framework in-place, a clear understanding of 
the technical issues surrounding the project, and a path forward for 
establishing a credible project cost and schedule baseline.
    Question. What guarantee can you provide that Federal managers will 
do their job to control costs and demand the best from their 
contractors?
    Answer. To improve project oversight the Department of Energy (DOE) 
has implemented the following key actions: establishment of a DOE 
Headquarters senior level oversight team, which is engaged in all 
aspects of the Waste Treatment and Immobilization Plant (WTP) project; 
recruitment by DOE of experienced personnel proficient in contracting, 
procurement, contract law, and project management; Federal 
certification of the WTP Project Director who is directed to strictly 
comply with the requirements of DOE Order 413.3, Program and Project 
Management for the Acquisition of Capital Assets; the requirement that 
the WTP contractor implement an Earned Value Management System, a 
proven, industry-standard performance monitoring tool, that fully 
complies with American National Standards Institute (ANSI) 748-A-1998; 
a structured weekly and monthly reporting system, plus a Quarterly 
Performance review conducted by the Assistant Secretary for 
Environmental Management; and delivery of regular project status 
updates to senior DOE management.
    The DOE continues to proactively upgrade its project management 
capabilities at the WTP and strengthen the framework needed to ensure 
effective planning and long-term execution in all areas of this large, 
complex environmental remediation project.
    Question. Do you believe you have the proper contract in place and 
what incentives are included in the contract to encourage cost 
reduction?
    Answer. Yes, I believe the Department of Energy (DOE) has the 
proper contract in place at the Waste Treatment and Immobilization 
Plant. DOE has initiated actions to increase and strengthen Federal 
oversight of this contract. These actions include putting in place a 
coordinated and aggressive infrastructure of reviews and validations of 
project costs, schedules, technical design, seismic criteria, overall 
project management and controls. In parallel, DOE is considering 
various changes to the incentives structure for an impending contract 
modification to challenge the contractor to deliver a quality plant 
that meets the mission need and schedule expectations while achieving 
cost effectiveness. We hope to complete the contract modification early 
in fiscal year 2007.
    Question. What impact have the recommendations by Defense Nuclear 
Facility Safety Board had on the cost estimate and cost schedule?
    Answer. The Defense Nuclear Facilities Safety Board (DNFSB) has 
been actively involved in reviewing the adequacy of the seismic 
criteria used in the design of the Waste Treatment and Immobilization 
Plant (WTP). Based on all the reviews, DOE estimates that the impact of 
revising the seismic criteria, including the associated verification 
activities, for the WTP has resulted in an estimated overall project 
cost increase in the range of 10-15 percent with a resulting increase 
of approximately 20 percent to the overall project completion schedule.
    DOE has engaged the U.S. Army Corps of Engineers (USACE) to perform 
an independent expert review of the Estimate-At-Completion (EAC) and to 
validate the EAC. This review includes an evaluation of those costs 
attributable to the inclusion of revised seismic criteria. The USACE's 
report is scheduled to be completed by late summer 2006.

                        LOS ALAMOS NATIONAL LAB

    Question. The budget reduces soil and water cleanup activities at 
Los Alamos National Lab by $70 million. It has been 2 years since the 
Department negotiated and signed the 2005 Consent Order with the State 
of New Mexico on a fence-to-fence cleanup strategy to fully remediate 
the site by 2015.
    The budget justification claims that despite the Department has yet 
to complete its validation of the site baseline in cost estimate. I 
find it remarkable that the Department, which has been onsite for more 
than five decades, doesn't have an accurate picture of the cleanup 
responsibilities or cost estimate.
    The Consent Order requires that the LANL site be cleaned up by 
2015. How will a $70 million reduction in soil and water remediation 
activities impact this cleanup date?
    Answer. The Department of Energy (DOE) has had significant 
performance issues for several years with the previous contractor's 
environmental work at the Los Alamos National Laboratory (LANL). 
Additionally, LANL has not yet been able to provide an integrated cost 
and schedule baseline that DOE is able to validate.
    Senior officials within DOE have asked for the involvement of 
senior executives of the parent companies of the new contractor in 
delivering efficiencies and a cost and schedule baseline able to 
withstand scrutiny and that can be validated by DOE. To that end, we 
believe that the new contract will address these performance issues, 
offer new opportunities to continue significant cleanup and risk 
reduction, and enable progress towards a new baseline. We assure you 
that we remain committed to the Los Alamos Compliance Order on Consent 
(March 2005) with the State of New Mexico and its environmental 
milestones.
    Question. What specific cleanup activities will the Department 
forego as a result of the $70 million cut?
    Answer. The Department of Energy is continuing a broad base of 
remediation activities. We are evaluating soil and water remediation 
activities including characterization, protection of groundwater 
resources, and remediation for opportunities for better performance 
under the new contract. We believe that the new contract will address 
past performance issues, offer us new opportunities to continue 
significant cleanup and risk reduction, and deliver progress towards a 
new baseline. Until we have a cost and schedule baseline from the new 
contractor that is independently validated we are not able to determine 
what work, if any, will not be accomplished. However, we remain 
committed to the Los Alamos Compliance Order on Consent.
    Question. What expectations does the Department have for the new 
contractor, Los Alamos National Security LLC, to find cost savings to 
offset the funding reduction in soil and water remediation?
    Answer. Senior officials within the Department of Energy (DOE) have 
asked for the involvement of senior executives of the parent companies 
of the new contractor in delivering efficiencies and a cost and 
schedule baseline that is able to withstand scrutiny and that can be 
validated by the DOE. To that end, we believe that the new contract 
will address the Los Alamos National Laboratory's (LANL) performance 
issues, offer new opportunities to continue significant cleanup and 
risk reduction, and deliver progress toward a new baseline. We remain 
committed to the Los Alamos Compliance Order on Consent.
    Question. As a result of short-changing cleanup at Los Alamos as 
specified in the 2005 Consent Order, how much do you believe will the 
Department incur in the way of fees?
    Answer. The Department of Energy (DOE) has had performance issues 
for several years with the previous contractor's environmental work at 
the Los Alamos National Laboratory (LANL). Additionally, the LANL has 
not yet been able to provide an integrated cost and schedule baseline 
that the DOE is able to validate.
    We believe that the new contract will address these performance 
issues, offer new opportunities to continue significant cleanup and 
risk reduction, and deliver progress toward a new baseline. We remain 
committed to the Los Alamos Compliance Order on Consent and as such do 
not anticipate any fines.

                WASTE TREATMENT PLAN SEISMIC REGULATION

    Question. It seems odd to me that the Department didn't have a 
clear picture of the seismic risk before they turned the first spade of 
dirt at the Waste Treatment Plant.
    Why is the Department only now coming to terms with the changes in 
seismic standards?
    Answer. The initial seismic design for the Hanford Waste Treatment 
and Immobilization Plant (WTP) was based on an extensive probabilistic 
seismic hazard analysis conducted in 1996 by Geomatrix Consultants, 
Inc. In 1999, the Department of Energy (DOE) approved this design basis 
following reviews by British Nuclear Fuels, Inc., and seismologists 
from the U.S. Army Corps of Engineers and the Lawrence Livermore 
National Laboratory.
    DOE used the best information available starting in 1997 regarding 
the seismic hazard, namely the 1996 DOE Probabilistic Seismic Hazard 
Analysis. However, seismic information has continually evolved as 
seismic prediction methodologies have improved. This scientific 
progress led to the 2004 increases in seismic ground motion that 
provided a greater allowance for unknown soil and rock properties 
underneath the WTP site than were considered necessary in 1996. No new 
information regarding the likelihood of earthquakes or their strength 
contributed to this change. Rather, the change was due to the 
possibility that soil and rock underneath the WTP might attenuate 
earthquake movement less than was assumed in the 1996 work.
    Question. Can you quantify the cost increases attributed to the 
change in seismic standards raised by the Defense Nuclear Facilities 
Safety Board?
    Answer. Based on all the reviews, the Department of Energy (DOE) 
estimates that the impact of revising the seismic criteria, including 
the associated verification activities, for the Waste Treatment and 
Immobilization Plant has resulted in an estimated overall project cost 
in the range of 10-15 percent of the Estimate-At-Completion (EAC) with 
a resulting increase of approximately 20 percent to the overall project 
completion schedule.
    The DOE has engaged the U.S. Army Corps of Engineers (USACE) to 
perform an independent expert review of the EAC and to validate the 
EAC. This review includes an evaluation of those costs attributable to 
the inclusion of revised seismic criteria. The USACE's report is 
scheduled to be completed by late summer 2006.
    Question. What other facilities in Washington might be designed to 
the same seismic standard at the Waste Treatment Plant?
    Answer. Presently, there are no planned facilities in the State of 
Washington, including Department of Energy (DOE) facilities that are 
designed to the current DOE seismic standards. These standards would 
only apply to new nuclear facilities having the potential for 
significant onsite consequences.

                SAVANNAH RIVER SITE--SEISMIC REGULATIONS

    Question. I understand that new seismic standards have forced the 
Department to reevaluate the design standard of the Salt Waste 
Processing Facility at Savannah River Site. This halt in progress will 
increase project costs and delay the start of this project by 2 years.
    Why did this happen?
    Answer. The Department of Energy (DOE) has established design and 
performance standards associated with Natural Phenomena Hazards 
(including seismic) in DOE Guide 420.1-2, ``Guide for the Mitigation of 
Natural Phenomena Hazards for DOE Nuclear Facilities and Non-Nuclear 
Facilities'', and DOE Standard 1021-93, ``Natural Phenomenon Hazards 
Performance Categorization Guidelines for Structures, Systems and 
Components'', that are tailored to the hazards associated with our 
nuclear facilities. Performance Category 3 (PC-3), representing the 
most stringent earthquake design requirements, is invoked where the 
highest hazards exist in these types of facilities.
    In accordance with the DOE Directives, early in the design of 
facilities, the performance categorization is determined and the 
analysis is refined as the safety documentation matures. The Salt Waste 
Processing Facility (SWPF) preliminary safety analysis and the original 
facility design were based on a lower performance category 
determination. However, while addressing issues raised by the Defense 
Nuclear Facilities Safety Board the Department determined that the PC-3 
design requirements would provide greater assurance that confinement of 
radioactive materials was adequate given the range of hazards.

                 ACCELERATED CLEANUP--CHANGE IN COURSE

    Question. Last month Secretary Bodman testified that he would not 
be bound by the commitments by his predecessors regarding funding for 
Environmental Cleanup. By and large, the funding profile contained in 
the DOE's 5-year funding plan shows a decline in funding for most of 
the cleanup activities.
    Are we to assume that the Department will reduce funding for 
environmental cleanup activities, and if so, where and to what end?
    Answer. As part of the administration's Accelerated Cleanup 
Initiative, beginning in fiscal year 2003, increased funding was 
provided to accelerate cleanup and address urgent risks sooner than had 
been planned. Fiscal year 2005 was the peak year of funding for this 
initiative. We remain committed to completing the Environmental 
Management (EM) mission in a manner that protects the environment and 
public, and is safe for workers, while being fiscally responsible. The 
Department of Energy will continue to focus on risk reduction and 
cleanup completion while maintaining balance with other departmental 
and national priorities.
    Question. How will out-year funding reductions impact the schedule 
for the cleanup at all of the cleanup sites?
    Answer. The funding levels that had been developed in the 5-Year 
Plan to support the accelerated site closure strategy were based, in 
part, on overly optimistic assumptions. The Department of Energy (DOE) 
is currently updating these assumptions to reflect changes that have 
taken place in regulatory and statutory requirements, to incorporate 
lessons learned based on actual program performance, and to incorporate 
technological and acquisition strategies that have matured, with the 
goal of meeting the DOE's long-term environmental commitments. When 
these assumptions are fully updated, we will be in a position to assess 
potential impacts.

                 HANFORD CLEANUP--FAVORITE AMONG EQUALS

    Question. The Environmental Cleanup budget is down by over $762 
million. Funding for cleanup at virtually every site in the complex is 
down. Los Alamos has been reduced by over $50 million; Idaho is down 
$20 million; Savannah River is down by $94 million. In contrast, 
funding for Hanford is up, despite the fact that we still don't have a 
clear idea how much the Waste Treatment Facility will cost.
    Bechtel, the current contractor, estimates the project will cost 
over $11 billion. This is up from the original cost estimate of $4.3 
billion in 2001.
    In the 2006 budget request, the Department predicted with 80 
percent certainty that the cost of the project would be $5.8 billion 
and be completed by 2011. This is incredible to me that in 1 year the 
cost of the project could go from $5.8 billion to $11 billion.
    It appears that everything that could go wrong with this project 
has gone wrong. There has been tremendous technical risk, poor 
engineering and design management, and regulatory uncertainty as a 
result of the Defense Nuclear Facilities Safety Board.
    Mr. Garman, when will you have a better sense of the final cost 
estimate for the Waste Treatment Project?
    Answer. In December 2005, the Department of Energy directed the 
Waste Treatment and Immobilization Plant (WTP) prime contractor, 
Bechtel National Inc., to deliver an updated Estimate-At-Completion 
(EAC) to reflect available funding for fiscal year 2006 and impacts of 
the results of the independent technical and cost reviews by May 31, 
2006.
    DOE has engaged the U.S. Army Corps of Engineers to perform an 
independent expert review of the EAC and to validate the EAC. The USACE 
has retained a number of recognized industry experts working with its 
own senior staff to perform this review. The USACE's report is 
scheduled to be completed by late summer 2006. Once the EAC is 
validated by the USACE, DOE would then validate and approve the 
baseline for the WTP project.
    Question. What can and will be been done to get control of this 
project and to reverse the cost increases?
    Answer. I think it is important to note that all prior planned 
designs for the Waste Treatment and Immobilization Plant (WTP) were 
based on a plant capable of treating and immobilizing only one-fourth 
of the high-level waste at the Hanford site. The current plant is sized 
to treat and immobilize 100 percent of the high-level waste, thus 
eliminating the need for a second, very sizeable and costly plant that 
the Department of Energy's (DOE's) prior plan had envisioned. In 
addition, since this project first got underway in the late 1990's, 
major advancements in technology have been recognized that will improve 
WTP performance. These advancements include: development of an ion 
exchange material to more effectively and less expensively remove 
radioactive cesium from tank waste liquids; improvement of throughput 
capacities for the furnaces used to vitrify the radioactive waste; and 
enhanced blending ability of pumps to maintain a consistent waste mix. 
We anticipate that benefits from these improvements will avoid the 
necessity of building a second plant for high-level waste, improve 
turnaround time, reduce personnel exposure, reduce performance risk and 
operating cost, and reduce the total number of canisters produced, 
thereby decreasing the volume of material ultimately sent to a 
repository for permanent disposal.
    On June 23, 2005, the Secretary of Energy made key decisions to 
address the WTP project scope, cost, schedule, contract, and management 
issues. The management actions included direction to: (1) conduct an 
After Action Review to assess the causes of the project cost, schedule, 
scope and project management issues, (2) assemble a new DOE 
Headquarters senior level management team, (3) submit the 
qualifications for a Federal Project Director to the DOE Project 
Management Certification Board, (4) provide weekly progress reports to 
the Principal Deputy Assistant Secretary for Environmental Management, 
(5) conduct quarterly progress reviews with the Secretary, and (6) 
develop an execution plan and master schedule for all of the major 
activities associated with the path forward for the project.
    The Secretary indicated to Bechtel Corporation that it must 
demonstrate its commitment and project management capabilities to this 
critical project by accomplishing the following:
  --Address the current technical issues, increasing the confidence in 
        design, contain costs, and develop a viable schedule.
  --Obtain the ``best and brightest'' from other major firms to 
        critically assess the current technical approach, evaluate 
        risks, review the cost/schedule, and develop recommendations to 
        promptly and dramatically improve project performance.
  --Provide the ``best and brightest'' site project management team 
        (executives, engineers and technicians) for the duration of the 
        project.
  --Develop and submit to DOE a complete and credible Estimate-At-
        Completion.
    Based on the actions directed by the Secretary of Energy and the 
reviews implemented by independent industry experts, there is now a 
strong project management framework in place, a clear understanding of 
the technical issues surrounding the project, and a path forward for 
establishing a credible project cost and schedule baseline.
    Question. What guarantee can you provide that Federal managers will 
do their job to control costs and demand the best from their 
contractors?
    Answer. To improve project oversight the Department of Energy (DOE) 
has implemented the following key actions: establishment of a DOE 
Headquarters senior level oversight team, which is engaged in all 
aspects of the Waste Treatment and Immobilization Plant (WTP) project; 
recruitment by DOE of experienced personnel proficient in contracting, 
procurement, contract law, and project management; Federal 
certification of the WTP Project Director who is directed to strictly 
comply with the requirements of DOE Order 413.3, Program and Project 
Management for the Acquisition of Capital Assets; the requirement that 
the WTP contractor implement an Earned Value Management System, a 
proven, industry-standard performance monitoring tool, that fully 
complies with American National Standards Institute (ANSI) 748-A-1998; 
a structured weekly and monthly reporting system, plus a Quarterly 
Performance review conducted by the Assistant Secretary for 
Environmental Management; and delivery of regular project status 
updates to senior DOE management.
    The DOE continues to proactively upgrade its project management 
capabilities at the WTP and strengthen the framework needed to ensure 
effective planning and long-term execution in all areas of this large, 
complex environmental remediation project.
    Question. Do you believe you have the proper contract in place and 
what incentives are included in the contract to encourage cost 
reduction?
    Answer. Yes, I believe the Department of Energy (DOE) has the 
proper contract in place at the Waste Treatment and Immobilization 
Plant. DOE has initiated actions to increase and strengthen Federal 
oversight of this contract. These actions include putting in place a 
coordinated and aggressive infrastructure of reviews and validations of 
project costs, schedules, technical design, seismic criteria, overall 
project management and controls. In parallel, DOE is considering 
various changes to the incentives structure for an impending contract 
modification to challenge the contractor to deliver a quality plant 
that meets the mission need and schedule expectations while achieving 
cost effectiveness. We hope to complete the contract modification early 
in fiscal year 2007.
    Question. What impact have the recommendations by Defense Nuclear 
Facility Safety Board had on the cost estimate and cost schedule?
    Answer. The Defense Nuclear Facilities Safety Board (DNFSB) has 
been actively involved in reviewing the adequacy of the seismic 
criteria used in the design of the Waste Treatment and Immobilization 
Plant (WTP). Based on all the reviews, DOE estimates that the impact of 
revising the seismic criteria, including the associated verification 
activities, for the WTP has resulted in an estimated overall project 
cost increase in the range of 10-15 percent with a resulting increase 
of approximately 20 percent to the overall project completion schedule.
    DOE has engaged the U.S. Army Corps of Engineers (USACE) to perform 
an independent expert review of the Estimate-At-Completion (EAC) and to 
validate the EAC. This review includes an evaluation of those costs 
attributable to the inclusion of revised seismic criteria. The USACE's 
report is scheduled to be completed by late summer 2006.

                        LOS ALAMOS NATIONAL LAB

    Question. The budget reduces soil and water cleanup activities at 
Los Alamos National Lab by $70 million. It has been 2 years since the 
Department negotiated and signed the 2005 Consent Order with the State 
of New Mexico on a cleanup strategy to fully remediate the site by 
2015.
    The budget justification claims that the Department has yet to 
complete its validation of the site baseline in cost estimate. I find 
it remarkable that the Department, which has been onsite for more than 
five decades, doesn't have an accurate picture of the cleanup 
responsibilities or cost estimate.
    The Consent Order requires that the LANL site be cleaned up by 
2015. How will a $70 million reduction in soil and water remediation 
activities impact this cleanup date?
    Answer. The Department of Energy (DOE) has had significant 
performance issues for several years with the previous contractor's 
environmental work at the Los Alamos National Laboratory (LANL). 
Additionally, LANL has not yet been able to provide an integrated cost 
and schedule baseline that DOE is able to validate.
    Senior officials within DOE have asked for the involvement of 
senior executives of the parent companies of the new contractor in 
delivering efficiencies and a cost and schedule baseline able to 
withstand scrutiny and that can be validated by DOE. To that end, we 
believe that the new contract will address these performance issues, 
offer new opportunities to continue significant cleanup and risk 
reduction, and enable progress towards a new baseline. We assure you 
that we remain committed to the Los Alamos Compliance Order on Consent 
(March 2005) with the State of New Mexico and its environmental 
milestones.
    Question. What specific cleanup activities will the Department 
forego as a result of the $70 million cut?
    Answer. The Department of Energy is continuing a broad base of 
remediation activities. We are evaluating soil and water remediation 
activities including characterization, protection of groundwater 
resources, and remediation for opportunities for better performance 
under the new contract. We believe that the new contract will address 
past performance issues, offer us new opportunities to continue 
significant cleanup and risk reduction, and deliver progress towards a 
new baseline. Until we have a cost and schedule baseline from the new 
contractor that is independently validated we are not able to determine 
what work, if any, will not be accomplished. However, we remain 
committed to the Los Alamos Compliance Order on Consent.
    Question. What expectations does the Department have for the new 
contractor, Los Alamos National Security LLC, to find cost savings to 
offset the funding reduction in soil and water remediation?
    Answer. Senior officials within the Department of Energy (DOE) have 
asked for the involvement of senior executives of the parent companies 
of the new contractor in delivering efficiencies and a cost and 
schedule baseline that is able to withstand scrutiny and that can be 
validated by the DOE. To that end, we believe that the new contract 
will address the Los Alamos National Laboratory's (LANL) performance 
issues, offer new opportunities to continue significant cleanup and 
risk reduction, and deliver progress toward a new baseline. We remain 
committed to the Los Alamos Compliance Order on Consent.

            CONSOLIDATION OF NUCLEAR MATERIAL IN THE COMPLEX

    Question. The Secretary has wisely assembled a team to consider 
various options to reduce the amount of special nuclear material in the 
complex that must receive high level security.
    By locating unnecessary nuclear material in a central secure area, 
it can reduce the security costs dramatically. By permanently disposing 
of this material we can eliminate security costs entirely.
    I understand that Charlie Anderson with Environmental Management 
has been chosen to lead this team of DOE and NNSA officials.
    What is the status of this evaluation and when will the Department 
propose a waste consolidation and disposal plan to Congress for its 
consideration?
    Answer. We currently expect that the strategic plan will be 
completed within a year.
    Question. What are the greatest challenges the Department is facing 
in consolidating this material?
    Answer. The greatest challenge facing the Department of Energy 
regarding the consolidation of special nuclear materials is to ensure 
that our departmental consolidation efforts are consistent with 
individual program needs while maximizing security and cost savings and 
minimizing the number of consolidation moves.
    Consolidation of nuclear materials also requires, among other 
things, adequate storage space and availability at the receiving site, 
compliance with applicable laws, appropriate National Environmental 
Policy Act analyses, and sufficient transportation resources. Community 
support is also critical, particularly in the State and around the site 
where the materials would be received.
    Question. Are their any legislative or regulatory impediments that 
currently prevent the Department from moving forward?
    Answer. Although there may be legislative or regulatory 
requirements that would need to be met before the Department of Energy 
may move forward with its consolidation activities, none of these 
ultimately would prevent us from moving forward when met. For example, 
there may be National Environmental Policy Act requirements to be met 
for some activities. Other requirements may also apply, for example, in 
the case of the shipment of surplus weapons-usable plutonium to the 
Savannah River Site previously destined for the now-cancelled Plutonium 
and Immobilization Plant, there are requirements under section 3155 of 
the National Defense Authorization Act for Fiscal Year 2002 (Public Law 
107-107) for the submission of a plan to Congress identifying a 
disposition path for such plutonium prior to shipment.

               RECLASSIFYING WASTE AT HANFORD, WASHINGTON

    Question. Mr. Garman, the Congress reclassified certain waste as 
being ``incidental to reprocessing'' and as a result, this would allow 
the Department to leave a small amount of material in the tanks that 
would be filled with grout to permanently immobilize any remaining 
waste. This is the standard being applied to cleanup at Idaho and 
Savannah River. I am told that applying this same authority to the 
Hanford tank farm has the potential to save $10 to $15 billion.
    If this authority was extended to Hanford, can you estimate what 
the budgetary impact would be for this project? How much time could be 
saved?
    Answer. The Department of Energy (DOE) committed during the debate 
on section 3116 of the National Defense Authorization bill that we 
would not work unilaterally to add another State to the 
reclassification authorization. That being said, DOE has not completed 
an analysis to determine how much time or money could be saved should 
this authority be extended to Washington State.
    Question. Does the Department believe this standard should be 
applied to the Hanford tank farm cleanup?
    Answer. The Department of Energy (DOE) has discussed with State of 
Washington officials on several occasions the benefits it perceives 
that application of section 3116 would offer to the citizens of the 
State of Washington. These benefits include a provision for the U.S. 
Nuclear Regulatory Commission's consultation and monitoring, and the 
certainty concerning the process to be used in making determinations. 
However, the DOE committed during the debate on section 3116 of the 
National Defense Authorization bill that we would not work unilaterally 
to add another State to the reclassification authorization. That being 
said, DOE has not completed an analysis to determine how much time or 
money could be saved should this authority be extended to the State of 
Washington.

                WASTE TREATMENT PLAN SEISMIC REGULATION

    Question. It seems odd to me that the Department didn't have a 
clear picture of the seismic risk before they turned the first spade of 
dirt at the Waste Treatment Plant.
    Why is the Department only now coming to terms with the changes in 
seismic standards?
    Answer. The initial seismic design for the Hanford Waste Treatment 
and Immobilization Plant (WTP) was based on an extensive probabilistic 
seismic hazard analysis conducted in 1996 by Geomatrix Consultants, 
Inc. In 1999, the Department of Energy (DOE) approved this design basis 
following reviews by British Nuclear Fuels, Inc., and seismologists 
from the U.S. Army Corps of Engineers and the Lawrence Livermore 
National Laboratory.
    DOE used the best information available starting in 1997 regarding 
the seismic hazard, namely the 1996 DOE Probabilistic Seismic Hazard 
Analysis. However, seismic information has continually evolved as 
seismic prediction methodologies have improved. This scientific 
progress led to the 2004 increases in seismic ground motion that 
provided a greater allowance for unknown soil and rock properties 
underneath the WTP site than were considered necessary in 1996. No new 
information regarding the likelihood of earthquakes or their strength 
contributed to this change. Rather, the change was due to the 
possibility that soil and rock underneath the WTP might attenuate 
earthquake movement less than was assumed in the 1996 work.
    Question. Can you quantify the cost increases attributed to the 
change in seismic standards raised by the Defense Nuclear Facilities 
Safety Board?
    Answer. Based on all the reviews, the Department of Energy (DOE) 
estimates that the impact of revising the seismic criteria, including 
the associated verification activities, for the Waste Treatment and 
Immobilization Plant has resulted in an estimated overall project cost 
in the range of 10-15 percent of the Estimate-At-Completion (EAC) with 
a resulting increase of approximately 20 percent to the overall project 
completion schedule.
    The DOE has engaged the U.S. Army Corps of Engineers (USACE) to 
perform an independent expert review of the EAC and to validate the 
EAC. This review includes an evaluation of those costs attributable to 
the inclusion of revised seismic criteria. The USACE's report is 
scheduled to be completed by late summer 2006.
    Question. What other facilities in Washington might be designed to 
the same seismic standard as the Waste Treatment Plant?
    Answer. Presently, there are no planned facilities in the State of 
Washington, including Department of Energy (DOE) facilities that are 
designed to the current DOE seismic standards. These standards would 
only apply to new nuclear facilities having the potential for 
significant onsite consequences.

                SAVANNAH RIVER SITE--SEISMIC REGULATIONS

    Question. I understand that new seismic standards have forced the 
Department to reevaluate the design standard of the Salt Waste 
Processing Facility at Savannah River Site. This halt in progress will 
increase project costs and delay the start of this project by 2 years.
    Why did this happen?
    Answer. The Department of Energy (DOE) has established design and 
performance standards associated with Natural Phenomena Hazards 
(including seismic) in DOE Guide 420.1-2, Guide for the Mitigation of 
Natural Phenomena Hazards for DOE Nuclear Facilities and Non-Nuclear 
Facilities, and DOE Standard 1021-93, Natural Phenomenon Hazards 
Performance Categorization Guidelines for Structures, Systems and 
Components, that are tailored to the hazards associated with our 
nuclear facilities. Performance Category 3 (PC-3), representing the 
most stringent earthquake design requirements, is invoked where the 
highest hazards exist in these types of facilities.
    In accordance with the DOE Directives, early in the design of 
facilities, the performance categorization is determined and the 
analysis is refined as the safety documentation matures. The Salt Waste 
Processing Facility (SWPF) preliminary safety analysis and the original 
facility design were based on a lower performance category 
determination. However, while addressing issues raised by the Defense 
Nuclear Facilities Safety Board the Department determined that the PC-3 
design requirements would provide greater assurance that confinement of 
radioactive materials was adequate given the range of hazards.

                 ACCELERATED CLEANUP--CHANGE IN COURSE

    Question. Last month Secretary Bodman testified that he would not 
be bound by the commitments by his predecessors regarding funding for 
Environmental Cleanup. By and large, the funding profile contained in 
the DOE's 5-year funding plan shows a decline in funding for most of 
the cleanup activities.
    Are we to assume that the Department will reduce funding for 
environmental cleanup activities, and if so, where and to what end?
    Answer. As part of the administration's Accelerated Cleanup 
Initiative, beginning in fiscal year 2003, increased funding was 
provided to accelerate cleanup and address urgent risks sooner than had 
been planned. Fiscal year 2005 was the peak year of funding for this 
initiative. We remain committed to completing the Environmental 
Management (EM) mission in a manner that protects the environment and 
public, and is safe for workers, while being fiscally responsible. The 
Department of Energy will continue to focus on risk reduction and 
cleanup completion while maintaining balance with other Departmental 
and national priorities.
    Question. How will out-year funding reductions impact the schedule 
for the cleanup at all of the cleanup sites?
    Answer. The funding levels that had been developed in the 5-Year 
Plan to support the accelerated site closure strategy were based, in 
part, on overly optimistic assumptions. The Department of Energy (DOE) 
is currently updating these assumptions to reflect changes that have 
taken place in regulatory and statutory requirements, to incorporate 
lessons learned based on actual program performance, and to incorporate 
technological and acquisition strategies that have matured, with the 
goal of meeting the DOE's long-term environmental commitments. When 
these assumptions are fully updated, we will be in a position to assess 
potential impacts.

                     WERC/DOE COOPERATIVE AGREEMENT

    Question. The Department has failed to live up to its commitment to 
provide funding under the cooperative agreement with WERC. Why is this?
    Answer. As directed by the Conference Report (109-275) accompanying 
the fiscal year 2006 Energy and Water Development Appropriations Act 
(Public Law 109-103), the Department of Energy provided the American 
Water Works and the Waste Education Research Consortium (WERC) with 
$7,000,000 for advanced concept desalination and arsenic treatment 
research. WERC received $749,790 of these funds. WERC will also receive 
the prior year uncosted carryover of $5,500,000.

                         CLEANUP DELAYS AT K-25

    Question. I understand the completion date for the ETTP have been 
delayed from fiscal year 2008 until mid-fiscal year 2009.
    Why is this and what impact will this have on the cost of the 
project?
    Answer. The current contract calls for physical completion of the 
East Tennessee Technology Park by September 30, 2008. The Department of 
Energy is currently reviewing performance against the baseline for this 
project to determine the cost and schedule impacts associated with 
numerous factors including, but not limited to, the complexity of the 
work, safety concerns, unexpected issues, and increased cleanup 
requirements.
    Question. Do you need additional funding in fiscal year 2007?
    Answer. No additional funding in fiscal year 2007 is needed. The 
Department of Energy is currently reviewing the baseline for this 
project to determine the cost and schedule impacts, which would provide 
the basis for any future budget requests.

             GAO REPORT ON TOTAL ENVIRONMENTAL LIABILITIES

    Question. The GAO reported that the Department's total estimated 
cleanup responsibilities could exceed the $180 billion, by as much as 
$25 billion.
    GAO found that cost significant increase can be attributed to 
delays in opening up Yucca Mountain and the Department's ability to 
dispose of high level waste.
    Do you agree with the assessment by GAO? Please explain.
    Answer. Several assumptions made as part of the Department of 
Energy's (DOE) Accelerated Cleanup initiative were overly optimistic 
and have not materialized. In addition, we have identified legacy 
cleanup requirements at several sites that have not been included in 
prior Office of Environmental Management (EM) work scope, and some key 
projects have experienced performance issues. As a result, the life-
cycle cost of the cleanup program could increase by $25 billion, as 
indicated in the Government Accountability Office's report. DOE has 
established and implemented a more stringent, highly monitored project 
management program that is making every effort to identify and address 
unexpected developments in project design, construction, schedule and 
scope as they emerge.
    In addition, the $180 billion estimate included approximately $15 
billion for high-level waste and spent nuclear fuel disposal at the 
Yucca Mountain geological repository which was planned to begin 
receiving shipments from EM in 2010. The DOE estimates that a 5-year 
delay in opening the Yucca Mountain geological repository could 
potentially increase costs by as much $1 billion to EM's total cost for 
managing waste. The actual amount of this increase would depend on a 
number of factors, including when EM completes the cleanup of various 
sites and had the waste at those sites ready for shipment, the need to 
build additional storage buildings, and added operating costs.

                         YUCCA MOUNTAIN FUNDING

    Question. The 5-year funding profile provided to Congress shows 
essentially flat funding for this program over this period. In years 
past, the out-year funding levels were shown to sharply increase during 
the time period of license application, work on-site preparation, and 
rail route preparation activities--ordering the steel for the rails 
alone will be a very costly venture.
    Will that level of funding be sufficient to defend a license 
application and undertake other activities necessary to prepare for 
construction and operation of the repository?
    Answer. The 5-Year Plan DOE submitted to Congress contains two 
scenarios. The scenario using a formula-based approach for out-years in 
the fiscal year 2007 budget would not allow the Yucca Mountain program 
to accelerate pre-licensing construction activities. The above-target 
scenario moves the program forward as quickly as possible.
    While there is a flat funding case as you described, the Office of 
Civilian Radioactive Waste Management also developed ``above target'' 
estimates of $661 million in fiscal year 2008, $963 million in fiscal 
year 2009, $1.07 billion in fiscal year 2010, and $975 million in 
fiscal year 2011. The above-target scenario is more consistent with 
planned construction activities needed to timely develop the 
repository. The administration is committed to developing Yucca 
Mountain as a geologic repository. We have made no policy decisions on 
out-year funding for Yucca Mountain, but I can assure you we will 
continue to support expeditious development of the repository.
    Question. If not, do you expect that the out-year budgets will need 
to be adjusted once a new program schedule is established?
    Answer. The amounts in the 5-Year Plan for the out-year budget 
reflect steady progress toward the receipt of a construction 
authorization for a repository at Yucca Mountain in the near term. 
However, in order to reach the goal of an operating geologic repository 
at Yucca Mountain in a timely manner, significant budget increases for 
the program will be required for construction and operations of both 
the repository and the rail line in Nevada. The administration has 
supported legislation calling for funding reform for the program in the 
form of reclassifying mandatory Nuclear Waste Fund receipts as 
discretionary offsetting collections, in an amount equal to 
appropriations from the Fund for authorized waste disposal activities. 
This will address a technical budgetary problem that has acted as a 
disincentive to adequate funding.
    The Department's legislative proposal, the ``Nuclear Fuel 
Management and Disposal Act'' was submitted to Congress after the date 
of this hearing on April 6, 2006, and contains a provision to implement 
this funding reform.

                      YUCCA MOUNTAIN REQUIREMENTS

    Question. Administration witnesses have consistently testified that 
it is important to move forward with the Yucca Mountain project 
regardless of the outcome of the Global Nuclear Energy Partnership 
(GNEP). One of the reasons relates to defense waste.
    How much defense waste is currently planned for permanent 
disposition at Yucca Mountain?
    Answer. The Department currently has approximately 2,500 metric 
tons of defense spent fuel and 10,500 metric tons of defense high-level 
radioactive waste. Because of the 70,000 metric tons statutory limit, 
the Department currently plans to dispose of only 7,000 metric tons of 
defense spent fuel and high-level radioactive waste at Yucca Mountain.
    Question. Under the current schedule when will this waste be ready 
for shipment to Yucca?
    Answer. Each Department of Energy site that manages spent fuel or 
high-level waste destined for disposal in the repository will need to 
place the waste into disposable canisters and load them into NRC 
certified casks. For most sites, this has not yet occurred. These 
canisters are designed to be transported in NRC certified casks to the 
repository and be disposed in waste packages at Yucca Mountain. 
Currently, Savannah River has waste that has been vitrified; Hanford 
and Idaho have not yet vitrified their waste. Readiness to ship spent 
nuclear fuel and high-level waste from each site is dependent on site 
plans and schedules for high-level waste treatment, spent nuclear fuel 
disposition and packaging activities, and the construction of cask 
loading facilities. Current plans developed by the Office of 
Environmental Management for each site are summarized in the table 
below.

------------------------------------------------------------------------
                                              Date of         Date of
                                           Capability to   Capability to
                  SITE                       Ship HLW        Ship SNF
                                             Canisters       Canisters
------------------------------------------------------------------------
Savannah River..........................            2012            2015
Hanford Site............................            2020            2018
Idaho National Lab......................            2022            2015
------------------------------------------------------------------------

    Question. If Yucca were not available how would this waste be 
handled?
    Answer. If a repository were not built, the waste would continue to 
be stored at the current sites.

                     YUCCA MOUNTAIN PROGRAM STATUS

    Question. In the past year, a decision was made to redirect the 
approach taken to fuel handling at the repository to a ``clean'' 
approach utilizing a single canister for transportation, aging and 
disposal (TAD) package.
    Please explain this new approach and its rationale.
    Answer. We believe that the clean-canistered approach to receiving 
commercial spent fuel will allow us to greatly simplify the licensing, 
construction, and operation of the facilities at Yucca Mountain. With a 
clean-canistered approach personnel will be handling primarily 
canistered waste, not individual fuel assemblies as previously planned. 
These canisters will provide another contamination barrier between the 
worker and the waste. For example, when routine maintenance is required 
in the canistered operating facilities, workers will not have to deal 
with radiological contamination as they would with individual fuel 
assembly handling operations.
    The canistered approach will simplify the licensing and 
construction of the repository, while easing complexities of Yucca 
Mountain's post-construction operations. The new approach envisions 
spent fuel being delivered to Yucca Mountain primarily in transport, 
aging, and disposal (TAD) canisters which are then placed in a waste 
package for emplacement. Handling of bare fuel will be limited and will 
be accommodated by much smaller facilities. Switching to a primarily 
clean facility plan will improve safety and operations and dramatically 
improve the overall performance of Yucca Mountain operations.
    Question. What impact has this redirection had on preparing the 
license application?
    Answer. To incorporate the new clean-canistered approach, we have 
reviewed the existing designs for the repository surface facilities, 
and have initiated efforts to redesign these facilities to incorporate 
the benefits that result from the clean-canistered approach. We believe 
that the redesigned surface facilities will be smaller, less costly, 
and simpler to design, license, construct and operate. As a result, the 
Department believes any additional time spent incorporating the clean-
canistered approach will be offset by reductions in the time required 
to license and construct the repository facilities.
    Question. Have you analyzed the impact that this redirection could 
have on the timing and cost of license review, program construction and 
operations?
    Answer. As part of the critical decision process in the Department, 
the program is required to provide a revised cost and schedule for the 
program that incorporates the canister approach. That process is 
expected to be completed and the revised cost and schedule provided to 
the Secretary this summer.

                    INTERIM STORAGE AND REPROCESSING

    Question. The Energy and Water Conference report for fiscal year 
2006 provided the Department with funding to support the siting 
selection process of interim storage and reprocessing facilities. 
Communities would be provided $5 million to support a site development 
plan and licensing strategy.
    What is the status of this program? When will the Department 
provide the funding support to these communities, and under what terms?
    Answer. DOE issued a request for Expressions of Interest (EOI) in 
the Federal Register on March 17, 2006, announcing its intention to 
initiate a competition to conduct site evaluations to aid in selecting 
one or more sites suitable for development of integrated recycling 
facilities. The EOI sought information to assist in the preparation of 
a solicitation for proposals to prepare site evaluation reports. A 
total of 43 responses were received to the EOI.
    The solicitation, planned for spring 2006, will be open to domestic 
sources, public and private, and will encourage teaming and community 
involvement. Proposals will be evaluated for 90 days, followed by the 
selection of those proposals for which funding will be provided to 
prepare a site evaluation report. Each of the resulting site evaluation 
reports will be reviewed for potential inclusion as an alternative in 
the EIS analysis for the GNEP Technology Demonstration Program (TDP). 
DOE currently intends to solicit proposals only for non-DOE sites, 
given that information relating to the identification of DOE sites for 
potential inclusion as alternatives in the GNEP-TDP EIS is already 
available to the Department. The potential sites will be evaluated, in 
connection with the EIS process, and DOE currently anticipates that it 
will make site location decisions in the summer 2008 following 
completion of the EIS.
    To evaluate the potential environmental impacts at candidate sites 
for the demonstration facilities, DOE has taken steps to initiate the 
preparation of an EIS for the GNEP-TDP. This process began with a March 
22, 2006 Advance Notice of Intent (ANOI) which requested comments from 
interested parties on the scope of the EIS, reasonable alternatives, 
and other relevant information. Comments received will be used to 
develop the Notice of Intent (NOI) and to assist DOE in completing the 
EIS. The Draft EIS is scheduled to be completed by late spring, 2007 
and the Final EIS by late spring, 2008. A Record of Decision (ROD) is 
expected to be issued in summer 2008.

                  YUCCA MOUNTAIN--LICENSE APPLICATION

    Question. Secretary Bodman testified that the Department 
anticipates providing a new schedule for license application and 
repository operations by early summer. The budget justification 
materials indicate that among the tasks to be accomplished in fiscal 
year 2007 is defending a license application to the NRC.
    Does the budget request assume that a license application will 
occur in fiscal year 2007, and if not, would the request need to be 
adjusted?
    Answer. No. The fiscal year 2007 budget request does not assume the 
license application will be submitted in fiscal year 2007 and 
accordingly does not need to be adjusted. The license defense 
activities in fiscal year 2007 relate to preparation of the license 
application, and include identifying and preparing information in an 
acceptable format to submit to the Nuclear Regulatory Commission (NRC) 
electronic hearing docket, which is an electronic information system 
that will receive, distribute, store and retrieve docket materials for 
licensing and proceedings. It also includes identification of expert 
witnesses and preparation of information that may be needed to respond 
to contentions raised by other parties to the licensing proceedings. 
Prior to submitting the license application, the Department plans to 
have in place procedures and processes to respond to NRC's requests for 
additional information once the license application is submitted. 
Recognizing that the NRC staff is only planning an 18-month review 
period prior to the hearings, the Department needs to be able to 
respond to Requests for Additional Information rapidly and 
comprehensively. A thorough legal and regulatory review process, 
combined with timely interactions with the NRC during the pre-
application period, will help the program develop a license application 
that the NRC can docket, review and adjudicate in the 3-year period 
required by the Nuclear Waste Policy Act.
    Question. What is the Department's current estimate for the cost of 
the rail line to Yucca Mountain?
    Answer. The current estimate is approximately $2 billion for the 
life cycle cost of the rail line to Yucca Mountain. The estimate is 
specific to the Caliente rail corridor and includes the cost of 
facilities related to rail operations. These facilities include sidings 
and basic maintenance capability where the Nevada rail line connects to 
existing mainline track, maintenance-of-way facilities along the track 
and an end-of-line facility proximate to the repository. The Department 
believes the cost of constructing rail access to the repository along 
the Caliente corridor is still viable based on these considerations, 
but is reviewing its ability to reduce the costs.

                  YUCCA MOUNTAIN REPOSITORY OPERATIONS

    Question. Some degree of aging of fuel at the site before 
emplacement in the repository has always been assumed.
    What is your current thinking on fuel aging at Yucca and how might 
it be accomplished?
    Answer. Currently, our plans for spent fuel aging at Yucca Mountain 
include several large above-ground aging pads. With the program's 
change to the clean-canistered approach for transport, aging and 
disposal (TAD) of spent fuel, it is expected that TAD-based storage 
systems will be used for most of the required spent fuel aging. We 
currently expect the license application will provide for aging 
capacity in the range of 20,000 to 40,000 metric tons.
    Question. Could the duration of fuel aging be influenced by 
developments with GNEP?
    Answer. Repository designs have consistently included aging 
capability needed to allow the spent fuel received from the utility 
sites to cool until it is suitable for permanent underground disposal. 
These aging facilities are an integral part of our disposal operations. 
Although Global Nuclear Energy Partnership (GNEP) offers the promise of 
development of recycling technologies over the next several decades, 
there are no current plans to store existing spent fuel inventories for 
possible recycling in the future. If commercial GNEP technologies are 
proven feasible and eventually developed, repository operations may 
need to be adjusted, as appropriate, to incorporate the benefits for 
future inventories of spent fuel that GNEP processing might provide.

                        YUCCA MOUNTAIN CAPACITY

    Question. Yucca Mountain currently has a legislated capacity limit 
of 70,000 metric tons as set forth by the Nuclear Waste Policy Act.
    Based on technical factors alone, what is the physical capacity of 
Yucca to accommodate spent fuel?
    Answer. The environmental impact statement for the Yucca Mountain 
repository in its cumulative impacts section evaluated the disposal of 
approximately 120,000 metric tons of spent nuclear fuel and high-level 
waste. However, the actual physical capacity of Yucca Mountain is 
exceeds that amount. The Department believes the physical capacity of 
Yucca Mountain is at least adequate to dispose of the commercial and 
DOE spent fuel and high-level waste that currently exists, and could 
provide for the disposal of all the spent nuclear fuel from the 
existing suite of nuclear plants with life extensions.
                                 ______
                                 
              Questions Submitted by Senator Thad Cochran

    Question. Mr. Chairman, I appreciate your holding this hearing to 
review budgets of the Department of Energy's Office of Science, Office 
of Nuclear Energy, Office of Fossil Energy, Office of Environmental 
Management as well as many other important accounts with the Department 
of Energy. I want to join you in thanking the witnesses for being here 
to provide testimony and answer questions.
    I am pleased that the Department is continuing to look for 
alternate and renewable sources of energy to correct the trend toward 
unnecessary reliance on foreign sources of oil and gas. My State 
continues to conduct research to develop cleaner and more efficient 
sources of energy. After Hurricane Katrina, fuel costs rose as much as 
$3 per gallon and finding diesel to transport necessities or to run the 
electrical generators used to cool poultry production facilities became 
a challenge. Our biodiesel suppliers provided this needed fuel which 
proved not only to be a cleaner fuel, but a fuel that is a substitute 
for foreign oil.
    Mr. Chairman, I look forward to working with you this year on these 
important accounts as well as the new American Competitiveness 
Initiative and the Advanced Energy Initiative.
    It is important to implement a regional approach to biomass 
research because of the diversity of sources in the United States. 
Biomass sources and techniques in Mississippi are much different than 
the biomass opportunities available in the Midwest.
    How do you perceive the Department's role in facilitating a 
regional approach to research and development?
    Answer. The Department has requested funding in fiscal year 2007 to 
implement the concept of regional feedstock development partnerships. 
We agree that the opportunities for biomass feedstocks development are 
best approached regionally, because differences in soils, rainfall, 
climate, agricultural land-use patterns, and established markets exist 
at a regional level. Partnerships are needed because of the complexity 
of feedstock issues that include basic and applied science to develop 
the feedstock resources, infrastructure feedstock needs for 
biorefineries including reliability, availability, and cost; and 
sustainability issues as they pertain to resource development. 
Partnership efforts will bring Federal funding together with the 
biofuels production industry with the grower community and university 
researchers to better define the actual resource on a regional and 
local basis.

                             LOAN GUARANTEE

    Question. One of the important loan guarantee programs authorized 
under the Energy Policy Act of 2005 would encourage the 
commercialization of projects which reduce air pollutants as well as 
employ improved technologies in many areas such as renewable energy 
systems, carbon capture, and advanced fossil energy technology. I 
understand that the Department has not asked for funding for the loan 
guarantee program or demonstration project authorized under Title 17.
    What is the Department's view of this program and why was funding 
not requested this year?
    Answer. The Department of Energy (DOE) is working to meet the 
Secretary's previously-stated goal of accepting the first preliminary 
applications for ``self-pay'' loan guarantees under Title XVII before 
the end of fiscal year 2006. We are proceeding, but we are doing so 
with no small measure of caution and prudence. The Department has 
established a small loan guarantee office under the Department's Chief 
Financial Officer. In implementing the program, we will follow the 
Federal Credit Reform Act of 1990 (FCRA) and Office of Management and 
Budget (OMB) guidelines, and we will emulate ``best practices'' of 
other Federal agencies. Toward that end, we are drafting program 
policies and procedures, establishing a credit review board, and are 
planning to employ outside experts.
    Title XVII authorizes DOE to issue loan guarantees for projects 
that avoid, sequester, or reduce air pollutants and/or anthropogenic 
emissions of greenhouse gases, and ``employ new or significantly 
improved technologies as compared to commercial technologies in service 
in the United States at the time the guarantee is issued.'' Section 
1703(b) lists some specific categories of projects that are eligible 
for these loan guarantees. Title XVII allows for project developers to 
pay the subsidy cost of loan guarantees issued by DOE. While this 
``self-pay'' mechanism may reduce the need for appropriations, it is 
possible that the ultimate cost to the taxpayer could be significantly 
higher than the cost of the subsidy cost estimate. To minimize this 
possibility, DOE's evaluations of applications will entail rigorous 
analysis and careful negotiation of terms and conditions.
    FCRA contains a requirement that prevents us from issuing a loan 
guarantee until we have authorization to do so in an appropriations 
bill. We do not believe we have authority to proceed with an award 
absent having the necessary explicit authorization in an appropriations 
bill.
    Question. What type of interest from researchers and the public has 
the Department received regarding this newly authorized program?
    Answer. The loan guarantee provisions in the Energy Policy Act of 
2005 are generating a great deal of interest. The Department regularly 
receives questions about every aspect of the loan guarantee program 
from prospective project sponsors and other constituencies. The topics 
of these questions range from the application and transaction closing 
processes to the criteria for eligible projects.
    Question. Has the Department received applications, from whom, and 
for what projects? If not, when will the DOE be accepting applications 
for ``self-pay'' loan guarantees, and how long does DOE anticipate it 
will take to process an application?
    Answer. Although the Department has received many inquiries about 
loan guarantees, DOE has not received any applications for loan 
guarantees.
    The Department of Energy (DOE) is working to meet the Secretary's 
previously stated goal of accepting the first preliminary applications 
for ``self-pay'' loan guarantees under Title XVII before the end of 
fiscal year 2006. We are proceeding, but we are doing so with no small 
measure of caution and prudence. The Department has established a small 
loan guarantee office under the Department's Chief Financial Officer. 
In implementing the program, we will follow the Federal Credit Reform 
Act of 1990 (FCRA) and Office of Management and Budget (OMB) 
guidelines, and we will emulate ``best practices'' of other Federal 
agencies. Toward that end, we are drafting program policies and 
procedures, establishing a credit review board, and are planning to 
employ outside experts.
    Title XVII authorizes DOE to issue loan guarantees for projects 
that avoid, sequester, or reduce air pollutants and/or anthropogenic 
emissions of greenhouse gases, and ``employ new or significantly 
improved technologies as compared to commercial technologies in service 
in the United States at the time the guarantee is issued.'' Section 
1703(b) lists some specific categories of projects that are eligible 
for these loan guarantees. Title XVII allows for project developers to 
pay the subsidy cost of loan guarantees issued by DOE. While this 
``self-pay'' mechanism may reduce the need for appropriations, it is 
possible that the ultimate cost to the taxpayer could be significantly 
higher than the cost of the subsidy cost estimate. To minimize this 
possibility, DOE's evaluations of applications will entail rigorous 
analysis and careful negotiation of terms and conditions.
    FCRA contains a requirement that prevents us from issuing a loan 
guarantee until we have authorization to do so in an appropriations 
bill. We do not believe we have authority to proceed with an award 
absent having the necessary explicit authorization in an appropriations 
bill.
    Question. In working with Fischer-Tropsch technologies, does the 
Department have suggestions on how to provide government assistance to 
those companies who are interested in commercializing this technology?
    Answer. The Department of Energy (DOE) completed its successful 
RD&D program on coal-to-liquids including related Fischer-Tropsch (FT) 
technologies several years ago. The Energy Policy Act of 2005 (EPAct 
2005) authorizes new DOE and other assistance (e.g., investment tax 
credits) to early commercial projects that employ FT technologies, 
including loan guarantees under Title XVII.
    The Department is working to meet the Secretary's previously-stated 
goal of accepting the first preliminary applications for ``self-pay'' 
loan guarantees under Title XVII before the end of fiscal year 2006. We 
are proceeding, but we are doing so with no small measure of caution 
and prudence. The Department has established a small loan guarantee 
office under the Department's Chief Financial Officer. In implementing 
the program, we will follow the Federal Credit Reform Act of 1990 
(FCRA) and Office of Management and Budget (OMB) guidelines, and we 
will emulate ``best practices'' of other Federal agencies. Toward that 
end, we are drafting program policies and procedures, establishing a 
credit review board, and are planning to employ outside experts.
    Title XVII authorizes DOE to issue loan guarantees for projects 
that avoid, sequester, or reduce air pollutants and/or anthropogenic 
emissions of greenhouse gases, and ``employ new or significantly 
improved technologies as compared to commercial technologies in service 
in the United States at the time the guarantee is issued.'' Section 
1703(b) lists some specific categories of projects that are eligible 
for these loan guarantees. Title XVII allows for project developers to 
pay the subsidy cost of loan guarantees issued by DOE. While this 
``self-pay'' mechanism may reduce the need for appropriations, it is 
possible that the ultimate cost to the taxpayer could be significantly 
higher than the cost of the subsidy cost estimate. To minimize this 
possibility, DOE's evaluations of applications will entail rigorous 
analysis and careful negotiation of terms and conditions.
    FCRA contains a requirement that prevents us from issuing a loan 
guarantee until we have authorization to do so in an appropriations 
bill. We do not believe we have authority to proceed with an award 
absent having the necessary explicit authorization in an appropriations 
bill.

                            VEHICLE PROGRAMS

    Question. The fiscal year 2007 budget request for Energy Supply and 
Conservation Accounts supports development of a number of new energy 
technologies, including programs that fund basic and applied research, 
development, demonstration, and technical assistance. These efforts 
promote the deployment of new technologies needed to support both 
Hybrid Electric and Fuel Cell vehicle development under the FreedomCAR 
program. Lightweight materials, electronic power control, electric 
drive motors, and advanced energy storage devices are specifically 
identified in the fiscal year 2007 budget as areas where Federal R&D 
investment seeks to achieve technology breakthroughs.
    Is it fair to state that the United States has fallen behind its 
global competitors in the race to develop the next generation of Hybrid 
Electric Vehicles (HEV) to meet projected consumer demand? How far 
behind is the United States in developing next generation HEVs that 
will ensure our competitiveness in this market?
    Answer. No, we do not believe that the United States is lagging 
behind any country from a next-generation perspective. The fiscal year 
2007 presidential request reallocated vehicle funding program resources 
to increase focus on plug-in hybrid electric vehicle research. Our 
technological goals are ambitious, and progress to date is good. We 
have seen pre-competitive advances in the reduction in the cost of the 
next generation of batteries, as well as improvements in the cost and 
performance of other essential components of HEVs. Other indicators of 
progress include advances in the nickel metal hydride battery developed 
through DOE-sponsored R&D. Work is underway to develop the high energy 
batteries for plug-in HEVs, expected to keep the United States dominant 
in this key area.
    There is also a need to reduce the cost of HEV technology to 
increase consumer acceptance. A recent poll indicated that over 50 
percent of the American public desires HEVs, but believes they are too 
costly (based on a telephone poll of 1,001 adults conducted March 10-12 
and released April 10 by CNN/USA Today/Gallup). The FreedomCAR 2010 
technology targets aim to resolve the issue of cost barriers. This goal 
is shared by industry; for example, Toyota recently announced an effort 
to reduce their HEV component costs by two-thirds in the same time 
frame.
    Question. Electronic power control is one of the activities for 
which R&D investment has been targeted under the FreedomCAR program. 
Has the program identified and documented the technical approaches that 
have the most potential to provide radical improvements or 
``breakthroughs'' in electronic power control for next generation HEVs? 
If so, what are the potential breakthrough technologies?
    Answer. We have identified and documented the technical approaches 
for the next generation of hybrid electric vehicles (HEVs), and feel 
the potential breakthrough technologies for high-temperature operation 
include wide bandgap materials, advanced packaging, and high-
temperature capacitors. Silicon Carbide (SiC) is the only wide bandgap 
material currently available to produce useable power devices. Ongoing 
research and development efforts are focused on these technologies. In 
fiscal year 2007 we anticipate funding efforts to build an all SiC 
inverter and a high-temperature DC/DC converter. A new solicitation is 
also planned in fiscal year 2007 to seek other alternative, high-
temperature technologies.
    Question. Which of these potential breakthrough technologies in 
electronic power controls have the greatest potential to accelerate 
U.S. efforts to develop the next generation HEVs?
    Answer. The FreedomCAR and Fuel Partnership's Electrical and 
Electronics Technical Team has identified the cost, weight, and volume 
targets and reliability requirements to help make HEVs a cost-
competitive choice for consumers. Meeting these targets would require 
improvements over current technologies to reduce weight and volume by a 
factor of two and cost by a factor of four. Power electronics capable 
of operating at ambient temperatures of 200 C would likely require 
silicon carbide (SiC) devices, and high-temperature packaging to enable 
high-temperature operation. These technologies are the highest priority 
research need for the next generation HEVs. The fiscal year 2007 budget 
supports continued research to address these challenges.
    Question. Would the successful development of air-cooled vehicle-
class power electronics at a vastly accelerated pace provide the kind 
of ``breakthrough'' that would allow the United States to catch up with 
our global competitors? If so, what are the most promising and highest 
priority technologies for air-cooled vehicle-class power electronics to 
which additional investment should be targeted?
    Answer. Air-cooled power electronics offer the potential to meet 
the targets and requirements for size, weight, cost, volume, and 
reliability to make hybrid electric vehicles (HEVs) an economic choice 
for large numbers of consumers. Simply accelerating the pace of power 
electronics development is not the only technology breakthrough 
required to successfully market this technology. Automakers have yet to 
demonstrate air-cooled HEV technologies for high-power traction drives 
in consumer vehicles. Success in this area would allow an automobile 
manufacturer to leap-frog current HEV vehicles.
    The most promising and highest priority technologies in sequential 
order are air-cooled inverters, high-temperature DC/DC converters, and 
the functional integration of inverters and converters to allow sharing 
of components. The fiscal year 2007 budget request will fund research 
and development efforts to build an all-silicon carbide (SiC) inverter 
and a high-temperature converter. Research and development of the 
functional integration of a high-temperature inverter/converter is 
planned for fiscal year 2007.
    Question. Has Wide Bandgap Silicone Carbide technology been 
identified as a potential breakthrough technology for air-cooled 
vehicle-class power electronics? If so, what would its successful 
insertion into the air-cooled vehicle-class power electronics program 
mean for the United States in the global competition?
    Answer. Yes, wide bandgap technology, such as silicon carbide 
(SiC), is one of several enabling technologies required to achieve a 
breakthrough in air-cooled power electronics for hybrid electric 
vehicles (HEVs), plug-in hybrid vehicles, and fuel cell vehicles. 
Current HEV technologies exceed the weight and volume targets by a 
factor of two, and exceed the cost target by a factor of four. Success 
with SiC technology alone, however, will not guarantee successful 
development of cost effective air-cooled devices. An air-cooled 
inverter offers the potential to reduce the size and weight of an 
inverter by 75 percent when compared to the current HEV technology. It 
also offers the potential for the inverter to meet the FreedomCAR cost 
target, with greatly improved reliability.
    Question. What are your internal estimates of the potential, in 
terms of accelerating the schedule, if this technology were 
successfully demonstrated as an R&D breakthrough in the air-cooled 
vehicle-class power electronics? Would 3 to 5 years be a reasonable 
estimate? Does the current budget for ``electronic power control'' R&D 
provide sufficient funding to evaluate the potential breakthrough 
technologies, such as Wide Bandgap Silicone Carbide, that may provide 
the greatest potential for restoring U.S. leadership in the development 
of next generation HEVs?
    Answer. The current budget for power electronics research and 
development provides sufficient funding to evaluate, research, and 
develop the technologies necessary for the next generation of hybrid 
electric vehicles (HEVs), including those required for high-temperature 
operation such as silicon carbide (SiC). The potential to accelerate 
the schedule and produce technology solutions in a 3- to 5-year period 
exists due to the combined government and industry efforts to advance 
SiC and other high-temperature components and devices required for next 
generation HEVs. There is increasing interest among firms that produce 
and use SiC devices in power electronics, and it is highly likely that 
the development schedule could be accelerated by appropriate teaming of 
suppliers, national laboratories, universities, and U.S. automakers. 
The DOE FreedomCAR and Fuel Partnership solicitation planned for late 
fiscal year 2006 is intended to stimulate the formation of such teams.
    Question. Given the growing consumer acceptance for HEVs and the 
global competition in the HEV marketplace, has the FreedomCAR program 
assessed what it will mean to the United States, if we fail to regain 
our leadership in the critical R&D needed for the next generation of 
HEVs? Is there a concern that it will leave North American automotive 
manufacturing uncompetitive in price and technology?
    Answer. Achievement of the 2010 FreedomCAR goals and the program's 
subsequent R&D will help assure that our domestic industry partners can 
successfully compete in both the United States and the world markets. 
One central objective of our 2010 goals is reducing the cost of HEV 
components so that the vehicle manufacturing cost allows them to be 
offered at prices competitive with standard vehicles.
    Question. Please provide estimates of the additional Federal R&D 
investment that would be required to insert the highest priority 
potential breakthrough technologies for Advanced Power.
    Answer. The Department's fiscal year 2007 budget request provides 
adequate funding to support research and development of hybrid electric 
and fuel cell propulsion technologies under the FreedomCAR and Fuel 
Partnership Program. It has been appropriately apportioned to address 
the technology challenges associated with the development of next 
generation hybrid electric vehicles (HEVs) with wide consumer 
acceptance.
                                 ______
                                 
           Question Submitted by Senator Christopher S. Bond

    Question. Mr. Garman, in response to my question to you regarding 
the administration's cuts to the Clean Coal Power Initiative (CCPI), 
you indicated that the Department of Energy had $500 million in un-
obligated funds available. Where, specifically, in the Department of 
Energy are these un-obligated funds? What account? And, once 
identified, will the administration ask that these funds be re-
programmed to the CCPI and other commitments in the President's 
Advanced Coal Research Initiative?
    Answer. The un-obligated funds are in the CCPI and the original 
Clean Coal Technology Demonstration accounts and represent funds that 
have been formally committed to projects competitively selected under 
CCPI (and the predecessor programs, namely the Clean Coal Technology 
Demonstration and the Power Plant Improvement Initiative programs) that 
are either in negotiations for awards or projects that have been 
awarded but have not yet been completed. The structure of CCPI projects 
is such that some amount of un-obligated funds remains on projects 
until they enter their final budget phase. The Department is working to 
withdraw funds from projects in the CCPI and Clean Coal Technology 
accounts that are not going forward. The Department is also working to 
change CCPI contract provisions and other processes to strengthen its 
ability in the future to withdraw funds from stalled projects. If a 
project does not go forward and the Department withdraws funds, then 
the available funds will be put towards a future CCPI solicitation.
                                 ______
                                 
              Questions Submitted by Senator Wayne Allard

    Question. Last year Congress passed legislation, at my request that 
authorized the Secretary of Energy to purchase essential mineral rights 
at Rocky Flats. This authority was provided for 1 year. I understand 
that minimal progress has been made so far.
    What is the Department of Energy's plan for purchasing the 
essential mineral right at Rocky Flats? When do you expect this 
transaction to be completed?
    Answer. The Department of Energy (DOE), in partnership with the 
U.S. Fish and Wildlife Service (USFWS) and Natural Resources Trustees 
(Trustees), has established and is currently executing a plan for 
purchasing the essential mineral rights at Rocky Flats.
    The acquisition strategy for the mineral rights will be conducted 
in two phases. First, the Trust for Public Lands (TPL), a nonprofit 
group specializing in real estate acquisitions for Federal Government 
entities, will purchase the mineral rights from willing owners at fair 
market value, and will perform any appraisal updates required. In the 
second phase, these rights will be purchased by the DOE, with the funds 
provided in the Energy and Water Development Appropriations Act for 
Fiscal Year 2006.
    At this time, TPL, DOE, and USFWS are finalizing a letter of 
agreement, stipulating the process for contacting willing sellers and 
ascertaining fair market values.
    DOE and the USFWS fully expect to accomplish the acquisition of 
mineral rights well within the timeline mandated by Congress, and in 
harmony with the local stakeholder community.
    Question. With regard to Environmental Management funding, why 
didn't the Department of Energy take the money it saved at Rocky Flats 
and use it to accelerate clean-up at other sites?
    Answer. Prior to fiscal year 2001, the Department of Energy's (DOE) 
Environmental Management funding strategy was that as sites such as 
Rocky Flats completed cleanup, and their funding requirements 
decreased, those savings would be made available to other sites. 
However, beginning in fiscal year 2003, as part of the administration's 
Accelerated Cleanup Initiative, increased funding was provided to 
accelerate cleanup at most sites, rather than waiting until cleanup at 
sites such as Rocky Flats was completed. This allowed the DOE to 
address its urgent risks sooner and to accelerate cleanup.
    Question. To what extent is DOE using contract mechanisms similar 
to those used at Rocky Flats to incentivize the contractor to achieve 
greater performance? What can we do to further encourage the 
accelerated clean-up of other sites?
    Answer. The contract mechanisms used at Rocky Flats were part of a 
successful three-pronged management strategy. The first element used 
contract devices designed to provide incentives to the contractor to 
complete site closure within targeted costs and schedules. Second, it 
included application of innovative technologies and development of 
regulatory agreements that focused on end states. Third, it involved 
extensive stakeholder participation. The Department of Energy (DOE) 
currently is using the same elements employed at Rocky Flats for the 
Mound, Fernald, Columbus, and Oak Ridge projects.
    The DOE is using its lessons learned from the Rocky Flats project 
to accelerate cleanup efforts at its other sites. It is transferring 
Rocky Flats personnel to support closure at other sites and is 
providing lessons-learned seminars to managers at other sites. The DOE 
also developed and is widely disseminating lessons-learned documents 
and a digital video disk explaining its cleanup and closure successes. 
The DOE continues to examine its cleanup work at each of the 
Environmental Management sites to identify areas where an accelerated 
approach is feasible.
    The former Rocky Flats weapons contractors (Dow and Rockwell) and 
the property owners near Rocky Flats have been engaged in a protracted 
legal battle over whether these property owners should be compensated 
for the damage caused by the environmental contamination at Rocky 
Flats. Last February, a jury awarded the property owners an incredible 
sum of over $550 million in damages. I understand the contractors are 
now appealing this decision. It seems to me that only people who are 
benefiting from this battle are the lawyers who so far have taken $100 
million in legal fees. And, because Dow and Rockwell are indemnified by 
the Federal Government, the real losers are the American taxpayers.
    Question. To what extent is DOE trying to settle this case? Is 
there any evidence that suggests that these properties suffered 
extensive contamination?
    Answer. An appeal has not yet been filed in this case because a 
judgment has not yet been entered. One reason for that is that the 
jury's verdict needs to be adjusted by the court to eliminate 
duplicative damages and punitive damages that are in excess of what 
Colorado law allows. When a judgment is entered, it should be for 
substantially less than the $550 million figure that has been reported. 
It is also not the case that the legal fees that have so far been 
incurred in this litigation amount to $100 million. That said, this 
litigation has clearly already been very costly for the American 
taxpayers, and if an adverse judgment were to be upheld on appeal the 
taxpayers will be, as your question says, the ``real losers.'' Prior to 
the trial in this case we were advised that the plaintiffs would be 
willing to consider settling their claims for approximately $100 
million. We believed then that a settlement anywhere near that amount 
could not be justified and, notwithstanding the jury's verdict, that 
remains our view. In part, this is because there is no evidence that 
properties in the vicinity of Rocky Flats suffered extensive 
contamination. Just last year the Agency for Toxic Substances and 
Disease Registry (ATSDR) issued a report concluding that the ``studies 
and sampling data generated by numerous parties, including the U.S. 
Environmental Protection Agency (EPA), the Colorado Department of 
Public Health and Environment (CDPHE), the U.S. Department of Energy 
(DOE) and its contractors and local community groups, universities and 
private researchers . . . paint a consistent picture of the public 
health implications of environmental contamination'' near Rocky Flats, 
and that picture is that ``past, current and future exposures are below 
levels associated with adverse health effects.'' In fact, ATSDR 
reported that ``estimated total exposures to radiation from the soil . 
. . are 3,000 times lower than the average exposures to ionizing 
radiation experienced by United States residents.''
                                 ______
                                 
             Questions Submitted by Senator Mitch McConnell

    Question. In fiscal year 2005, this committee generously approved 
my request to increase funding for cleanup at the Paducah Gaseous 
Diffusion Plant to accelerate the disposal of legacy waste and 
decommissioning activities at the site. Can you update the committee on 
how those funds have been used and what progress has been made in 
accelerating these projects?
    Answer. The following progress has been realized to date at the 
Paducah Gaseous Diffusion Plant:
Legacy Waste Disposal Acceleration
    The Department of Energy (DOE) disposed of more than 1,900 drums 
(over 1,000,000 pounds) of stored uranium by-products in fiscal year 
2006, accelerating this action by more than 2 years.
    DOE accelerated by 3 years the disposal of more than 24,000 cubic 
feet of low-level radioactive waste which is stored outside.
Decontamination and Decommissioning (D&D) Acceleration
    The C-410-A Hydrogen Holder Tank has been completely removed, 8 
years ahead of the original schedule.
    The characterization and disposal of waste located in three DOE 
Material Storage Areas (DMSA) is ahead of the original schedule and is 
expected to be completed in fiscal year 2006. More than 80 percent of 
the targeted waste has been processed and the outside DMSA has been 
completely emptied.
    The C-603 Nitrogen Facility removal is complete with the exception 
of a small amount of residual waste. This project was accelerated by 
approximately 5 years.
    The C-402 Lime House removal is on schedule for completion in 
fiscal year 2006, 2 years early. A streamlined regulatory approval 
process was implemented in cooperation with the State and Federal 
regulators.
    A project to remove the C-405 Incinerator is undergoing final 
regulatory approval with actual decontamination and decommissioning 
(D&D) scheduled to begin in late fiscal year 2006 and be completed in 
fiscal year 2007. This schedule is an acceleration of approximately 3 
years.
    DOE is also working to get final approval from the regulators to 
remove the C-746-A West-End Smelter. The D&D should begin in early 
fiscal year 2007 and will be complete in fiscal year 2007, 2 years 
ahead of schedule.
    I remain concerned by the continuing delays in the construction of 
the Depleted Uranium Hexafluoride (DUF<INF>6</INF>) conversion facility 
at the Paducah Gaseous Diffusion Plant. Congress has twice enacted 
legislation I authored to make sure this project moves forward in a 
safe and expeditious manner. This committee has met or exceeded funding 
requests for this project in each fiscal year. Yet in its fiscal year 
2007 budget justification, DOE again pushes the construction completion 
date back to November of 2007 and to start operations in the spring of 
2008.
    Question. What are the reasons for the delays? What assurances can 
the Department offer this committee that it will be able to meet this 
deadline? Given that one of the deadlines DOE has met on this project 
was the statutory deadline to begin construction by July 31, 2004, does 
Congress need to legislate a mandatory date for start of operations?
    Answer. On September 30, 2005, the Deputy Secretary approved the 
Project Performance Baseline and Start of Construction for the depleted 
uranium hexafluoride (DUF<INF>6</INF>) project with commencement of 
operations projected for April 2008. Previous schedules were based on 
conceptual and preliminary designs that had not been validated by the 
Department of Energy (DOE), unlike the current approved schedule which 
is based upon the final conversion facility design. The need to adjust 
the original schedule reflects the considerable uncertainty associated 
with large construction projects during early design stages. DOE has 
high confidence in the new schedule now that the design is complete. 
The schedule includes 4 months of schedule extension necessary to 
incorporate design and fabrication activities to achieve greater 
assurance of safety for chemical operations during natural phenomena 
events, such as earthquakes or high wind events. The schedule also 
includes 5 months of contingency to account for unexpected events, to 
give DOE the confidence in our commitment to this approved baseline. 
Schedule contingency was not included in previous schedules.
    Since approval of the Project Baseline in September 2005, we have 
seen continuous progress at the site, including construction of the 
conversion buildings and steady progress on the warehouse/maintenance 
and administration buildings. The major construction is more than 35 
percent complete. Equipment procurement contracts for about 75 percent 
of the major equipment have been awarded, totaling more than $70 
million. In addition, approximately $60 million in subcontracts for 
construction and fabrication have been awarded to date. We are 
committed to our schedule, and to commence operations in a manner that 
is safe and protective of the community.
    Question. Like many members of the Paducah community, I am 
concerned about the economic impact of the plant possibly ceasing 
enrichment operations in 2010. In its fiscal year 2007 budget 
justification. DOE notes that portions of the Paducah site ``will be 
used to promote the development of private-sector enterprises in ways 
that are consistent with and complementary to current site missions''. 
Given that the Paducah has a skilled workforce and an acceptance of 
nuclear operations not found in other parts of the country, has the 
Department identified what those sorts of ``private-sector 
enterprises'' might be?
    Answer. The Department of Energy (DOE) is not conducting re-
industrialization activities at the Paducah site. The availability of 
this large cleaned-up industrial site is expected to be promoted as an 
attractive resource by the community in its long-term industrial 
development after DOE has completed cleanup. DOE anticipates that its 
final cleanup activities will support future community private sector 
development initiatives.

                          SUBCOMMITTEE RECESS

    Mr. Garman. Thank you, Mr. Chairman.
    Senator Domenici. We stand in recess.
    [Whereupon, at 12:03 p.m., Thursday, March 30, the subcom- 
mittee was recessed, to reconvene subject to the call of the 
Chair.]

</pre></body></html>
